<html>
<title> - JOINT OVERSIGHT HEARING ON ``ENERGY IMPACTS OF THE ROADLESS RULE''</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                  ENERGY IMPACTS OF THE ROADLESS RULE

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                AND THE

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 4, 2001

                               __________

                           Serial No. 107-16

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
71-552                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                
              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    BARBARA CUBIN, Wyoming, Chairman
              RON KIND, Wisconsin, Ranking Democrat Member

W.J. ``Billy'' Tauzin, Louisiana     Nick J. Rahall II, West Virginia
Mac Thornberry, Texas                Edward J. Markey, Massachusetts
Chris Cannon, Utah                   Solomon P. Ortiz, Texas
Jim Gibbons, Nevada,                 Calvin M. Dooley, California
  Vice Chairman                      Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Grace F. Napolitano, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 4, 2001....................................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     3
        Prepared statement of....................................     5
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Prepared statement of........................    14
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     2
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, Prepared statement of..................    17
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia.................................     6

Statement of Witnesses:
    Eppink, Jeffrey, Vice President, Advanced Resources 
      International..............................................    35
        Prepared statement of....................................    37
    Lance, Hon. Alan G., Attorney General, State of Idaho........     8
        Prepared statement of....................................    10
    Morton, Dr. Peter A., Resource Economist, The Wilderness 
      Society....................................................    57
        Prepared statement of....................................    58
        Letter from The Ecological Society of America submitted 
          for the record.........................................    68
    Moyer, Steve, Vice President of Conservation Programs, Trout 
      Unlimited..................................................    38
        Prepared statement of....................................    43
        Letter to The Honorable Barbara Cubin and The Honorable 
          Ron Kind submitted for the record......................    40
    Phillips, Randle G., Deputy Chief for Programs and 
      Legislation, Forest Service, U.S. Department of Agriculture    30
        Prepared statement of....................................    32
        Letters from the Office of Advocacy, Small Business 
          Administration, and other materials submitted for the 
          record.................................................    72
    Schaefer, Greg, Director, External Affairs, Arch Coal Company    47
        Prepared statement of....................................    48

Additional materials supplied:
    Report entitled ``Endogenous Substitution Among Energy 
      Resources and Global Warming'' submitted for the record....   125

 
   JOINT OVERSIGHT HEARING ON ``ENERGY IMPACTS OF THE ROADLESS RULE''

                              ----------                              


                        Wednesday, April 4, 2001

                     U.S. House of Representatives

      Subcommittee on Energy and Mineral Resources, joint with the

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittees met, pursuant to notice, at 1:27 p.m. in 
Room 1324, Longworth House Office Building, Hon. Scott McInnis, 
[Chairman of the Subcommittee on Forests and Forest Health] and 
Hon. Barbara Cubin [Chairman of the Subcommittee on Energy and 
Mineral Resources] presiding.
    Mr. McInnis. The Committee on Resources Subcommittee on 
Forest and Forest Health in the joint oversight hearing on 
energy impacts of the roadless rule will come to order.
    Here is what our schedule looks like this afternoon. As you 
know, it is 1:30 now. That clock is wrong, by the way. A couple 
of things we would like to go over. Number one, we would like 
to have this hearing completed within a two-hour period of 
time. Unfortunately, during that period of the two hours we 
will be interrupted with voting, which we did not anticipate, 
but the meeting must conclude by 3:30.
    With that in mind, what I have done as Chairman is 
exercised my discretion and taken the witness list out of 
order. I intend to call our witnesses first who are from out of 
town in hopes that we can complete your testimony.
    Under the rules of this Committee we allow the witnesses 5 
minutes. We have a timer that is sitting on your desk there on 
the witness table. I ask that you comply with it. It gives you 
warning when you come close to the end of your time expiration. 
And in order that we can complete as much of this hearing as 
possible within the allotted time, I ask that everyone respect 
the time limits that have been allotted.
    Congresswoman Cubin will be joining us shortly. She is co-
chairing the meeting so I would expect that I will turn the 
meeting over for her to chair not long after she gets here.
    I am going to go ahead and waive my opening remarks, again 
in hopes, as a courtesy to the witnesses, that we can get as 
many witnesses as possible on so I will submit my remarks for 
the record.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott Mcinnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    The RARE I and RARE II (Roadless Area Review and Evaluations) in 
1971 and 1977, were attempts to deal with the debate over roadless 
areas, each in a single national process. Both times, they proved 
unsuccessful legally and politically. In response, through passage of 
the National Forest Management Act (NFMA) in 1976, Congress provided 
for the further protection of roadless areas, but on a forest-by-forest 
basis. It directed the Forest Service to develop forest plans for the 
management of those forests, utilizing significant local and state 
input, then move resulting wilderness recommendations through Congress. 
This process, while deliberate and at times cumbersome, resulted in 
significant protections for roadless areas and the creation of more 
than 30 million acres of congressionally designated wilderness on the 
national forests. While somewhat controversial, this process 
nevertheless managed to resolve most disagreements through thoughtful 
compromise. Ultimately and unfortunately, these compromises were not 
acceptable to some groups and individuals, who were then able to 
convince the Clinton Administration to take another run at the roadless 
issue in yet another single national process. Repeating the mistakes of 
history, the Clinton Administration moved forward a top-down roadless 
rule-making process, trading a hard-won local consensus for an 
explosive national controversy. In so doing, it created a new, illegal 
process with striking similarities to the failed RARE I and RARE II 
national initiatives.
    This is unfortunate because to most of us in Congress there has 
never been any question that some roadless areas deserve further 
protection, it is simply a matter of how best to do it. To cram a one-
size-fits-all political edict down the throats of the states could not 
have been more polarizing and damaging to the issue itself. It should 
therefore come as no surprise that a number of states have filed, or 
are in the process of filing, lawsuits against the rule -- and it is 
likely that the states will prevail. This also should come as no 
surprise, considering that the Administration denied all Freedom of 
Information Act requests and all Cooperating Agency Status applications 
filed by affected states. Consider also that accurate maps were not 
made available during the public comment period, in violation of the 
Administrative Procedures Act. Consider that the Administration 
developed the policy in lockstep coordination with a handful of 
national environmental groups and in conjunction with their 
multimillion dollar roadless campaign--a likely violation of the 
Federal Advisory Committee Act. Consider that no small business or 
small government analysis was done to comply with the Regulatory 
Flexibility Act. Consider that many forest plans will have to be 
revised as a result of the rule, violating the National Forest 
Management Act. Consider that it usually takes the Forest Service two 
to three years to do a legally defensible EIS for a timber sale 
covering only 300 acres, yet it took the Administration only one year 
to do a single massive EIS covering 58 million acres. How many 
``considerations'' does it take before it becomes painfully obvious 
that the roadless initiative was not undertaken to solve environmental 
problems but rather was done for the purpose of creating a partisan 
political issue.
    It's no secret that if you want broad national policies to be 
accepted broadly, you must get a critical mass of buy-in from the 
public, both nationally and locally. Polls asking only whether roadless 
areas deserve protection, while avoiding how this should be done, do 
not accurately represent the public's sentiments on the issue. Anyone 
who really believes that a lasting solution to the roadless debate can 
be achieved by forcing it through politically, at the national level, 
without substantial involvement at the state and local level is 
delusional.
    I am willing to work with anyone concerning further protection of 
roadless areas, but never at the expense of effective local 
participation. These are not mutually exclusive goals and, in fact, 
they can only be achieved together.
                                 ______
                                 
    Mr. McInnis. I would also request that other members of the 
Committee waive their opening remarks and just submit them for 
the record. Is that all right, Mr. Udall? Mr. Otter?
    Mr. Otter. That is fine.
    Mr. McInnis. Mr. Otter, would you like to introduce the 
first witness?
    Mr. Otter. Thank you very much, Mr. Chairman. Let me begin 
by thanking you for calling this very important meeting that 
has had a devastating effect on Idaho--on our economy and our 
way of life, on our big game habitat, you name it. It has been 
a problem for us.
    I am proud to bring before the Committee today Alan G. 
Lance, who is the Attorney General for the State of Idaho. Al 
Lance was elected as the 31st Attorney General of the State of 
Idaho in 1994 when I was elected to my third term as Lieutenant 
Governor for the State, and Al and I had the chance to work a 
term and a half very close together.
    Attorney General Lance's leadership has resulted in the 
successful consolidation of legal services to the State of 
Idaho, an effort sought by previous Attorneys General for more 
than two decades. So General Lance is well known for his 
austere moves and abilities to save Idaho taxpayers as much as 
$1.6 million thus far and many more to come.
    General Lance has done a terrific job on a national front 
for the State of Idaho. He is recognized as a national leader 
in the battle against domestic terrorism. Legislation that he 
sponsored in Idaho has become a national model for dealing with 
the extremist groups and the surviving families.
    General Lance signed a monumental agreement with the 
tobacco industry on November 18, 1998, unprecedented by any of 
our sister states, for $712 million, which is the largest civil 
settlement in Idaho's history.
    General Lance has served as the Chairman of the Conference 
of Western Attorneys General in 1999 and the year 2000 and he 
is currently a member of the Strategic Planning Committee on 
the National Association of Attorneys General.
    Mr. Chairman, I bring before you today a well qualified 
advocate for the position which I hold for the State of Idaho 
and the roadless area issue and I am proud to say the champion, 
the first champion that has been willing to come forward to 
subject the last Administration's land grab in the State of 
Idaho and in the West to court resolve.
    Mr. Chairman and members of the Committee, I present to you 
Alan G. Lance, Attorney General of the State of Idaho.
    Mr. McInnis. Mr. Lance, prior to you beginning your 
testimony I would like to welcome the Co-Chair of the 
Committee, Barbara Cubin, Congresswoman from Wyoming. I will 
turn the microphone over to her. Following her remarks, Mr. 
Lance, we will go immediately to your remarks.

 STATEMENT OF THE HONORABLE BARBARA CUBIN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Cubin. Thank you and thank you for your patience.
    This Subcommittee meets today jointly with our sister 
Subcommittee on Forests and Forest Health, in our oversight 
capacity to take testimony on the impact of the Clinton 
Administration's roadless area conservation rule. Our 
Subcommittee wishes to focus on the ``opportunity costs'' of 
this policy upon our nation's energy supply. By that I mean the 
potential of the affected National Forest System lands to host 
deposits of natural gas, coal, oil and other mineral resources 
which could contribute to domestic energy supplies.
    The Energy Subcommittee has held several such oversight 
hearings to examine the role of public lands and minerals and 
what role they can play in alleviating the current energy 
crisis. We are now focusing on the roadless rule. With the able 
assistance of Chairman McInnis, we hope to understand better 
the pending transportation policy of the U.S. Forest Service. I 
guess it is not pending; it is the case now.
    My interest in this issue was aroused when I learned that 
late last year that the Department of Energy had contracted to 
analyze the impact of the draft roadless rule on oil and gas 
resources availability. Despite the serious concerns raised by 
the DOE, senior officials of the OMB and also the Council on 
Environmental Quality, the Forest Service and several 
influential environmental groups decided to meet in early 
December of 2000 and recommend to President Clinton an 
alternative which they knew would have a major impact. There 
certainly was an effort by some to write a rule which would not 
have reached the $100 million impact threshold by exempting 
mineral leasing activities from the roadless policy. In the end 
though, the decision was made to exempt no one. Instead they 
chose to forge quickly ahead with the little time available in 
order to make the ``midnight rule'' effective before the new 
President was sworn in. And we are all left to clean up the 
mess.
    I have concerns that the past Administration inadequately 
analyzed the impact of the rule upon the small business 
community, a requirement of the Regulatory Flexibility Act for 
major rules. But this is hardly the first time they have run 
roughshod over these folks. The small hardrock mineral miners 
successfully sued when the BLM tried to ignore them in a rush 
to make new rules. Perhaps that will also be the case here, 
although I am told that the Forest Service has argued that the 
roadless policy is not subject to this law.
    One legacy of Bill Clinton which is just beginning to be 
recognized is the energy situation in which our nation has been 
left. The past decade was one of denial. The Internet-driven 
economy was booming. Why should they worry about power demands 
versus supplies? The previous Administration felt OPEC could 
not set the price of crude oil like they did in the '70's and 
'80's, so why should they concern themselves about import 
dependence? They felt natural gas was so plentiful that we 
would be able to put off-limits some of the best hunting 
grounds for replacement supplies--including the public lands of 
our Rock Mountain basins with high potential for development of 
significant energy resources. We are all feeling the effects of 
that poor policy direction.
    The cavalier attitude of the past CEQ Chairman and the 
recently retired Chief of the Forest Service is simply 
baffling. As with the argument that ANWR's estimated 10 billion 
barrels of oil represents only six months of domestic demand, 
so it was said that DOE's estimate of 11 trillion cubic feet of 
roadless area gas is only six months of our national 
production. In the aggregate these amounts do matter.
    Chief Dombeck even stated in a January 5, 2001 letter to 
OMB, and this is a quote, ``If exploration and development did 
occur, it would likely be five to 10 years before any 
production would occur, because oil and gas leasing is a 
lengthy process. Therefore the value would not be realized in 
the near future and any production would be spread over 
multiple years in the future.''
    So what is wrong with this picture? Mr. Dombeck 
acknowledged that natural gas to be developed from these lands 
would be an additional increment of supply over many years, not 
six months. Yet he argued against exempting energy leasing from 
the roadless proposal, anyway. On the date he signed this 
letter spot prices for natural gas were hovering around $10 per 
million BTUs of energy--five times the long-term average--and 
in Southern California the prices were hitting over $50. But 
because roadless gas could not get to market this winter, the 
previous administration chose to continue down the road of 
denial. They chose to lock up these resources and further 
reduce our ability to increase our own energy supply.
    In addition to the gas resources taken off the board, there 
was a great deal of access to coal reserves also restricted by 
this policy. The former Chief felt there was plenty of coal 
outside the roadless areas, so they should not worry about the 
rule's impact on coal production. This was while California was 
warning that rolling black-outs were about to happen, and they 
did happen.
    I am here to tell you they will need more coal-fired power 
from Utah, not less. What were they thinking when they 
recommended that Bill Clinton promulgate this rule? Could they 
have been any more short-sighted than they were? It reminds me 
of the story of how Nero fiddled while Rome burned.
    Chairman McInnis, I look forward to this hearing and I look 
forward to the testimony of our witnesses as we try to 
understand the effects of this roadless policy.
    [The prepared statement of Mrs. Cubin follows:]

  Statement of The Honorable Barbara Cubin, Chairman, Subcommittee on 
                      Energy and Mineral Resources

    The Subcommittee meets today jointly with our sister Subcommittee 
on Forests and Forest Health, in our oversight capacity to take 
testimony on the impact of the Clinton Administration's roadless area 
conservation rule. Our subcommittee wishes to focus on the 
``opportunity cost'' of this policy upon our nation's energy supply. By 
that I mean the potential of the affected National Forest System lands 
to host deposits of natural gas, oil, coal and other mineral resources 
which could contribute to domestic energy supplies.
    The Energy Subcommittee has held several such oversight hearings to 
examine the role public lands and minerals can play in alleviating our 
current energy crisis. We are now focusing in on the roadless rule, 
with the able assistance of Chairman McInnis, to help us understand the 
pending transportation policy of U.S. Forest Service.
    My interest in this issue was aroused when I learned late last year 
that the Department of Energy had contracted to analyze the impact of 
the draft roadless rule on oil and gas resource availability. Despite 
the serious concerns raised by DoE, senior officials of the Office of 
Management and Budget and also the Council on Environmental Quality, 
the Forest Service and several influential environmental groups decided 
to meet in early December 2000 and recommend to President Clinton an 
alternative which they knew would have a major impact.
    There certainly was an effort by some to write a rule which would 
not have reached the $100 million impact threshold, by exempting 
mineral leasing activities from the roadless policy. In the end, the 
decision was made to exempt no one. Instead they chose to forge quickly 
ahead with the little time available in order to make the ``midnight 
rule'' effective before the new President was sworn in. And we are all 
left to clear up the mess.
    I have concerns that the past Administration inadequately analyzed 
the impact of the rule upon the small business community, a requirement 
of the Regulatory Flexibility Act for major rules. But this is hardly 
the first time they ran roughshod over these folks. The small hardrock 
miners successfully sued when BLM tried to ignore them in a rush to 
rulemaking. Perhaps that will also be the case here, although I'm told 
that the Forest Service has argued the roadless policy is not subject 
to this law.
    One legacy of Bill Clinton which is just beginning to be recognized 
is the energy situation in which our nation has been left. The past 
decade was one of denial. The internet-driven economy was booming, why 
should they worry about power demands versus supplies? The previous 
administration felt OPEC couldn't set the price of crude oil like they 
did in the ``70s and ``80s, so why should they concern themselves about 
import dependence?
    They felt natural gas was so plentiful that we would be able to put 
off-limits some of the best ``hunting grounds'' for replacement 
supplies - including the public lands of our Rocky Mountain basins with 
high potential for development of significant energy resources. We are 
all feeling the effects of that poor policy direction.
    The cavalier attitude of the past CEQ Chairman and the recently 
retired Chief of the Forest Service is simply baffling. As with the 
argument that ANWR's estimated 10 billion barrels of oil represents 
only six months domestic demand, so it was said that DoE's estimate of 
11 trillion cubic feet of Roadless area gas is only six months of our 
national production. In the aggregate, these amounts do matter.
    Chief Dombeck even stated in a January 5, 2001 letter to OMB, ``if 
exploration and development did occur, it would likely be 5 to 10 years 
before any production would occur, because oil and gas leasing is a 
lengthy process. Therefore the value would not be realized in the near 
future, and any production would be spread over multiple years in the 
future.--
    So what is wrong with this picture? Mr. Dombeck acknowledged that 
natural gas to be developed from these lands would be an additional 
increment of supply over many years, not six months. Yet he argued 
against exempting energy leasing from the Roadless proposal anyway. On 
the date he signed this letter spot prices for natural gas were 
hovering around $10 per million BTUs of energy - five times the long-
term average - and in southern California the prices were hitting over 
$50.
    But, because roadless gas couldn't get to market this winter, the 
previous administration choose to continue down the road of denial. 
They choose to lock up these resources and further reduce our ability 
to increase our energy supply.
    In addition to the gas reserves taken off the board, there was a 
great deal of access to coal reserves also restricted by the policy. 
The former Chief felt there was plenty of coal outside the roadless 
areas, so they shouldn't worry about the rule's impact on coal 
production. This was while California was warning that rolling 
blackouts were about to happen. And they did.
    I am here to tell you, they will need more coal-fired power from 
Utah, not less. What were they thinking when they recommended that Bill 
Clinton promulgate this rule? Could they have been any more short-
sighted? It reminds me of the story of how Nero fiddled while Rome 
burned.
    Chairman McInnis, I look forward to hearing the testimony of our 
witnesses as we try to understand the effects of this roadless policy.
                                 ______
                                 
    Mr. McInnis. Thank you, Madam Chairman.
    Now I will recognize Mr. Rahall. Then we will go to you, 
Mr. Lance, but I will recognize Mr. Rahall to present the 
minority opening remarks, as well as his own. Mr. Rahall?

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. McInnis. Mr. Chairman, I 
appreciate very much your allowing me to give this opening 
testimony.
    If the government is to run more like a business, as many 
in the business community have urged us to do throughout the 
years, then it would seem to me that we should all agree that 
the roadless rule makes economic sense. I make this observation 
because the 380,000 miles of roads in our national forests are 
not by any stretch of the imagination being maintained. The 
Forest Service is receiving only about 20 percent of the funds 
it annually needs to keep these roads in repair and we are 
faced with an $8.4 billion capital improvement backlog. The 
results--a rash of public health, safety and environmental 
threats.
    Once built, people in rural communities begin to use many 
of these roads but they do so at their own peril. The state of 
disrepair is so bad that landslides and slope failures put not 
only these people at risk but also endanger entire watersheds 
and critical fish and wildlife habitats.
    It seems to me that prudence dictates that we first fix 
what we have rather than build more roads in national forests 
only to then have them deteriorate once the timber or energy 
companies are done with them.
    Frankly, I believe it is unfair to the American taxpayer to 
have to shoulder this burden. The public is being called upon 
to subsidize these extractive industries, to add to their 
profit margin, and then to be saddled with the responsibility 
of maintaining these roads long after the timber is gone, the 
oil and gas is drilled, or the coal is mined. That is hardly an 
attractive proposition.
    So I would submit that the first question, Mr. Chairman, 
that we should ask is whether these industries are willing to 
help finance repairing the existing roads as well as pay to 
maintain any new roads before any consideration is given to 
opening up these roadless areas. If they are, then in my 
opinion we have something to discuss, but I do not see that 
mentioned in any of the testimony that will be given to us 
today.
    We have had several hearings in this Committee already on 
the issue of producing more energy from public lands and I 
think those calling these hearings are becoming more desperate. 
Energy production from these lands was at an all-time high 
during the Clinton Administration. Oil production from Federal 
areas already account for 27 percent of the U.S. total: natural 
gas, 38 percent of the total; coal, 33 percent of that total. 
And where will the major new production could come from? The 
OCS? Well, much of that is off-limits due to leasing moratoria 
supported by both Republicans and Democrats.
    So this Committee is now reduced to looking at opening up 
national monuments and pristine roadless areas, which amount to 
only 2 percent of the lands in the continental U.S. If that is 
the case, why not set a drill pad down in Yellowstone National 
Park? It would be 100 percent certain that wells at Old 
Faithful would generate geothermal power. While you are at it, 
why not build a dam in Grand Canyon National Park? It would be 
100 percent certain that hydropower from the new dam on the 
Colorado would generate electricity. But the fact of the matter 
is that the American people would overwhelmingly oppose such a 
trade-off of national treasures for energy development.
    I do not believe that this nation is so desperate, so short 
of alternatives, that we should now sacrifice our remaining 
pristine forest roadless areas which, by the way, have been 
opened to energy leasing for decades, so that the American 
people will have what apparently some view as the honor of 
subsidizing these activities even further. Thank you, Mr. 
Chairman.
    Mr. McInnis. Welcome Mr. Inslee, the Ranking Member on the 
Forest Subcommittee.
    Mr. Lance, we are now prepared for you to begin your 
comments. You may proceed.

  STATEMENT OF THE HONORABLE ALAN G. LANCE, ATTORNEY GENERAL, 
 STATE OF IDAHO, ACCOMPANIED BY THORPE ORTON, DEPUTY CHIEF OF 
                             STAFF

    Mr. Lance. Thank you, Mr. Chairman, Madam Chair. Let me 
take this opportunity to introduce Thorpe Orton, my Deputy 
Chief of Staff, who has been the project manager on the 
roadless proposal.
    Congressman Otter, thank you very much for that generous 
although brief introduction.
    Congressman Simpson, good to see you again, sir.
    Congressman Rahall, thank you for your perspective on this.
    My good friend, Tom Udall, former attorney general of New 
Mexico, Tom.
    Congressman Udall, nice to see you, Mark, and Congressman 
McCollum.
    Let me start out by explaining Idaho's lawsuit. First of 
all, it was filed on behalf of the Land Board. The Land Board 
consists of five constitutional officers, which would be the 
governor, the attorney general, the superintendent of public 
instruction, the secretary of state and our controller, five 
constitutional officers. The Land Board's responsibility is to 
manage the state lands within the State of Idaho. The proceeds 
of that management go to fund our endowed institutions, which 
are the schools, and for the benefit of the school children of 
the State of Idaho.
    For the minority members I think it is significant to note 
that all five members of the Land Board filed the lawsuit and 
have been opposed to this roadless initiative from its 
inception. The composition is three Republicans and two 
Democrats on the Land Board in the State of Idaho and all five 
are plaintiffs in the lawsuit against the Forest Service at the 
present time. In Idaho this is not a partisan issue; this is a 
bread and butter issue.
    Sixty-five percent of our land mass in the State of Idaho 
is presently under Federal management, and I might say 
mismanagement. Last year we lost 1.2 million acres to forest 
fires as a result of years of neglect, by the Forest Service 
and forest policy.
    Idaho has actually filed two lawsuits against the roadless 
initiative. The lawsuits were filed through the Idaho State 
Board of Land Commissioners, which I have described to you. The 
Land Board is bipartisan, composed of five statewide-elected 
constitutional officers. The Land Board manages the State of 
Idaho's endowment lands to maximize revenue for our public 
schools, whose lands are impacted by the roadless rule 
substantially.
    The thrust of our case is quite simple. NEPA requires 
meaningful public notice and comment and that means meaningful 
to the citizens of the State of Idaho, who stand to lose 9.5 
million acres in inventoried roads to this initiative.
    President Clinton called the roadless initiative one of the 
largest land preservation efforts in America's history. It was 
not, however, put through anything close to an equally historic 
public comment period. Instead, the notice of intent was issued 
just six days after President Clinton's announcement. The 
public was given just 60 days to comment during the scoping 
period. Forest Service Chief Michael Dombeck called the 
proposal urgent and told his agency that it cannot afford to 
waste a single day. Indeed the roadless proposal impacts 58.5 
million acres of inventoried roadless areas. We cannot tell how 
many acres of uninventoried acres are impacted but Idaho alone 
accounts for 9.5 million acres of inventoried roadless lands.
    The Forest Service-touted website for public information on 
the roadless service was, by and large, totally useless during 
the entire scoping period. Public meetings in Idaho began just 
12 business days before the deadline expired. The Freedom of 
Information Act information which was requested and filed by my 
office, was totally ignored and we had to bring a lawsuit to 
get the information that we desired.
    Idaho's first lawsuit was filed on December 30, 1999. The 
court had to dismiss our lawsuit at that time due to the issue 
of ripeness but it provided a rather stern warning to the 
Forest Service. The warning included the following statements 
by the court, and I quote. ``The Forest Service should make 
every effort to ensure that the process is properly implemented 
with reasonable time frames to allow meaningful participation 
by the public.''
    And I quote again. ``When the areas contemplated to be 
roadless are not defined or shown by way of maps or otherwise 
illustrated, one does not have to be learned in the law to 
determine that the public's participation will hardly be 
meaningful.''
    I quote again. ``The Forest Service should proceed with 
caution. Time is not of the essence on this issue that has been 
studied for over 30 years.''
    Idaho's second lawsuit: Despite Idaho's efforts and the 
court's warning, the Forest Service pressed forward, rejecting 
requests for extensions of comment periods and ignoring Freedom 
of Information Act requests. The DEIS comment period was a 
laughable 69 days. The Idaho State Board of Land Commissioners 
provided an additional comment to the Forest Service 
immediately after the Final Environmental Impact Statement was 
issued on November 13, 2000. The Land Board also requested a 
face-to-face meeting with Secretary Glickman and Chief Dombeck. 
We never heard anything back as a result of our request to 
them. Maps or other identification of the uninventoried areas 
were never provided to the people of the State of Idaho.
    Accordingly, given the court's clear directives to the 
Federal Forest Service and our concerns, the State of Idaho 
filed a second lawsuit on January 9, 2001. We are currently 
awaiting the court's decision on the state's motion for a 
preliminary injunction and that was argued last Friday.
    Idaho is concerned with the roadless rules and its impact 
on energy, particularly given the current energy crisis. 
Idahoans typically pay close to the highest prices in the 
nation for gasoline. Adverse impact in other states will 
trickle down to the price that we pay at the pump in the State 
of Idaho.
    With respect to mineral extraction, the Final Environmental 
Impact Statement details impacts associated with phosphate 
mining in the Caribou National Forest. The annual economic 
impacts are set forth in the FEIS at Table 3-68.
    In conclusion, Chairman, let me thank you again for the 
opportunity to be here. You may be aware that the State of 
Colorado has joined with Idaho in its case against the roadless 
rule. In addition, I understand that the State of Alaska has 
now filed its own lawsuit. These three states contain almost 49 
percent of the total inventoried acreage impacted by the 
roadless rule. I have heard that several other Western states 
may be filing suits too, including the states of Wyoming, 
Montana, North and South Dakota.
    Thank you, Chairman, for your consideration and time.
    [The prepared statement of Mr. Lance follows:]

 Statement of The Honorable Alan G. Lance, Attorney General, State of 
                                 Idaho

    I would like to thank Chairwoman Cubin and the members of the 
subcommittees for inviting me to testify here today. It is an honor to 
appear before you as the chief legal officer of the State of Idaho to 
speak about an issue that is extremely important to the citizens of 
Idaho.
    It is my understanding that this hearing focuses on the effect of 
the Roadless Area Conservation Rule on this nation's energy resources. 
The State of Idaho does indeed have significant concerns about the 
roadless rule and its effect on Idaho's economy. The most immediate 
economic concern of the State of Idaho relates to our endowment lands 
which are contiguous to or surrounded by the roadless areas. The 
endowment lands must be managed by the Idaho State Board of Land 
Commissioners (Land Board) for the benefit of Idaho's public schools. 
The State of Idaho has 9.3 million acres of inventoried roadless areas, 
and the Forest Service has not yet told the State how many acres of 
uninventoried areas in Idaho would qualify as roadless. I also 
understand that the subcommittees are particularly interested in the 
reasons why the State of Idaho has filed a lawsuit against the roadless 
rule.
    As a threshold matter, let me make clear that Idaho's legal case 
focuses on the process followed by the United States Department of 
Agriculture in proposing and implementing the roadless rule. The 
National Environmental Policy Act (NEPA) is a procedural law, requiring 
certain steps be followed by federal agencies. The process followed by 
the Department of Agriculture in adopting the roadless rule wholly 
ignored the procedural requirements of NEPA.
    The State of Idaho, through the Idaho State Board of Land 
Commissioners, which is bipartisan and composed of five statewide 
elected constitutional officers, unanimously agreed to file two 
lawsuits against the roadless initiative. The first lawsuit was filed 
on December 30, 1999, during the NEPA process and shortly after the 
scoping period expired. The second lawsuit was filed on January 9, 
2001, shortly after completion of the NEPA process and adoption of the 
rule. The second lawsuit is currently pending in the United States 
District Court for the District of Idaho.
    From the beginning, the State of Idaho was concerned with the short 
timeframes and information provided for public notice and comment. 
Moreover, when those concerns are considered in the context of a NEPA 
proposal of such historic scope, impacting 58.5 million acres 
nationwide, the quality of the public notice and comment provided rises 
to the level of a legal deficiency. As you know, NEPA was enacted to 
ensure fully informed and well-considered decisions on proposed actions 
with environmental consequences. In other words, public notice and 
comment must be ``meaningful'' in order to comply with NEPA.
    The roadless rule was first announced by former President Clinton 
on October 13, 1999, at which time he characterized it as ``one of the 
largest land preservation efforts in America's history.'' Just six days 
later, the Department of Agriculture initiated the scoping period by 
publishing a notice of intent to prepare an environmental impact 
statement. The fanfare surrounding the announcement also included 
Forest Service Chief Dombeck's October 28, 1999, letter to Forest 
Service employees, wherein he characterized the roadless proposal as an 
``urgent'' need and stated that the agency ``cannot afford to waste a 
single day.--
    The public was given only sixty (60) days to comment during 
scoping. Public meetings were scheduled in Idaho starting just twelve 
(12) business days and ending just three (3) business days before the 
end of scoping. Requests for an extension of the scoping period from 
Idaho Governor Kempthorne and from myself and six (6) other western 
Attorneys General were ignored. A Freedom of Information Act (FOIA) 
request sent by my office for pertinent information was also ignored. 
Meanwhile, the Forest Service's touted website for public access and 
information on the roadless proposal was, by and large, totally useless 
during the entire scoping period. Finally, despite the fact that this 
proposal was a land management proposal, no accurate, site-specific 
maps were made available to the public, and there were no maps for the 
uninventoried roadless areas. I would submit that it is not possible to 
meaningfully comment on a land management proposal when you do not know 
where the land is located.
    Based upon the lack of any responses to our extension request 
letters and FOIA request, as well as the sheer magnitude of the 
proposal in Idaho, the Land Board was left with no alternative but to 
file a lawsuit seeking an order from the court for more information and 
an extension of the public comment period.
    Idaho's first lawsuit was ultimately dismissed due to the fact that 
the federal courts lack power to hear NEPA cases before the entire NEPA 
process is final. However, the court's order contained a rather ominous 
warning to the Forest Service. Please allow me to read from the court's 
February 18, 2000, decision:

        While the Court has determined it lacks subject matter 
        jurisdiction over the State's Complaint at this point, the 
        Court would be remiss if it failed to emphasize to the Forest 
        Service that due to the historic magnitude of the proposed 
        action, the agency's final action will undoubtedly be subject 
        to close judicial scrutiny. As stewards of the federal funds 
        being expended to complete the NEPA process on the proposed 
        action, the Forest Service should make every effort to ensure 
        that the process is properly implemented with reasonable time 
        frames to allow meaningful participation by the public. It 
        appears at least arguable to this Court that the Forest Service 
        may be inviting error and a necessary review of its actions by 
        ignoring the objections of the Plaintiffs for a meaningful 
        scoping process.

        Counsel for the Forest Service do not dispute that the purpose 
        of the scoping process is to identify issues that are 
        substantive and eliminate issues that are not so as to instill 
        confidence and trust in the process. A central purpose of the 
        NEPA process is to provide full disclosure of relevant 
        information to allow meaningful public debate and oversight. 
        When the areas contemplated to be roadless are not defined or 
        shown by way of maps or otherwise illustrated, one does not 
        have to be learned in the law to determine the public's 
        participation will hardly be ``meaningful.'' The State's 
        concern over access to and management of its endowment and 
        state forest lands that may be surrounded by national forest 
        land are legitimate concerns of state and local governments and 
        its citizens.

        The sheer magnitude of this governmental action involving 40 to 
        60 million acres nationwide that precipitated 500,000 comments 
        in sixty days is the best evidence the Forest Service should 
        proceed with caution. Time is not of the essence on an issue 
        that has been studied for over 30 years. The public needs to be 
        informed in order to meaningfully participate. An argument 
        suggesting the Court is required to give due deference to 
        agency action and expertise is likely to ring hollow unless the 
        Forest Service does what it says it will do and that is give 
        due consideration to new comments and issues that may be raised 
        both during the draft EIS comment period as well as at the time 
        the final EIS is issued.

    Despite the court's warnings, the Forest Service continued to press 
forward with inadequate information and artificially short deadlines 
for public comment. The draft environmental impact statement was issued 
on May 10, 2000, and the public comment period was set at a meager 69 
days. Once again, Idaho's requests for extension of the comment period 
were denied. We still had no accurate maps for inventoried areas and no 
maps for the uninventoried areas. The public meetings in Idaho were 
once again set near the end of the comment period. In a letter we 
received from the Forest Service, Governor Kempthorne and I were told 
that no maps or mapping criteria existed or were planned for the 
uninventoried areas.
    The final environmental impact statement was issued on November 13, 
2000, approximately one (1) year and one (1) month after this massive 
proposal was first announced. In anticipation of the adoption of the 
final rule, the Land Board provided additional comment and requested a 
face-to-face meeting with Secretary Glickman and Chief Dombeck. Once 
again, Idaho's concerns and the request for a face-to-face meeting were 
never even acknowledged.
    Throughout this process, Idahoans have felt ``stiffed'' by the 
federal government. What should have been an open process with 
meaningful information and dialogue was fairly perceived as a sham 
process designed to reach a pre-determined outcome before a political 
deadline. Moreover, it is an insult to the elected officials and others 
who attempted to participate, requested basic and highly relevant 
information, and pled for additional time to comment on such a massive 
policy proposal, that we were simply ignored. This is not a good way to 
do business, particularly with the states that contain the most land 
impacted by the roadless rule, and it is why the State of Idaho will 
continue to move forward in the second lawsuit it filed on January 9, 
2001.
    With respect to energy and mineral exploration, many Idahoans have 
expressed concern with the substance of the roadless rule. I know that 
the new Administration is working on a comprehensive national energy 
policy, which I commend and recognize as clearly necessary for our 
future energy needs and economic well being.
    The roadless rule is a one-size-fits-all national policy, which 
constitutes a significant departure from site-specific planning and 
multiple use. Therefore, while Idaho is not currently an oil or gas 
producer, it will feel the impact of restrictions imposed on other 
states.
    Idahoans are often asked to pay higher prices for gasoline, and we 
are told that the reasons are supply related, including pipeline 
capacity and geographical isolation. The final environmental impact 
statement details the adverse impacts on energy and mineral exploration 
and production.
    In Idaho, phosphate mining in the Caribou National Forest will be 
substantially impacted. Table 3-68 of the FEIS estimates an annual 
economic impact of 10.4 million dollars in direct labor income, 38.5 
million dollars in total labor income, 185 direct jobs, 976 total jobs, 
and 1.3 million dollars in payments to the State of Idaho.
    Once again, I want to thank the subcommittees for inviting me to 
testify here today. Idaho will continue to press forward with its 
lawsuit. The State of Colorado has filed an amicus brief in support of 
Idaho. Alaska has also filed a lawsuit. Idaho, Colorado, and Alaska 
contain almost 49% of the total inventoried roadless areas subject to 
the roadless rule. It is my understanding that several other western 
states are contemplating lawsuits or preparing to file lawsuits against 
the roadless rule. I will keep you apprised of any significant 
developments during the litigation.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Lance.
    We will now begin the questioning. I will initiate that.
    I find it interesting in your remarks that the Forest 
Service denied accurate maps of the roadless areas, they denied 
meetings with you. My understanding is they denied information 
to you unless you sought it under the Freedom of Information 
Act and even then stalled.
    First of all, are my statements accurate about the 
information denied to you? and what additional information was 
denied to you by the U.S. Forest Service?
    Mr. Lance. Mr. Chairman, Co-Chairs, that is exactly 
accurate. We made a request for maps so that we could have some 
meaningful input in terms of some of these public hearings that 
the governor's office and my office attended. We had about 25 
hearings in Idaho and I think we attended about 20 of them.
    In order to testify in a meaningful and intelligent manner 
we needed to know what sort of areas we were looking at. The 
Forest Service claimed that it had the maps on the website. 
However, upon closer scrutiny one determined that, in fact, no 
website had been developed. It was still under development.
    We then made a FOIA request, which was virtually ignored, 
and after several telephone calls and requests for the 
information, we were required to file a lawsuit. That lawsuit 
was mooted 2 days before the scheduled hearing because the 
Forest Service then finally came up with these maps and the 
information that we had requested. It was an on-going delaying 
tactic. Of course, we are dealing with a large area. We are 
dealing with 2477 roads. Some have existing roads and some do 
not.
    But we have tremendous impact, Mr. Chairman, and some of 
the impact that I think may be missed is that much of the 
state's land, our endowed land that we use to support some of 
our schools, is surrounded by Federal land. If, in fact, they 
make that a roadless area surrounding our land, the only way 
that we can meaningfully harvest any timber off of our land to 
help pay for the school costs is to helicopter log, which 
substantially reduces the receipts to the school children of 
the State of Idaho. No one has satisfactorily answered the 
question.
    At any rate, the governor and I and the other members of 
the Land Board also requested the face-to-face meetings with 
Secretary Glickman and Chief Dombeck. That was receipted for by 
certified mail, our request which was sent in December, and we 
have yet to hear a response from anyone.
    But we have serious issues. We have not been trying to 
sandbag the Forest Service or anybody else but the bottom line 
is they have been totally uncooperative.
    Mr. McInnis. I can tell you, Mr. Lance, that it is the 
opinion of the Chair that the Forest Service's cooperation, 
regardless of which side of the issue one falls on this, is 
absolutely necessary. It is that kind of noncooperation that 
creates a great deal of deep distrust. I find their behavior 
reprehensible and I use that word with caution but I intend to 
say that word because of the fact that they have that 
information; they know what they were doing. And I should 
advise you that if you have further difficulties in the future 
you may contact either of the Chairs and we will have them in 
our office and we will sit down, as well as your own 
congressman, because we can have that Forest Service sent in a 
different direction.
    Mr. Lance. Thank you.
    Mr. McInnis. With that, I will turn questioning over to the 
Co-Chair and then we will go to the Ranking Member. Madam 
Chairman?
    Mrs. Cubin. I just have a couple of questions. They will be 
brief.
    You discussed briefly logging with the use of helicopters. 
I want to know when you use energy to fly the helicopter is 
that an energy-efficient way to harvest the timber or is it 
cheaper to harvest it from the ground in the traditional ways?
    Mr. Lance. Madam Chair, Co-Chairs, obviously it is much 
more expensive to attempt to helicopter log and it is not as 
environmentally friendly in the opinion of many, but the result 
is that if it costs more to have a state timber harvest when 
you bid out a tract for selective harvesting, the bottom line 
is that we, the State of Idaho and the school children of the 
State of Idaho, are going to receive fewer net proceeds as a 
result of the increased costs of the logging processes.
    And this is not mythical. We have a forest timber sale that 
has been now pending for about 3 years on Contux Creek and if 
you talk to the Forest Service and certain others they will 
tell you that there is a process that you can go through 
referred to as the ANILCA (Alaska National Interest Lands 
Conservation Act) process for accessing your way through 
federally managed forests to get to your own timber for 
purposes of harvest or energy exploration, et cetera, et 
cetera. We have been blocked now for 3 years from making a sale 
on Contux Creek as a result of NMFS and the Forest Service not 
allowing us access to our own land so that we can manage that 
forest or those trees in a very responsible manner. That is the 
sort of noncooperation that we have not only with the Forest 
Service but also National Marine Fisheries.
    Mrs. Cubin. I remember a large blow-down, I think it was in 
Idaho, where the Forest Service did not allow anyone to go pick 
up the blow-down, so it got insect-infested, and became 
worthless. It happens all over.
    One last question. How will the roadless rule affect state 
fire-fighting efforts on state and private lands?
    Mr. Lance. Madam Chair, Co-Chairs, that is an excellent 
question. Secretary Norton recently visited what is now called 
the National Interagency Fire Center but referred to still in 
Idaho as the Boise Interagency Fire Center. She was very 
concerned about what has been projected in terms of the fire 
year that we are facing this coming year. Idaho and Oregon and 
Washington have 40 percent of the snowpack that we 
traditionally have. As a result of mismanagement or lack of 
management by the Forest Service, we have beetle infestations; 
we have a great fuel load on many of the acres that we 
presently have in the State of Idaho. It is going to be a tough 
fire year and unless or until you can access these fires that 
start by lightning strikes that are not followed by rain, 
contrary to many views held here in the East, you have 
lightning strikes, you have a fire start, and you have to get 
on that fire as quickly as possible.
    The bottom line is if you do not have fire breaks, 
represented by roads, if you do not have access to those fire 
sites, which are also generally represented by roads and also 
air control, we are going to have a very serious problem and we 
anticipate a very serious problem because the undergrowth, the 
fuels that have been allowed to accumulate on these nationally 
managed forests and lands have reached an unacceptable level; 
the infestation by insects is just absolutely horrendous.
    And I think by way of comparison, Madam Chair and Co-
Chairs, it takes about 27 years to grow a saw log on federally 
managed lands. It takes about 21 years to grow a saw log on 
state-managed lands and about 17 years to grow a saw log on 
privately managed lands. That tells you the level of management 
that they have put into it so far.
    Mrs. Cubin. Thank you, Mr. Lance. I have nothing further.
    Mr. McInnis. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today for 
today's hearing and your testimony. I have a written statement 
I would like to submit for the record without objection.
    [The prepared statement of Mr. Kind follows:]

 Statement of The Honorable Ron Kind, Ranking Member, Subcommittee on 
                      Energy and Mineral Resources

    This afternoon we continue our review of the Clinton 
Administration's conservation and environmental policies by bringing 
into question the Forest Service roadless policy as it pertains to 
energy resources. While I do not debate the need for a comprehensive 
national energy policy, we will not achieve that goal by undoing the 
good work of the past Administration.
    As is the case with the hard rock mining rules, CO2 emission 
reductions, protection of national monuments, and ANWR--the Bush 
Administration appears determined to undercut environmental initiatives 
and retreat from environmental challenges. Characterizing this policy, 
and the others, as ``last-minute decisions'' of the Clinton 
Administration is a thinly disguised attempt to discredit a good policy 
in order to rationalize jettisoning it as the oil and gas industry 
demands.
    As the record plainly shows, the Forest Service finalized its 
``roadless area'' initiative on January 12 of this year after three 
years of public debate, review, and consultation. They held more than 
600 hearings nationwide and received more than 1.6 million comments. 
The Forest Service analyzed the effect of the policy on oil and gas 
activities, among other things, as part of the Environmental Impact 
Statement. Some may disagree with the intent of the roadless policy, 
but, we should not pretend that it was a snap judgement at the eleventh 
hour.
    The roadless areas affected by this policy comprise roughly one-
third of all National Forest System lands, or approximately 58.5 
million acres. According to the Forest Service, although the roadless 
areas comprise only 2% of the land base in the continental United 
States, they exist within 661 of the more than 2,000 major watersheds 
in the nation and provide many social and ecological benefits, such as 
fish and wildlife habitat, clean water, hunting, fishing and outdoor 
recreation resources, to name but a few. On the other hand, Forest 
System lands play a minor role in producing oil and natural gas, 
generating only about four tenths of one percent of current domestic 
production. By comparison nationwide, Federal lands account for about 
11 percent of the natural gas produced onshore while offshore the Outer 
Continental Shelf accounts for more than 26 percent of domestic natural 
gas production.
    The vast majority of lands affected by the roadless policy have 
been open to oil and leasing for decades but the oil and gas industry 
has demonstrated little interest in exploiting the potential energy 
resources in these areas. Confirming this lack of industry interest, 
the Forest Service noted in its Final EIS, Minerals and Geology 
Specialist Report, that because of the downturn in the domestic oil and 
gas industry, the amount of National Forest System land under oil and 
gas leases dropped from about 35 million acres in the mid-1980s to 5.8 
million acres in 1998.
    The Forest Service presented a good overview of the rule's 
potential effects on oil and gas development in the final environmental 
impact statement for the roadless rule. However, as noted by several of 
our expert witnesses in their statements, the resource estimates are 
highly speculative and with the lack of industry activity in roadless 
areas over the years, cannot be considered as sufficient to warrant 
rescinding the roadless rule. The resource estimate of 11.3 trillion 
cubic feet of natural gas, for instance, is derived from academic 
exercises designed to estimate the location of resources and can only 
be considered as a hypothetical scenario.
    The total oil and gas production from all National Forest System 
lands is less than one percent of the current national production. And 
the potential oil and gas resources that could be located inside 
inventoried roadless areas--by even the most generous estimates--are 
but an insignificant portion of total domestic resources. On these two 
facts alone, the wildlife, environment and social values protected by 
the rule outweigh the costs of foreclosing oil and gas drilling in 
those areas.
                                 ______
                                 
    Mr. Kind. Mr. Lance, just a couple of questions before we 
move on. Currently Idaho has filed suit in regard to the 
roadless initiative; is that correct?
    Mr. Lance. Co-Chairs and Congressman, yes, that is correct.
    Mr. Kind. Is Idaho currently producing any oil and gas or 
even coal production?
    Mr. Lance. Co-Chairs, Congressman, no, but we certainly 
wish that we had some and would like to explore. A few years 
ago certain petroleum exploration companies took out some 
options on some land but at the present time, to my knowledge, 
we have no oil or gas production occurring.
    Mr. Kind. Right. And I think overall there is roughly less 
than 1 percent of oil and gas being produced in our Forest 
Service lands to begin with.
    I certainly appreciate the complaints that you have raised 
in regard to the process and access and communication and 
certainly there is room for improvement in that area but my 
concern in regard to the roadless initiative is since it is 
such an insignificant amount currently being produced on our 
national forests, given the energy needs out there, there is so 
much attention placed on supply. Would you agree that as we 
develop a long-term energy policy in this country we need to be 
looking in the areas of conservation, alternative and renewable 
energy sources, as well, rather than just focusing on the 
supply equation and also looking at demand aspects in regard to 
the energy needs?
    Certainly the constituents of mine in Wisconsin are feeling 
the effects of rising energy prices, as I am sure the people in 
Idaho are, too, but would you agree that a more balanced 
approach to our long-term energy needs is what is required 
right now?
    Mr. Lance. Co-Chairs, Congressman, certainly renewable 
resources is at the top of my list. Being from farm country, we 
think ethanol would certainly be one of those things that 
should be explored and we need to get into. But may I also say 
that while they were building the pipeline in Alaska I was a 
member of the 172nd Infantry Brigade up in Alaska for three 
years. The argument that the caribou would be scared away by 
the pipeline, that the pipeline would destroy the tundra, et 
cetera, et cetera, et cetera--we heard all those arguments and 
I would be happy to take you, Congressman, up to the Denali 
Highway and when the caribou want to cross they will cross 
right in front of your car.
    So I think that there is a balance here. I think you are 
absolutely right. I think we have to use our resources and our 
intelligence and sit down and discuss this matter, make sure 
that we apply those areas to conservation that are necessary 
but, at the same time, I think we need to somehow lower our 
dependence on foreign oil.
    Mr. Kind. I am not sure what the economic impact to the 
State of Idaho is in regard to access to our national forests 
in the areas of fishing and wildlife habitat but certainly I 
would hope you would agree that part of managing the national 
forests should be conservation, the protection of fishing lands 
and access.
    In fact, in a written statement to this Committee today Mr. 
Moyer of Trout Unlimited kind of broke down some of the 
economic benefit to conservation practices, access to hunters 
and fishermen on these lands. In fact, in his written statement 
Mr. Moyer noted, and I quote, ``According to a 1999 report from 
the American Sports Fishing Association, 1996 fishing on the 
national forests produced $8.5 billion to the nation's economy. 
Hunting yielded $6.1 billion. Much of this value comes from 
trout and salmon fishing and big game hunting. Roadless area 
protection is tied to the long-term sustainability of these 
huge benefits.''
    Now again your process complaints aside, do you agree or 
disagree that roadless areas are needed in order to protect or 
enhance these valuable fish and wildlife habitats for outdoor 
sports, as well?
    Mr. Lance. Co-Chairs, Congressman, I would disagree with 
that statement. In order to manage you have to be able to 
access. You have to get back in and look at your elk herds. You 
have to take a look at your mule deer populations, your goats, 
your sheep. You have to be able to access it. Also, in order to 
sell a hunting license you have to give hunters and 
recreationalists a reasonable access to it.
    The best way that we have found in Idaho to manage our 
larger game herds is to require that we examine the animals 
that are taken for diseases, nutritional things, that type of 
thing. And I think if you take away all of the roads in the 
State of Idaho in terms of fishing, as well as hunting, we are 
not going to be able to provide the access that we usually do 
to harvest those animals in a manner that is consistent--
    Mr. Kind. I would agree that access is important but we 
also have a backlog of multi-millions of dollars in repair and 
maintenance expenses that are currently going unmet in regard 
to the current roads that already exist. Do you have any 
solution of how we deal with that to improve access on the 
roads that already exist?
    Mr. Lance. Co-Chairs and Congressman, yes, close 
coordination with the locals. You all are not going to solve 
the problem in Idaho from Washington, D.C. here, other than 
spending money for the problem. The folks in Idaho have been 
living on these lands for generations. We know how to manage 
those lands and what we need is a close coordination with the 
Federal managers. Sixty-five percent of our land mass is 
presently under Federal management. We know how to manage 
lands. The people here in Washington don't. So we would be 
happy to sit down with them, have local input--we are 
stakeholders, as well--and come up with solutions to the 
problems that I know that you are concerned about, Congressman, 
and legitimately so.
    Mr. Kind. Thank you. Thanks for your testimony.
    Thank you, Mr. Chairman.
    Mr. McInnis. Thank you.
    Mr. Otter?
    Mr. Otter. Mr. Chairman, Madam Chairman, I would like to 
submit for the record my opening statement, as well, without 
objection.
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, A Representative in 
                    Congress from the State of Idaho

    Chairman McInnis and Chairwoman Cubin, thank you for holding this 
hearing today on the devastating impacts that the previous 
Administration's forest roadless rule will have on our efforts to 
develop a comprehensive domestic energy policy.
    I'm particularly pleased to see my good friend and the Attorney 
General for the State of Idaho--Al Lance, who's here today to explain 
for the committee the reasons that led to the State's lawsuit 
challenging the process and substance of this rule, and the potential 
impacts it would cause on Idaho citizens. I understand that the State 
of Alaska has also filed a lawsuit challenging the rule.
    The previous Administration's rush to pursue unprecedented and 
sweeping restrictions on Forest Service and Bureau of Land Management 
lands--through monument designations and this roadless rule--would 
effectively shut off access to 9 million acres of Idaho public lands. 
This is land that most certainly would yield to the development of new 
sources of natural gas supply, rich mineral, phosphate and coal 
resources.
    Additionally, the Forest Service estimates that 7 million acres of 
inventoried roadless areas are at risk of dying trees from insect 
infestation or diseases. The proposal could interfere with road 
construction and maintenance necessary to restore degraded ecosystems 
and reduce the risk of uncontrollable and catastrophic wildfires--like 
the 7 million acres that burned last summer and fall.
    One of the primary concerns that I have heard about the roadless 
policy is that it effects 58 million acres of national forest lands, 
and yet only about 60 days were allowed for the citizens affected by 
the proposal merely to comment on the proposed rule. No extensions were 
permitted. No maps were provided to those interested in looking at the 
areas affected until well after the Forest Service's 60 day-comment 
period had expired.
    After the Forest Service issued a 700-page impact statement, along 
with the proposed rule, it released the rule on November 13, 2000, and 
published it on January 12, 2001 so that it would go into effect 
without regard to other reasonable alternatives, ignoring many critical 
comments to the proposal, including its impact on energy. They 
overstepped the National Environmental Policy Act (NEPA), ironically, 
in the name of protecting the environment.
    Recent estimates reveal that 11.3 trillion cubic feet of natural 
gas could be made available from untapped American resources, including 
trillions of cubic feet that are now off limits because of the 
monuments, roadless rules, and other restrictions imposed by the 
previous Administration on public lands.
    Coal is another source of that could be made available on federal 
lands. Federal lands account for almost 35 percent of total U.S. coal 
production. Another 30 billion tons of minable coal are sitting unused 
on millions of acres of Forest Service land. Over 2.5 million acres of 
coal bearing rocks are in inventoried roadless areas. Holders of 
existing federal coal leases are concerned that the roadless rules will 
bar them form building roads necessary to mine, and future coal leasing 
would be prevented altogether.
    Yesterday, we held a hearing with the Forests and Forest Health 
subcommittee on the potential to utilize biomass for energy and other 
uses. I was quite intrigued by the technology that the Forest Service 
has already developed. If it were marketed, it could provide 
significant financial assistance for rural communities in Idaho, whose 
tax base, schools, and other basic services have been hit hard by the 
Forest Service's rules. Unfortunately, the Forest Service acknowledges 
that some 27 percent of the potential biomass materials are 
inaccessible due to the forest roadless policy.
    And the impact of the roadless rule does not only affect access to 
public lands. The Forest Service acknowledges it cannot deny 
``reasonable access'' to reserved or outstanding privately-owned 
minerals. Yet, private mineral rights cannot be accessed unless and 
until they go through stringent environmental permitting and delays 
that can discourage or prevent them from accessing their rights at all. 
Transportation across forest roadless areas impacts a great deal of 
private land.
    That energy that could fuel American industries, businesses, 
homes--and help offset the millions of dollars that taxpayers are now 
paying for years of poor maintenance by the federal agencies in our 
national forests.
    I notice that there are panelists today, Mr. Chairman, that will 
say that the roadless policy is important to protect endangered 
species. But the Forest Service is not the agency responsible for 
endangered species. That is a task that the U.S. Fish & Wildlife 
Service and the National Marine Fisheries Service have taken on--and 
their management of endangered species is a subject of another hearing. 
But overlooking the mission of federal agencies seems to have been a 
specialty of the previous Administration. They masterminded the 
Interior Columbia Basin Ecosystem Management Plan and other top-down 
bureaucratic processes that would eliminate years of local planning 
efforts to properly manage our forests in Idaho, Washington, Oregon, 
and Montana.
    While we must all be sensitive to the environment we all live in, I 
cannot agree that preventing access to areas that would help maintain 
healthy forests and eliminate destructive wildfires will protect 
species. In fact, it has already done exactly the opposite. Entire 
watersheds and land where endangered species live were destroyed by 
fires last year--fires that could have been prevented through better 
management and access. Last year, an enormous amount of silt and 
sediment from the wildfires fell into the tributaries and waters where 
fish swim, eat, and live. Undoubtedly, deer, elk, even lynx and wolves 
perished in the millions of acres of hot fires that rages for months 
last year.
    On an issue unrelated to the roadless rule, but pertinent to the 
energy crisis we face in the Pacific Northwest and California, I think 
its time for a reality check. We cannot rely solely on conservation or 
marginal proposals to use solar or wind power generation. We need to 
continue exploring and increasing clean, renewable sources of energy--
including hydroelectric power.
    Trout Unlimited and the Wilderness Society are represented here 
today by witnesses that argue against selective timber harvesting of 
the forests, and against the increased use of any other source of 
fuel--coal, natural gas, or oil. They also are on record for endorsing 
a proposal to tear out four hydroelectric dams that produce up to 3,000 
megawatts of power at their peak--enough to power the City of Seattle 
three times over.
    Replacing the clean electricity generated by the dams with the next 
cheapest source--natural gas--would take years to implement, cost 
millions of dollars per year, and would further exacerbate the growing 
demand for natural gas that is already there. Instead, we should 
support efforts to swiftly relicense these dams, and authorize access 
to public lands to maximize their transmission capability.
    I look forward to working with the committee, to explore common 
sense proposals to unlock the abundant energy resources available on 
the millions of acres of public lands and to reverse unwise directives 
such as the roadless regulations, that prevent access to those who 
could untap resources, reduce the risk of forest fires, and to ease our 
nation's energy crisis.
                                 ______
                                 
    Mr. Otter. Hearing none, I would like to follow up with a 
few of the questions or at least one of the questions that Mr. 
Kind brought up.
    Mr. McInnis. Mr. Otter, may I interrupt for a second? I 
made a procedural mistake. I should have recognized Mr. Inslee 
as the Ranking Member. I apologize.
    Mr. Inslee. No, I think the gentleman's on a roll. Let's 
let him keep going.
    Mr. McInnis. I apologize.
    Mr. Otter. Thank you for that compliment. I appreciate it.
    Mr. McInnis. Mr. Otter?
    Mr. Otter. Anyway, Al, much was made of whether or not we 
have any energy exploration going on in Idaho or proven. Is it 
not a fact that some of the oldest phosphate beds known to man 
are actually in the Southeastern Idaho and that phosphate then 
is made into fertilizer and that fertilizer then helps corn and 
other farm products grow, which we make ethanol and other 
energy products out of?
    Mr. Lance. Co-Chairs, Congressman Otter, Butch, you are 
absolutely right. In the heart of the Caribou National Forest 
in Southeastern Idaho we have some of the richest phosphate 
deposits in the United States that are presently being 
extracted for purposes of use in agricultural pursuits, et 
cetera, et cetera. And yes, you can make by logical extension, 
the argument that those products, in fact, could be used as a 
biomass to make ethanol and so forth and so on but other than 
that, I am unaware, Butch, of the energy relationship that we 
might come up with, although over by Sand Hollow a few years 
ago they did give out some options on some exploration for oil 
but other than that and the phosphates.
    But Idaho is a large state and virtually unexplored in 
certain areas, so we may be sitting on some natural gas that we 
are unaware of.
    Mr. Otter. Thank you for that response, Al.
    I would remind all the members of this Committee that it 
was only two short days ago that we had substantial testimony 
that was offered before this Committee on biomass and indeed 
how much energy could come from the forest and forest floor and 
would result in many kilowatts of potential electricity, needed 
electricity, that could be created. And with 21.5 million acres 
of forest in Idaho, along with 14 million acres of BLM ground, 
there is much fuel stock there that could leave a fire-
defensible forest, as well as fire-defensible public lands and 
still yield an awful lot of energy.
    Al, I am very interested in the impact that the roadless 
area has had on Idaho's schoolchildren and your comment 
relative to the endowment plans. For the benefit of a lot of 
people that are east of the Mississippi River and probably do 
not experience this in their state, these tremendous land grabs 
that go on by the Federal Government constantly, is it not true 
that sections 16 and 36 out of every township--and every 
township is roughly six square miles or 23,040 acres--out of 
every township the State of Idaho was granted for its public 
schools an endowment fund of 1,280 acres?
    Mr. Lance. Madam Chair, Co-Chairs, Congressman Otter, yes, 
that is absolutely correct. Idaho presently has about 2.5 
million acres still in inventory that is under the management 
of the Land Board and those proceeds, which are grazing lands, 
agricultural lands, some mining, not too many mining lands, and 
timber lands, the proceeds from the management of those lands 
are used for the endowed institutions, which primarily are the 
educational institutions in the State of Idaho.
    And parenthetically, let me add that those school districts 
that are heavily dependent upon the timber industry are hurting 
at the present time because we have shut down several timber 
mills, as you are well aware, as a result of the unavailability 
of timber to keep those folks working and to pay their taxes to 
keep those schools open. But you are absolutely right, Butch, 
but we are down to about 2.5 million acres of state-endowed 
lands.
    Mr. Otter. Very quickly, Al. Yes or no on these next two 
because I think they are important.
    Is it not true that the private sector holdings in the 
timber industry--for instance, Weyerhauser, Boise Cascade, 
Potlatch, Plum Creek, many of the other private holdings--pay 
on the average to the State of Idaho and to the counties I 
should say $8.82 an acre for timbered lands a year?
    Mr. Lance. Mr. Chairman, yes.
    Mr. Otter. Is it not also a fact that of the total Federal 
receipts for 21.5 million acres of Idaho forest lands we 
receive less than 80 cents in the county for support of publics 
schools, fire, police, et cetera?
    Mr. Lance. Co-Chairs, Congressman, yes, that is true.
    Mr. Otter. And is it not a fact that most of the receipts 
that we formerly received came only when we were allowed to use 
those timber resources on a sustainable yield, sustainable cut 
for the supplies for our logging mills?
    Mr. Lance. Co-Chairs, Congressman Otter, that is correct, 
yes.
    Mr. Otter. Thank you, Mr. Chairman, Madam Chairman, my time 
is up.
    Mr. McInnis. Thank you, Mr. Otter.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Lance, I am really glad you are here today because I 
think all of us know how beautiful Idaho is and every American 
citizen in this room has some interest in this policy because 
we all have a stake in Idaho, even if we do not live there.
    I would like you to help educate us a little bit about the 
status of this lawsuit. Let me tell you, I have some very, very 
deep concerns about it because it is my understanding that the 
attorney general of the United States promised the American 
people in his confirmation hearing that if indeed the United 
States Senate confirmed him he would enforce the law of the 
United States of America when it came to protecting and 
defending this roadless policy.
    I heard him say that, the press heard him say that and I 
have heard that in this lawsuit, at best, he has delayed and at 
worst, he has looked for a way for the law to be abrogated and 
that really disturbs me to think that an attorney general who 
has told the U.S. Senate and the American people they are going 
to defend the law apparently is doing something, what I used to 
call, and I used to be an old trial lawyer, called taking a 
dive and I am very concerned about that and I would like you to 
address, in fact, what the United States government has done in 
that lawsuit. Are they defending this rule? Are they 
aggressively defending it or are they doing something else?
    Mr. Lance. Co-Chairs, Congressman, thank you for the 
question.
    The plaintiffs are the Land Board, the State of Idaho, the 
governor and the attorney general of the State of Idaho. We 
have two Idaho counties that are also plaintiffs in that 
action, the Kootenai, one of our tribes up in Northern Idaho. 
And on the defense side you not only have the Federal 
Government and the Forest Service but you also have a variety 
of intervenors. Those intervenors were present and made 
argument last Friday in Boise, Idaho on behalf of the Forest 
Service. The Federal Government was there and made argument on 
behalf of the Forest Service and we, on the other side, made 
our arguments before Judge Lodge.
    He presently has it under advisement as to whether or not 
he is going to grant us the injunction that we sought, the 
State of Idaho and the plaintiffs. Of course, the intervenors 
and the Federal Government have defended against the granting 
of that injunction.
    I would say to you, sir, that the intervenors on behalf of 
the Federal Government and the Forest Service are well 
represented. They have made their arguments. I am talking about 
the conservation groups and so forth and so on. They, in 
conjunction with the Federal Government, have gone all the way.
    If we had a deal, so to speak, with the Federal Government, 
Congressman, we would not have had to spend my resources last 
Friday in going before Judge Lodge and making this argument, 
taking some substantial risk relative to the overall 
development of the case, if you will. But we had no deal. We 
went forward. We made our best arguments and we would have made 
those arguments whether or not it was Janet Reno, the attorney 
general of the United States, or John Ashcroft as the attorney 
general of the United States. We have a case to make and we are 
going to make it regardless of who is in the White House, sir.
    Mr. Inslee. And could you tell us what the pleadings were 
that were first filed by the attorney general of the United 
States? Did he, in fact, file a pleading on behalf of the 
United States which asserted that these rules were 
appropriately adopted and that they should be implemented and 
that your case should be dismissed with prejudice? Did he do 
that, sir?
    Mr. Lance. Mr. Chairman, Congressman, the first thing that 
happened was that President Bush suspended the implementation 
of the rules until May 12 so as to give the administration, as 
I understand it, the opportunity to look at it. The next thing 
that I was involved with was a meeting with the Department of 
Justice and representatives from the Department of Agriculture. 
The same people, you understand, were with the Department of 
Justice that were under the present administration as were, in 
fact, under the previous administration. So we were dealing 
with virtually the same people. And until last Friday Michael 
Dombeck was also the Chief of the Forest Service until his 
resignation.
    So to answer your question, the bottom line is the 
administration, as I understand it, is taking a look at these 
rules and some of our complaints and some of our problems and 
we would hope that someone would listen to us in terms of the 
due process violations that we perceive transpired during the 
course of the hearing.
    Mr. Inslee. So I take it your answer, in a short word, is 
no, in fact, the attorney general did not do that, even though 
he told the U.S. Senate that he would do that. Is that a fair 
statement?
    Mr. Lance. Co-Chairs, Congressman, no, I do not think that 
that is a fair statement. The United States government showed 
up. They made their arguments, along with the intervenors, 
against our position. I think that is opposition. Whether or 
not one would characterize it as being in violation of Attorney 
General Ashcroft's oath, I am not prepared to say, sir.
    Mr. Inslee. I really truly want to understand what happened 
in the lawsuit because I have been asked myself, so I do want 
to understand it.
    My understanding is, and I used to practice a little law in 
my day, that when you file a pleading you state what your 
position is. My understanding is that the attorney general had 
the opportunity to come in and follow his oath to the U.S. 
Senate and file a document that said that the position of the 
United States of America was that this policy was appropriately 
adopted and should be implemented and my understanding is he 
did not do that. Am I correct or not?
    Mr. Lance. Congressman, as I understand your question, and 
Chairs, no, they were there. They argued against our position.
    Mr. Inslee. The answer is no, is that correct?
    Mr. Lance. Last Friday they were there, they made their 
arguments against our position. So if they wanted to stipulate 
to it and give us what we wanted, which would have been a lot 
easier, we would have much preferred that, sir, but they were 
there arguing against our position in court in Boise last 
Friday.
    Mr. Inslee. Thank you, Mr. Lance.
    Mr. Lance. Thank you, sir.
    Mr. McInnis. Mr. Lance, I am going to save you a little 
breath. You do not always have to address the Co-Chairs and the 
Committee. We appreciate your formalness but it is not 
necessary.
    To get us back on track I am going to recognize Mr. Rahall. 
Mr. Rahall?
    Mr. Rahall. Attorney General, you may have heard my opening 
statement. I mentioned the 380,000 miles of forest roads. There 
is an $8.4 billion backlog of maintenance needs just to repair 
what is already there.
    Mr. Lance. Yes.
    Mr. Rahall. Only 20 percent of what the Forest Service 
needs on a yearly basis is being appropriated to help maintain 
that backlog.
    Now I appreciate your comment about us people here in 
Washington not knowing how to manage these lands and my 
colleague from Idaho trying to tell us east of the Mississippi 
what life is like out West but I am just wondering if I am 
missing something here. With that backlog and with the lack of 
funds to adequately maintain what is there now, and by the way, 
you mentioned the high gasoline prices in your State of Idaho, 
the high costs you already face. You are the fourth highest in 
the nation in state gas tax and there is nothing wrong with 
that; my state is high in state gasoline tax, as well, but we 
do not go blaming it on us people here in Washington. And we 
are glad to see that because we use it to match more Federal 
dollars and build more highways.
    But anyway, where are you proposing then the money comes 
from? Is the State of Idaho willing to belly up to the bar, so 
to speak, to pay for this? Do you have industry commitments of 
which we are unaware, that are willing to help maintain what we 
have now?
    Mr. Lance. Chairs, Congressman, first of all, I have been 
to your beautiful State of West Virginia on several occasions.
    Mr. Rahall. I have been to your beautiful state of Ohio--I 
mean Idaho, sorry.
    Mr. Lance. I was originally born in Ohio but that is a 
whole long story.
    You know, the common misperception, and I understand that 
the needs are great in terms of what is perceived to be normal 
and routine maintenance of roadways but we are not talking 
interstate highways here. We are just talking about roadways, 
generally speaking logging roads that have been cut in the side 
of the mountain to access a timber sale and then once the 
timber has been extracted in a selective and environmentally 
responsible manner, that road is there.
    Now the only maintenance that is necessary in some 
instances is to ensure that it does not pollute the stream and 
erode, quite simply. That can be done in several manners. 
Number one, you can close access to that logging road. The road 
is there as a fire break. It is there in the event of an 
emergency. And assuming that you have the erosion under control 
it does not take anything.
    The bottom line, Congressman, I think is that we need a 
Forest Service and a Federal Government that we can sit down 
with and we can compare our needs.
    Now industry, certainly when we have a timber sale that is 
anticipated on state lands, we take into account the value 
added to our lands when we ask a contractor to come in and 
carve in a road and then to put in the culverts and to take 
care of the road in a responsible manner. That is factored into 
our timber sales price and I suspect the Forest Service ought 
to take a look at that but the bottom line, I think, is that we 
all need to sit down together and find out what the State of 
Idaho is willing to do, if we have sales, what the industry 
might be prepared to do in terms of a sale and a credit for the 
improvements that they may make to the land, and what the 
Federal Government is willing to do. Right now we do not have a 
place at the table.
    Mr. Rahall. I am aware of that process that you have just 
described. I am just not aware of any financial responsibility 
or anywhere where the state or the industry has kicked in to 
help once those extractive industries have gotten their 
payloads out of the area. There are still some costs involved 
in that process. You say you do not have the ability to sit 
down at the table. Perhaps if you sat down at the table without 
the Federal Government involved and then came to us with a 
proposal; is that not a proper scenario?
    Mr. Lance. Mr. Chairman, Co-Chairs, Congressman, yes, I 
think that it is. I think that if we, in fact, Idaho has what 
we call a process that we have spent a lot of time and money on 
dealing with the joint management of Federal lands. We have 
identified six projects. This has been run through the 
committee that was funded by the Department of Lands and the 
Land Board through the University of Idaho. We have identified 
six projects to sit down with the Federal Government and 
jointly manage this, which would require money on our part but 
it would also require a willingness on the part of the Forest 
Service and others to sit down and discuss our proposals. Thus 
far we have had no cooperation in terms of sitting down and 
looking at these proposals, finding out how to manage these six 
tracts of land that we have identified and how we are going to 
pay for the roads and how we are going to maintain them, sir.
    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Simpson?
    Mr. Simpson Thank you, Mr. Chairman.
    If you wonder why General Lance always responds to the 
Chairman first, to the Committee and then the one asking the 
question, the Idaho Legislature, that is the way it is always 
done. He served there for a number of years with me and has 
testified before the Legislature many, many times and 
consequently you get in the habit of doing that. It is just the 
way we show respect in Idaho.
    There are some interesting things that have been brought up 
during this and I appreciated the opening statements of the Co-
Chairs and also of the gentleman from West Virginia. He 
mentioned that we had an $8.4 billion backlog in roads in our 
national forests currently and we were not doing our best to 
address those and that because of those, we were damaging 
critical fish and wildlife habitat, and so forth.
    You know, last year we had legislation called CARA and many 
of us suggested that we ought to use that money, before we 
start acquiring more land, to address the backlog needs in our 
national forests and national parks. But, of course, we could 
not get enough support for that but that is one of the ways we 
could have addressed some of that backlog because I agree with 
you that there is a problem there.
    But I can tell you another thing. We did not in any of 
these roads damage as much critical fish and wildlife habitat 
as the wildfires that occurred last year in Idaho. And the fish 
habitat that is being destroyed today as water runs off that 
area and into the streams and covers the beds is doing more 
damage than any roads have ever done. And a large part of the 
reason those fires occurred is because we have not had active 
management of those lands over the last several years and the 
roadless moratorium that we are talking about today just means 
that we will not have more active management because you will 
not be able to get in there and do it, or it will make it so 
expensive that you cannot actively get in there to do it.
    Mr. Rahall. Would you yield? You mentioned my name.
    Mr. Simpson That I would.
    Mr. Rahall. Just on the CARA issue, I supported that 
legislation, as well, and I suggest you go talk to the 
leadership that controls the Appropriations Committee here. 
That is where that problem lies. My party does not control the 
leadership here.
    And I would say as far as the fire issue, on those areas 
that are not opened up, I am not sure what there is to control 
as far as fires that may occur.
    Mr. Simpson Well, reclaiming my time, I appreciate the 
gentleman's comments but last year what we tried to do is make 
sure that that money used in CARA was used to address the 
backlog instead of all the new programs that were in there. I 
voted against CARA because of that so that's the reason that I 
opposed it.
    Let me pose a hypothetical and I wish Mr. Inslee was still 
here. You are the attorney general for the State of Idaho. Your 
job is to defend the State of Idaho and the people of the State 
of Idaho. Let us say that an agency of the State of Idaho had 
proposed a rule and in proposing that rule they had violated a 
number of Idaho statutes. Would you, as the attorney general, 
then feel obligated to defend the rule implemented by that 
agency?
    Mr. Lance. Congressman Simpson, you would examine it, you 
would find out how serious the violations were. If it were a 
violation of due process, I think as an officer of the court 
you would have an obligation to make that known to the court 
that the rules had been violated and that your agency probably 
stepped across the line and maybe they ought to go back to the 
drawing board and start again and do it by the numbers.
    Mr. Simpson Considering that the past Administration denied 
all Freedom of Information Act requests and all cooperating 
agency status applications filed by the affected states, 
considering also that accurate maps were not made available 
during the public comment period, in violation of the 
Administrative Procedures Act, considering that the 
administration developed the policy in lock-step coordination 
with a handful of national environmental groups and in 
conjunction with their multi-million-dollar roadless campaign, 
a likely violation of the Federal Advisory Committee Act, 
considering that no small business or small government analysis 
was done to comply with the Regulatory Flexibility Act, 
considering that many forest plans will have to be revised as a 
result of this rule, violating the National Forest Management 
Act, considering that it usually takes the Forest Service two 
or 3 years to do a legally defensible EIS for a timber sale 
covering only 300 acres yet it took the administration only 1 
year to do a single massive EIS covering over 5,800 million 
acres, do you think the attorney general can defend this? I 
know that is a tough question.
    Mr. Lance. Congressman Simpson, let me just say that I 
think the new Administration would have preferred to have more 
time to include the attorney general and the attorneys that 
represented the Forest Service and others. They would have 
preferred to have a lot more time to study this to get to the 
bottom of it.
    The bottom line is they were new. They walked in, they 
offered a defense because we felt it would have been a 
violation of the court's order to stipulate to the continuance 
to give them that time that would have been required. All I can 
tell you, sir, is that they were there, they opposed our 
position and they were doing their job and probably if 
circumstances were such, I would have been very willing to give 
them additional time to study the issue and study the problem. 
But the bottom line is fire season is going to be starting in 
Idaho, as you both are aware, very soon and we do not have time 
to have people tell us that we cannot go to put out the fires 
that are being caused as a result of the years of neglect in 
our national forests.
    Mr. Simpson In your opinion what is the likelihood of 
catastrophic fires occurring again this year?
    Mr. Lance. I think, Congressman, this is going to be the 
first year we are going to have back to back record fires. Last 
year was a terrible fire year. We had 1.2 million acres 
destroyed by fire last year. We still have about 895,000 acres 
of good timber just laying out there and we cannot get at it 
because the Forest Service will not cooperate in terms of some 
sort of salvage effort. As a consequence, we are just wasting 
that timber. You talk about wasting energy. You are talking 
about many, many boardfeet laying out there that we cannot get 
at because the Forest Service is not cooperative.
    This year is going to be a tremendous fire year, a very bad 
fire year, not only in the State of Idaho but from what I 
predict and what I see, the states of Washington and Oregon, as 
well, sir.
    Mr. Simpson Thank you.
    Mr. McInnis. Mr. Udall?
    Mr. Udall. Thank you, Mr. Chairman.
    General Lance, good to see you here today, to be reunited 
with you again from the old days. His two colleagues here did 
not say but he is also the national commander of the American 
Legion, which I think is a real honor that they have bestowed 
upon him, so congratulations on that. I know that happened near 
the end of your AG term there.
    General Lance, you have talked about imported oil and 
dependence on imported oil and how we should get our way out of 
that situation. You know, we have grown dramatically in terms 
of our dependence. In the 1960's we imported about 20 percent 
of our oil. We are headed toward 60 percent now. We are not 
doing anything to change that direction. We are heavily 
dependent on imported oil and 55 percent of that imported oil 
is from the Middle East, which is a very volatile region.
    When you look at the numbers here, especially in Idaho, of 
oil that we are going to get out of roadless areas, you are not 
here to tell us that we are going to solve our energy problem 
with oil that we are going to get off roadless areas in Idaho, 
are you?
    Mr. Lance. Congressman, Tom, good to see you again, too. 
Absolutely not. To my knowledge, as I have testified, we do not 
have any oil unless there is some that I am unaware of. We have 
a little potential for natural gas in the Targhee National 
Forest.
    Tom, when it comes right down to the issue of energy 
exploration I am here just to say that the process was not, in 
fact, followed. The NEPA processes were not followed. The 
governor of the State of Idaho and the attorney general of the 
State of Idaho were given 3 minutes to testify and that was the 
maximum. Testimony from people who work in the forest, took off 
time from their jobs and away from their families to come and 
stand in line to testify were given the same weight as people 
who sat in their offices and sent in e-mails. That is just 
wrong, Tom. I know you and I may have some disagreements in 
terms of the ultimate result but I think we both have a 
commitment to the process and that is why we filed the lawsuit.
    Now if the energy exploration business piggybacks on our 
lawsuit when it comes to the process and sitting down and 
talking about these things and coming up with some type of 
process that is acceptable to the American people and to the 
affected states, so be it, but I cannot comment too much on the 
energy thing, Tom. Unfortunately, Idaho is not a large energy-
producing state.
    Mr. Udall. Thank you. The issue that you have raised of the 
commenting and the process that was followed, that is clearly 
one where many other individuals had an opportunity to comment 
and I think they took comments in the time period. 1.6 million 
people stepped forward and got their comments in and had the 
ability to do it.
    So I do not think you are suggesting that a lot of other 
Americans did not have the opportunity to look at the roadless 
policy and comment in their respective state about it, are you?
    Mr. Lance. Congressman, I think that there were a lot of 
form letters being filled out, a lot of postcards, a lot of e-
mails. And I think, Tom, to be real honest with you, there is a 
difference between somebody who takes time off of the job to go 
to a Federal public hearing and waiting an hour and a half and 
he works in the sawmill and he has kids to support. He or she 
is there to testify eyeball to eyeball with these folks and I 
think there is a tremendous difference between that person's 
testimony and the sacrifice they made and then somebody who 
fills out a form letter and sends it into the Forest Service. 
That is my point.
    Mrs. Cubin. Will the gentleman yield?
    Mr. Udall. I just want to deal with one more thing and then 
I would be happy to yield.
    You mentioned in your testimony about the school children. 
The last time around we had a lot of testimony in front of the 
Resources Committee dealing with timber-dependent communities 
and that money in terms of the schools and we, in fact, one of 
the bipartisan things we did out of the Resources Committee was 
to pass a piece of legislation--I forget exactly what it was 
called but it was the county payments legislation. What we did 
was we said under the old system, because you had these cycles 
of boom and bust, that you could make a choice. You could go 
with the old system, with the cycles of boom and bust, or you 
could choose a formula under the new system and that formula 
many times was higher than under the old system.
    So we tried to deal, I think, with the situation you are 
talking about. I do not know how familiar you are with that law 
but I think we did a good job of trying to disconnect the two, 
make sure that we have healthy forests on the one hand and that 
states could also choose on the other hand their method of 
payment so that you did not have this connection driving the 
forest policy.
    And I guess since the time is out I would just say for the 
record that piece of legislation did pass, I believe it passed 
on a large bipartisan basis and it was an attempt to really 
tackle the issue that you are talking about.
    Thank you very much, Mr. Chairman, and I would yield to you 
at this time.
    Mrs. Cubin. That is okay; you do not have any time left.
    Mr. Lance, did you want to say anything?
    Mr. Lance. If I may, Madam Chair, Tom, you are absolutely 
right. I think that was a step in the right direction and I 
applaud those of you who studied that issue. But you are 
talking about the PILT payments, Tom, what we used to call the 
payment in lieu of taxes payments. That is a little different 
issue than land that is owned by the State of Idaho and you 
cannot access your land for purposes of harvest because there 
is a roadless policy of the lands of the Federal Government 
that surround you. That is a little different issue, Tom, but 
I--
    Mr. Udall. In fact, we are not talking PILT payments. We 
are talking county school payments and we did legislation on 
that and states can now make a choice. I do not want to argue 
with you. My time is up. I am running over here and maybe on 
the next round we will have an opportunity to go through it 
again.
    Pleasure to have you here.
    Mr. Lance. Thank you, Tom.
    Mr. Udall. I would like to carve out some time for our 
Chairman here. You have the prerogative. You have all the time 
over there, anyway.
    Mrs. Cubin. I just do want to make a point about the 
process to counter what was said. Yes, there was a lot of 
public input. There were hundreds of thousands if not millions 
of statements that were submitted but also the rule was put in 
place before it was physically possible for the Forest Service 
to have considered all of those comments.
    I know in the State of Wyoming there was like 24 hours left 
and thousands and thousands of statements that needed to be 
regarded and the point is, Tom, that the statements were made 
but they were not included in the decision-making process.
    The Chair now recognizes Mr. Flake.
    Mr. Flake. No questions.
    Mrs. Cubin. Mrs. McCollum?
    Ms. McCollum. Thank you, Madam Chair.
    Mr. Lance, when you were talking about the mills closing, I 
am from Minnesota so we are not identical but we are on that 
border with Canada and I am hearing from a lot of the folks in 
my part of the world that part of the reason why our mills are 
not successful has to do with what is happening with Canadian 
timber.
    Is that a fair statement, that that played a factor in what 
you were describing as closing the mills and it was not all the 
Forest Service?
    Mr. Lance. Madam Chair, Congressman, yes, absolutely, there 
is no question about it. The Canadians are exporting large 
quantities of lumber. That is a factor in terms of the mill 
closures. There is no question about that.
    Ms. McCollum. Mr. Lance, I appreciate you clarifying that 
because had I not brought that up you would have thought that 
only the factor that you mentioned was the only reason why your 
lumber people are suffering.
    Could you tell me, has your state, as my state, had any 
discussions about closing roads, trading roads back and forth 
between the Federal Government? Any where there is state 
forest, national forest, where they are parallel, doing any 
land swaps, road swaps, any of that kind of stuff?
    Mr. Lance. Congressman, yes, we swap lands, state lands 
with Federal lands, on a fairly frequent basis in the State of 
Idaho, generally a block-up. If you have in-holdings here and 
there, what you are trying to do is block it up so that we have 
a management unit and the Federal Government ends up with a 
manageable unit. Sometimes those include roads and rights-of-
way and so forth and so on.
    The problem that we have that I do not know if you have in 
Minnesota is 2477 roads. We have these historic roads that were 
established sometime ago and we still are trying to sort out 
where the 2477 roads are, who owns them and who has the right 
to use them. So that kind of complicates some of those 
transfers that you would suggest.
    Ms. McCollum. Mr. Lance, could you tell me where your 
school trust lands are isolated, as ours are in Minnesota, has 
the state had a dialogue going on to access those lands, to get 
the dollars for the schools? Have they had a long dialogue 
going on identifying records of conversations back and forth 
between the Forest Service to access those spots of school 
trust land? Have they been working on this for a while?
    Mr. Lance. Well, Congressman, the example that I used is 
Contux Creek, state land. We tried to do a timber sale. In 
fact, we did the timber sale. It is surrounded by Federal 
lands. We were in the process of working with the Forest 
Service. Intervenors, like conservation groups, filed a variety 
of lawsuits. NMFS came in and wanted another environmental 
impact statement so it has been about 3 years and our timber is 
still there and we have not been able to harvest it.
    Ms. McCollum. Mr. Lance, that was not my question.
    Mr. Lance. All right.
    Ms. McCollum. My question was are you aware if your state 
has had an on-going dialogue about trading lands back and 
forth, making sure that road access, as roads were being 
developed by the state and by the Federal Government or roads 
in Federal lands be kept up, upgraded so that you could have 
access to your school trust funds lands? Have you been doing 
that?
    Mr. Lance. Madam, Congressman, I am of the opinion that 
yes, we attempt to do that on a fairly frequent basis. As I 
indicated earlier, we do, in fact, trade lands with the Federal 
Government and agencies of the Federal Government on a fairly 
frequent basis. To identify all of the parcels of state lands 
and to sit down and attempt then to identify all of the roads 
or the 2477 roads or whatever else, I think would be somewhat 
difficult but we are certainly willing to do as you suggest, to 
sit down and to try to cooperatively manage many of these roads 
and lands.
    Ms. McCollum. And Madam Chair, Mr. Lance, I am very 
disappointed that you did not get access to maps when you asked 
for them so I want to make that perfectly clear. I am sure we 
had some of the same things going on in Minnesota but we had 
maps available to us to figure out what was going on. Were you 
totally clueless as to what this was going to look like when 
the roadless policy came out or did you have some maps, some 
idea or were you really totally out there without a clue what 
was going to happen?
    Mr. Lance. Congressman, there are two types of roads 
covered by the roadless proposal, two types of lands, one of 
which is the inventoried roadless and one is the uninventoried 
roadless. No one knows what the uninventoried roadless is. We 
know that the inventoried roadless in Idaho is 9.5 million 
acres. No one can tell us what the uninventoried size is. It 
has been projected that maybe that is another 4.5 million 
acres. On the uninventoried, we are totally clueless. We do not 
know.
    Ms. McCollum. Thank you.
    Mrs. Cubin. The Chair now recognizes Mr. Holt.
    Mr. Holt. No questions for this witness at this time. Thank 
you, Madam Chair.
    Mrs. Cubin. Well, Mr. Lance, we certainly thank you for 
your testimony, thank you for the answers to the questions and 
we really appreciate your being here.
    Also, Mr. Orton, we appreciate your being here. You were 
just as cute as could be sitting there. Don't think we do not 
appreciate that.
    Mr. Lance. Thank you, Madam Chair.
    Mrs. Cubin. Okay, never mind. You are not that cute.
    Thank you very much. The panel is now dismissed.
    The Chair would like to now call for panel two: Mr. Randy 
Phillips, Deputy Chief of Programs and Legislation for the USDA 
Forest Service; Mr. Jeffrey Eppink, Vice President for Advanced 
Resources, International; Mr. Steve Moyer, Vice President of 
Conservation Programs for Trout Unlimited; Mr. Greg Schaefer, 
Director of External Affairs for the Western Region for Arch 
Coal, Incorporated and, I might add, a personal dear friend of 
mine--thank you, Greg, for being here--and Mr. Pete Morton, 
Resource Economist for The Wilderness Society.
    Let me remind the witnesses that under our Committee rules 
you must limit your oral statements to five minutes but your 
entire statement will appear in the record.
    I now recognize Mr. Phillips for his five minutes of 
testimony.

    STATEMENT OF RANDY PHILLIPS, DEPUTY CHIEF, PROGRAMS AND 
                LEGISLATION, USDA FOREST SERVICE

    Mr. Phillips. Thank you, Madam Chair.
    I am Randy Phillips, Deputy Chief of Programs and 
Legislation for the U.S. Forest Service. I am also accompanied 
by Mr. Larry Gadt, who is the director of our minerals and 
energy program for the Forest Service.
    I am here today to discus with you the effects of the 
roadless rule on energy production based on the analysis in the 
Roadless Area Conservation Final Environmental Impact Statement 
that was released on November 9 of last year and the final rule 
that was published on January 12 of this year.
    As you know, on January 20, 2001 the Assistant to the 
President and White House Chief of Staff issued a memorandum to 
agencies to request that all new rules and regulations not yet 
in effect be delayed for 60 days to give the administration 
time to review the rules. In accordance with that direction, 
the secretary delayed the effective date of the Roadless Area 
Conservation final rule from March 13 of this year until May 
12, 2001.
    With the roadless rule currently under review by the 
Department of Agriculture, my comments today will be limited to 
the effects documented in the final environmental impact 
statement and the final regulatory impact analysis that was 
prepared in conjunction with the final rule.
    The roadless rule would generally prohibit road 
construction and reconstruction in inventoried roadless areas 
on about 58.5 million acres of national forest and grasslands. 
The prohibition of road construction and reconstruction is 
anticipated to have some impact on leasable energy minerals. 
The final rule would not affect road construction and 
reconstruction providing access to and development within 
existing mineral lease boundaries or access needed for existing 
rights, such as private or state-owned mineral deposits. The 
prohibitions would likely prevent expansion of existing mineral 
lease areas into adjacent inventoried roadless areas or 
exploration and development of new mineral leases except in 
situations where development can be done without road 
construction.
    The final roadless rule could affect exploration for or 
development of known coal reserves on approximately 47,400 
acres in Colorado alone not currently leased in inventoried 
roadless areas. These reserves are estimated at between 237 
million and 1.3 billion tons of coal near or adjacent to active 
mines. In addition, there are over 2.5 million acres of 
inventoried roadless areas with varying levels of potential to 
contain coal resources suitable for commercial development. 
There may also be other coal resources in inventoried roadless 
areas. However, the extent of the resources is not known at 
this time.
    The mining of coal from inventoried roadless areas is not 
extensive but there are active mines on the Grand Mesa, 
Uncompahgre and Gunnison National Forests in Colorado and the 
Manti-Lasal National Forest in Utah. On the Grand Mesa, 
Uncompahgre and Gunnison National Forests, Arch Coal is 
interested in expansion into a contiguous inventoried roadless 
area.
    Although the mine is an underground operation, expansion 
may require road access for exploration and development 
drilling and construction of ventilation shafts. If production 
cannot be expanded into inventoried roadless areas, the mine 
could close within two to 5 years when current reserves are 
exhausted. Potential effects from closure of this mine could 
include the loss of 361 direct jobs and affect 2,119 total 
jobs. Two other operating mines adjacent to roadless areas on 
the GMUG could also be affected. Together these two mines 
produce about 9 million tons per year and employ 368 people. 
There are also three tracts with known recoverable coal 
reserves in the Manti-Lasal National Forest that currently are 
not under lease.
    Currently over 6 million acres of National Forest System 
land is under lease for oil and gas. This includes 
approximately 759,000 acres of inventoried roadless areas 
considered to have high oil and gas potential under lease. The 
areas currently under lease will not be materially affected by 
the roadless rule.
    Near the completion of the Roadless Area Conservation Final 
Environmental Impact Statement the Department of Energy, DOE, 
raised additional concerns about the potential impacts on 
production of coal, oil and gas resources. After being informed 
about these concerns the Forest Service evaluated the 
information provided by DOE in accordance with agency 
procedures under the National Environmental Policy Act for new 
information. The agency concluded that there was no change in 
the magnitude of the effects, as disclosed in the FEIS. The DOE 
information was included in the regulatory impact analysis.
    Using information from the Department of Energy, an 
estimated 11.3 trillion cubic feet of natural gas and 550 
million barrels of oil could potentially underlie inventoried 
roadless areas. They also estimate that between 63 percent and 
78 percent of these potential reserves may be economically 
recoverable.
    In addition, on the Los Padres National Forest in 
California the prohibition of road construction or 
reconstruction in inventoried roadless areas could affect 
exploration and possible development.
    In summary, while the roadless rule does not impact 
existing mineral leases and outstanding rights it could impact 
expansion of existing leases and exploration and development of 
new mineral leases on National Forest System lands. Thank you. 
This concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Phillips follows:]

    Statement of Randle G. Phillips, Deputy Chief for Programs and 
      Legislation, Forest Service, U.S. Department of Agriculture

    Chairman Cubin, Chairman Mcinnis and Members of the Subcommittees:
    Thank you for the opportunity to appear before you today to talk 
about the potential impacts of the roadless rule on energy mineral 
leasing from National Forest System lands. I am Randy Phillips, Deputy 
Chief for Programs and Legislation, and with me today is Larry Gadt, 
Director for Minerals and Geology Management of the Forest Service. I 
am here today to discuss with you the effects of the roadless rule 
based on the analysis in the Roadless Area Conservation Final 
Environmental Impact Statement (FEIS) that was released on November 9, 
2000 and the final rule that was published on January 12, 2001.
    As you know, on January 20,2001, the Assistant to the President and 
White House Chief of Staff issued a memorandum to agencies requesting 
that all new rules and regulations not yet in effect be delayed 60-days 
to give the Administration time to review the rules. In accordance with 
that direction, the Secretary delayed the effective date of the 
Roadless Area Conservation final rule from March 13, 2001, until May 
12, 2001.
    The roadless rule is currently under review by the Department of 
Agriculture, so my comments today will be limited to the effects 
documented in the FEIS and the final regulatory impact analysis that 
was prepared in conjunction with the final rule.
    In brief, the roadless rule would generally prohibit road 
construction and reconstruction in inventoried roadless areas (IRAs) on 
58.5 million acres of national forests and grasslands. The prohibition 
of road construction and reconstruction is anticipated to have some 
impact on leasable energy minerals. The final rule would not affect 
road construction and reconstruction providing access to and 
development within existing mineral lease boundaries or access needed 
for existing rights, such as private or State owned mineral deposits. 
The prohibitions would likely prevent expansion of existing mineral 
lease areas into adjacent inventoried roadless areas or exploration and 
development of new mineral leases except in situations where 
development can be done without road construction.
    Before I talk about the impacts of the rule on energy mineral 
leasing, I first want to briefly discuss energy mineral leasing on 
National Forest System lands.
BACKGROUND
    Leasable mineral resources are those mineral resources that can be 
explored for and developed under one of several mineral-leasing acts. 
They include energy resources such as oil, gas, coal, and geothermal.
    Exploration and development of oil, gas, coal, and geothermal 
resources are discretionary activities, meaning that leasing of them 
may or may not be allowed. The Bureau of Land Management (BLM) has the 
authority to lease minerals on National Forest System lands; however, 
they may only be leased subject to Forest Service concurrence.
    Environmental impact statements are generally prepared before the 
issuance of mineral leases in inventoried roadless areas. The effects 
of any future lease exploration or development are also addressed in 
subsequent environmental analysis.
EFFECTS OF THE ROADLESS RULE
    Locatable mineral access is a right granted by statute and 
therefore not materially affected by the road prohibition. Saleable 
minerals are subject to the road prohibition, and therefore generally 
eliminated as a permissible activity within inventoried roadless. 
However, the economic effect of eliminating saleable minerals is 
insignificant because saleable minerals (sand, gravel, limestone for 
aggregate, etc.) are not economic unless very close to market due to 
haul costs, therefore there is a minimal amount of this activity in 
inventoried roadless areas.
    For leasable energy minerals, the road prohibition would not 
materially affect road construction and reconstruction providing access 
to and development within existing lease boundaries, even if those 
leases are extended beyond their current termination dates. However, 
the road prohibition would likely prevent expansion of existing mineral 
lease areas into adjacent inventoried roadless areas. In many cases, 
such expansion is more economically advantageous to the operator than 
developing new deposits.
    Where reserves are known to occur in inventoried roadless areas, 
the road prohibition is likely to preclude future development, except 
in situations where development can occur without road construction. 
The economic impacts of precluding development of an area depends on a 
variety of external factors that would lead to development including 
market prices, transportation, access, plus other factors such as the 
availability of alternate resources in areas that may be available for 
leasing (either on other National Forest System lands or on other 
ownerships). Since mineral deposits tend to be concentrated in some 
geographic areas, it is likely that the impacts on mining jobs and 
income would also be concentrated in a few areas. The most immediate 
economic effects are associated with current proposals to expand 
existing leases into adjacent inventoried roadless areas for phosphate 
and coal mining.
Coal
    In 1998, over 75 million tons of coal produced from Federal leases 
on National Forest System land accounted for almost 7 percent of total 
national production, and about 22 percent of production from Federal 
leases.
    The final roadless rule could affect exploration for or development 
of known coal reserves on approximately 61,200 acres not currently 
leased in inventoried roadless areas. These reserves are estimated at 
between 237 million and 1.3 billion tons of coal near or adjacent to 
active mines. In addition, there are over 2.5 million acres of 
inventoried roadless areas with varying levels of potential to contain 
coal resources suitable for commercial development.
    Some of these reserves or resources would likely be developed 
within the next 5 years if offered for lease. There may also be other 
coal resources in inventoried roadless areas. However, the extent of 
the resource is not known and there is no demonstrated industry 
interest in these.
    The mining of coal from inventoried roadless areas is not 
extensive, but there are active mines on the Grand Mesa, Uncompahgre 
and Gunnison National Forests (GMUG) in Colorado and the Manti-Lasal 
National Forests in Utah.
    On the GMUG, Arch Coal is interested in expansion into a contiguous 
inventoried roadless area. Although the mine is an underground 
operation, expansion may require road access for exploration and 
development drilling, and construction of ventilation shafts. The mine 
currently produces about 7 million tons per year. If production cannot 
be expanded into inventoried roadless areas, the mine could close 
within two to five years, when current reserves are exhausted. 
Potential effects from closure of this mine could include the loss of 
361 direct jobs and affect 2,119 total jobs.
    Two other operating mines adjacent to roadless areas on the GMUG 
could also be affected. Data was not available on when current reserves 
may be depleted for these mines, but together the two mines produce 
about 9 million tons per year and employ 368 people. If future 
expansion of these operations is precluded by the road prohibition, and 
no alternative sources of production are economically attractive, then 
these mines could be closed after current reserves under lease are 
mined.
    There are also three tracts with known recoverable coal reserves on 
the Manti-Lasal National Forest that currently are not under lease. Two 
of the potential tracts have relatively small recoverable reserves, but 
the third tract has an estimated 135 million tons of recoverable 
reserves, of which 50 million tons is within inventoried roadless 
areas. Included in the recoverable reserve estimate are about 22 
million tons of recoverable reserves owned by the State of Utah. Access 
to coal owned by the State of Utah would be guaranteed, as would access 
to any privately held rights. This tract would require development 
facilities in an inventoried roadless area, which may preclude 
development of the rest of the tract once the State's portion of the 
reserve is extracted.
Oil and Gas
    Federal leases are an important source of oil and gas production, 
but most of the production is from off-shore leases. Production from 
national forests and grasslands currently accounts for only 0.4 percent 
of total U.S. oil and gas production. However, interest may increase in 
response to increasing prices and demands. Although much of the 
increased development is expected to be off-shore, a number of national 
forests and grasslands either have current leases, or have applications 
for permits to explore for natural gas.
    Currently over 6 million acres of National Forest System land is 
under lease for oil and gas. This includes approximately 759,000 acres 
of inventoried roadless areas considered to have high oil and gas 
potential under lease. The areas currently under lease will not be 
materially affected by the roadless rule.
    Near the completion of the Roadless Area Conservation FEIS, the 
Department of Energy (DOE) raised additional concerns about the 
potential impacts on production of coal, oil, and gas resources if the 
final roadless rule did not allow road building in support of 
exploration and development of these leasable minerals. After being 
informed about these concerns, the Forest Service evaluated the 
information provided by DOE, in accordance with agency procedures under 
the National Environmental Policy Act for new information. After 
careful review of the information provided, the agency concluded that 
there was no change in the magnitude of the effects as disclosed in the 
FEIS. The Forest Service included the DOE information in the regulatory 
impact analysis that accompanied the final rule.
    Department of Energy undertook an analysis that focused on the 
potential impacts to undiscovered oil and gas resources in the two U.S. 
Geological Survey (USGS)-defined Rocky Mountain regions. Overlaying 
USGS oil and gas ``play'' areas on Forest Service maps of IRAs, DOE 
estimated the acres of IRAs in each of the play areas. (A play is a 
USGS-designated area with common geologic characteristics that have 
potential to produce oil or natural gas.) The calculations of oil and 
gas resources that are estimated to occur beneath inventoried roadless 
areas are tied to these acreage estimates.
    Using information from the Department of Energy, an estimated 
(mean) 11.3 trillion cubic feet of natural gas and 550 million barrels 
of oil could potentially underlie inventoried roadless areas. 
(Estimates range from 3.5 trillion cubic feet to 23.1 trillion cubic 
feet of natural gas and from 119 million barrels to 1,212 million 
barrel of oil.) They also estimate that between 63 percent and 78 
percent of these potential reserves may be economically recoverable. 
DOE estimates that historically about one-third of the oil-in-place of 
known reservoirs is recovered. At the assumed prices ($3-4 per Mcf), 
the value of the economic activity for these natural gas resources 
would range from $23 to $34 billion dollars, which would be realized 
over a number of years.
    In addition, on the Los Padres National Forest in California the 
prohibition of road construction or reconstruction in inventoried 
roadless areas could affect exploration and possible development of 
five high potential oil and gas areas and preclude possible future 
development of up to an estimated 21.4 million barrels of oil.
    Based on DOE's figures of total undiscovered resources within the 
208 Rocky Mountain play areas examined, estimated resources beneath 
IRAs account for about 3 percent of undiscovered gas and almost 7 
percent of undiscovered oil resources in these play areas. DOE 
estimates that 2.7 million acres of inventoried roadless acres contain 
83 percent (9.3 trillion cubic feet) of the natural gas resource in all 
inventoried roadless areas. Based on information from the National 
Petroleum Council this is less than 1 percent of the nation's natural 
gas resources.
    If exploration and development did occur, it would be 5 to 10 years 
before any production is likely because oil and gas leasing is 
typically a lengthy process. The value would not be realized in the 
near future and any production would be spread over multiple years in 
the future. It is unlikely that exploration in IRAs would be a high 
priority because of issues independent of the Roadless Area 
Conservation Rule, such as access limited by rugged terrain, low 
probability of occurrence of oil and gas resources, distance to 
markets, and potential restrictions of other environmental laws.
Transmission lines
    There is nothing in the final roadless rule that would prohibit 
construction of new power lines or oil and gas lines in inventoried 
roadless areas. However, having to construct these facilities without 
the use of roads would generally increase the construction and 
maintenance costs.
Hydropower and Geothermal Energy
    The roadless rule FEIS also did not identify any impacts to 
existing or proposed hydropower or geothermal energy projects.
SUMMARY
    While the roadless rule does not impact existing mineral leases and 
outstanding rights it could impact expansion of existing leases and 
exploration and development of new mineral leases on National Forest 
System lands that require road construction or reconstruction in 
inventoried roadless areas.
    Outside of known reserves such as the active coal mines in 
Colorado, the actual impacts can only be estimated. However, in those 
identified communities with a history of mining dependence, prevention 
of existing mining expansion due to the roadless rule could likely have 
a significant impact.
    Predicting the impact on undiscovered resources is difficult since 
it is unknown how much of these potential reserves are actually 
underneath inventoried roadless areas or how much of the reserves will 
be economically recoverable in the future, or what future prices will 
be.
    It is reasonable to assume, under the current demand conditions, 
that there will be increased interest for development of natural gas 
resources on Federal lands and elsewhere. However, while it is unlikely 
that inventoried roadless areas would be a significant contributor at 
current prices, since exploration in inventoried roadless areas may not 
be a high priority because of existing rugged terrain and access issues 
independent of the roadless rule, at higher market prices development 
of gas resources on Federal lands could increase.
    This concludes my statement. I would be happy to answer any 
questions.
                                 ______
                                 
    Mrs. Cubin. Thank you, Mr. Phillips.
    The Chair now recognizes Mr. Jeffrey Eppink.

STATEMENT OF JEFFREY EPPINK, VICE PRESIDENT, ADVANCED RESOURCES 
                         INTERNATIONAL

    Mr. Eppink. Thank you. Good afternoon, Chairwoman Cubin and 
members of the Committee. My name is Jeffrey Eppink. I am a 
Vice President with Advanced Resources, International, an 
energy consulting firm based in Arlington, Virginia.
    At Advanced Resources we have conducted a number of oil and 
gas resource assessments in recent years. I participated in the 
National Petroleum Council's 1999 study on natural gas and am 
currently conducting a major study on the impacts of leasing 
stipulations which I will elaborate upon later.
    Today I would like to present an analysis that we conducted 
last fall concerning oil and gas resources associated with 
then-proposed Forest Service inventoried roadless areas. We 
performed the study for the Department of Energy as a task 
under a multi-year technical and analytical support contract to 
the department. We will first present the conclusions from the 
study, then briefly discuss how the study was conducted and 
then present specific results.
    The analysis shows the following. Nationwide the vast 
majority of natural gas resources in roadless areas are found 
in the Rocky Mountain region. Undiscovered natural gas 
resources in the Rocky Mountains impacted by the roadless areas 
amount to 11 Tcf and are mostly contained in the largest nine 
plays. Less than 5 percent of the roadless areas nationwide 
contain about 80 percent of the natural gas resources. 
Implementation of the roadless area rule in the Rocky Mountain 
region will close to development an additional 9.4 Tcf of 
natural gas, raising the total estimated by the NPC from 29 to 
38 Tcf, a significant 32 percent increase. Economic activity 
associated with the recovery of natural gas resources 
associated with roadless areas is estimated to be $23 to 34 
billion.
    Next I would like to briefly discuss how the study was 
conducted. The study was comprehensive. In all, we examined 19 
Rocky Mountain provinces or basins and 208 plays. The map on 
the left shows the Rocky Mountain region that was covered by 
the study. The region contains a vast majority of oil and gas 
on Federal lands. The red areas on the map depict the so-called 
inventoried roadless areas, areas which without road access 
would effectively prohibit oil and gas resource development. 
Shown on the map in light green are areas of underlying oil and 
gas resources.
    We used resource estimates from several expert groups in 
the analysis. The vast majority of resource data was taken from 
the USGS 1995 assessment, which I might add we participated in. 
For a few selected plays where analysis had been conducted 
subsequent to the 1995 assessment we supplemented the USGS data 
with resource estimates conducted by ourselves, the Utah 
Geologic Survey and the Potential Gas Committee.
    The areas of occurrences of resources in the analysis are 
defined by the intersection of the plays themselves with the 
roadless areas. Estimates of high, low and mean technically 
recoverable oil and gas resources were made. The results show 
that the roadless areas contain from about 3 to 23 Tcf of 
natural gas with a mean value of about 11 Tcf. The roadless 
areas also contain from minor amounts to over 1 billion barrels 
of oil with a mean value of 550 million barrels.
    Further in the analysis we examined the issue of access 
using guidelines established in the NPC study and we determined 
that implementation of the roadless areas will close to 
development an additional 9.4 Tcf of gas, a 32 percent 
increase, and further, that resources subject to access 
restrictions will increase by 7 Tcf from 137 to 144 Tcf.
    To examine the economic impacts for eliminating access to 
these resources we also provided a cursory examination of the 
economically recoverable natural gas resources. Based on the 
mean resource values and prices of $3 and $4 an Mcf, about 68 
to 75 percent of the technical natural gas resources could be 
recovered economically, representing about $23 to 34 billion of 
economic activity.
    We also estimate that the nine largest plays in the study 
area comprise about 83 percent of the total impacted natural 
gas resources. We determined that these nine plays represent 
less than 5 percent of all roadless areas nationwide.
    I mentioned earlier that we are conducting on-going 
resource studies. As follow-up to the NPC study we are 
currently conducting a major study on the cumulative impacts 
upon undiscovered natural gas resources of leasing 
stipulations. We are conducting the study on a detailed 
township by township basis. The study covers Southern Wyoming 
and Northwestern Colorado and preliminary results show that 
over 60 percent of the natural gas resources are either closed 
to development or available with restrictions.
    We will next be examining oil and gas in the Uinta-Piceance 
Basin in Utah and Colorado. These studies are being conducted 
for the Department of Energy and we would be happy to share 
those results with you when they are available.
    I appreciate the opportunity to present our roadless 
analysis to you and would be glad to answer any questions you 
might have.
    [The prepared statement of Mr. Eppink follows:]

    Statement of Jeffrey Eppink, Vice President, Advanced Resources 
                          International, Inc.

    Good afternoon, Chairwoman Cubin and members of the committee. My 
name is Jeffrey Eppink. I am a vice president with Advanced Resources 
International, an energy consulting firm based in Arlington, Virginia.
    At Advanced Resources, we have conducted a number of oil and gas 
resource assessments in recent years. I participated in the National 
Petroleum Council's 1999 study on natural gas and am currently 
conducting a major study on the impacts of leasing stipulations upon 
natural gas resources, which I will elaborate upon later.
    Today, I'd like to present an analysis that we conducted last fall 
concerning oil and gas resources associated with then-proposed Forest 
Service Inventoried Roadless Areas. We performed the study for the 
Department of Energy as a task under a multi-year technical and 
analytical support contract to the Department.
    I will present first the conclusion from the study, discuss briefly 
how the study was conducted, and then present specific results.
    The analysis shows the following:
    <bullet> LNationwide, the vast majority of natural gas resources in 
Roadless Areas are found in the Rocky Mountain region. Undiscovered 
natural gas resources in the Rocky Mountains, impacted by the Roadless 
Areas, amount to 11 Tcf and are mostly contained in the largest nine 
plays.
    <bullet> LLess than 5% of the Roadless Area nationwide contain 
about 80% of the natural gas resources under those Forest Service 
lands.
    <bullet> LImplementation of Roadless Area Rule in the Rocky 
Mountain region will close to development an additional 9.4 Tcf of 
natural gas resource, raising the total estimated by the 1999 NPC Study 
from 29 Tcf to 38 Tcf, a significant 32% increase.
    <bullet> LEconomic activity associated with recovery of natural gas 
resources associated with Roadless Areas is estimated to be $23 to $34 
billion.
    Next I'd like to briefly discuss how the study was conducted. The 
study was comprehensive; in all, we examined 19 Rocky Mountain 
provinces or basins and 208 plays. The map to my left shows the Rocky 
Mountain region that was covered in the study--New Mexico to Montana 
plus a portion of North Dakota. This region contains the vast majority 
of oil and gas on federal lands. The red areas on the map depict the 
so-called ``Inventoried Roadless Areas'', areas which, without road 
access, would effectively prohibit oil and gas resource development. 
Shown on the map in the light green are areas with underlying oil and 
gas resources. In dark red within Roadless Areas are areas of high 
slopes--mountain tops, ridges, etc., which we assumed to be less 
prospective because they would be locations where it is physically 
difficult to site a drill rig or because they are could represent 
difficult geological settings for oil and gas to occur.
    We used resource estimates from several expert groups in the 
analysis. The vast majority of resource data was taken from the USGS 
1995 National Assessment. For a few selected plays where analysis had 
been conducted subsequent to the 1995 Assessment, we supplemented the 
USGS data with resource estimates conducted by Advanced Resources (for 
the Department of Energy), the Utah Geological Survey and the Potential 
Gas Committee (an industry group).
    The areas of occurrence of resources in the analysis is defined by 
the intersection of the plays themselves with the Roadless Areas. 
Estimates of high, low and mean technically recoverable oil and gas 
resources were made. High estimates have low probability for occurring; 
conversely, low estimates have a high probability for occurring. 
Technically recoverable resources are those that are recoverable using 
current technology.
    The results, presented in the table below, show that the Roadless 
areas contain from about 3 to 23 Tcf of natural gas, with a mean value 
of 11 Tcf. The Roadless Areas also contains from minor amounts to over 
1 billion barrels of oil, with a mean value of 550 million barrels of 
oil.
[GRAPHIC] [TIFF OMITTED] T1552.001

    Further in the analysis, we examined the issue of access using 
guidelines established in the 1999 NPC study (see table below). We 
determined that, for the Rocky Mountains:
    <bullet> LImplementation of the Roadless Areas will close to 
development an additional 9.4 Tcf of gas, raising the total to 38 Tcf 
from the 29 Tcf presented in the NPC Study, a significant 32% increase.
    <bullet> LResources subject to access restrictions will increase by 
7 Tcf (resource formerly under Standard Lease Terms), from 137 to 144 
Tcf.
[GRAPHIC] [TIFF OMITTED] T1552.002

    To examine the economic impacts for eliminating access to these 
technically recoverable resources, we also provided a cursory 
examination of economically recoverable natural gas resources. Based on 
the mean resource values and prices of $3/Mcf and $4/Mcf, about 68 to 
75% of the technical natural gas resources could be recoverable 
economically, representing $23 to $34 billion of economic activity, 
respectively.
    We also estimate that the nine largest plays in the study areas 
comprise about 83% of the total impacted natural gas resources (please 
see the map). We determined that these nine plays represent less than 
5% of all roadless areas nationwide.
    I had mentioned earlier that we are conducting ongoing resource 
studies. As a follow-up to the 1999 NPC study, we are currently 
concluding a major study of the cumulative impacts upon undiscovered 
natural gas resources of leasing stipulations. We are conducting that 
study on a detailed township-by-township basis. The study we are just 
now concluding covers Southern Wyoming and northwestern Colorado (the 
Greater Green River Basin). Preliminary results show that over 60% of 
the natural gas resources are either closed to development or available 
with restrictions. We will next be examining the Uinta-Piceance Basin 
in Utah and Colorado. The studies are being conducted for the 
Department of Energy and we would be happy to share those results with 
you when they are available.
    I appreciate the opportunity to present our Roadless Areas analysis 
to you and would be glad to answer any questions you might have.
                                 ______
                                 
    Mrs. Cubin. Thank you.
    The Chair now recognizes Mr. Moyer.

   STATEMENT OF STEVE MOYER, VICE PRESIDENT OF CONSERVATION 
                   PROGRAMS, TROUT UNLIMITED

    Mr. Moyer. Thank you very much for the opportunity to 
testify before the Subcommittees today. I am Steve Moyer, Vice 
President for Conservation for Trout Unlimited.
    Trout Unlimited is a nonprofit organization whose mission 
is to conserve, protect and restore North America's trout and 
salmon fisheries and their watersheds and we have about 130,000 
members spread across the country. The National Wildlife 
Federation, the nation's largest wildlife conservation group, 
endorses the main points of my testimony. The National Wildlife 
Federation has a deep and abiding interest in the health of the 
national forests.
    Back to Trout Unlimited, our members are thoroughly 
invested in protecting and restoring trout and salmon habitat 
in the national forests. Since our inception our members have 
devoted hundreds of thousands of dollars and thousands of 
person-hours to on-the-ground restoration work on watersheds in 
the national forests and we have invested considerable time in 
the studying and commenting on Forest Service policies and 
decisions of all types.
    We support the roadless policy because of the great fish 
and wildlife habitats roadless areas contain, because of the 
substantial adverse impacts that roads have on fish and 
wildlife habitat, and because of the huge backlog of existing 
unaddressed forest road maintenance costs. It makes good sense 
to us to fix the all-too-common existing broken roads in 
habitat in the national forests before building new roads in 
the roadless areas and incurring even more costs for which we 
cannot pay.
    As the Subcommittees consider the potential benefits of 
increased energy production from roadless areas on the national 
forests, we urge the Subcommittees to fully consider what would 
likely be the high cost to the Federal treasury, as well as 
fish and wildlife habitat, if greater energy development were 
to occur in roadless areas.
    Further the Subcommittees should consider the current great 
needs to restore healthy fish and wildlife habitats that 
already exist on national forests. And finally, the 
Subcommittees must consider the huge backlog of road 
maintenance and reconstruction needs on the existing forest 
road system and the substantial adverse impacts those poorly 
maintained roads have on fish and wildlife.
    Also I am here today speaking as one of the six trustees of 
the Theodore Roosevelt Conservation Alliance. The TRCA consists 
of us, the Izaak Walton League of America, Wildlife Forever, 
the Mule Deer Foundation, the Rocky Mountain Elk Foundation and 
the Wildlife Management Institute. The purpose of the alliance 
is to educate and motivate hunters and anglers to positively 
influence the future of our National Forest System.
    Relevant to today's hearing the TRCA supports the general 
policy direction contained in one of its square deal 
initiatives which I mention in my testimony and it was included 
in a letter to President Bush and to the leaders of this 
Committee, which I have here with me today and I would like to 
have included in the record if I could.
    Mrs. Cubin. Without objection.
    [The letter follows:]
    [GRAPHIC] [TIFF OMITTED] T1552.009
    
    [GRAPHIC] [TIFF OMITTED] T1552.010
    
    [GRAPHIC] [TIFF OMITTED] T1552.011
    
    Mr. Moyer. The letters support keeping roadless areas 
roadless on the national forests, as well as supporting the 
scientific management and conservation of all fish and wildlife 
habitat on the national forests.
    Just a few points that I would like to make in addition to 
what I have said here in my final minutes. Roadless areas are 
known to include some of the best remaining habitat for fish 
and wildlife in the nation. Especially in the Western United 
States, roadless areas are vital for trout and salmon resources 
and for big game, such as elk and mule deer. These resources 
sustain hunting and fishing recreation that is extremely 
valuable to Western communities. According to a study that I 
have highlighted in my testimony, fishing on the national 
forests produces about $8.5 billion worth of value to the 
nation's economy and hunting yields about $6.1 billion. These 
are very valuable resources that are sustained in part by 
roadless areas.
    A related point, as I have mentioned, is poorly designed 
and poorly maintained roads are some of the biggest threats to 
aquatic life and wildlife in our national forests. When you 
combine this with the backlog that we already have, the 
Subcommittees really need to ask the question, can we afford to 
build more roads when we cannot afford to pay for the ones that 
we already have?
    On the energy issue, as you are hearing from this panel, 
the amounts of energy available may be debatable. What is not, 
I do not think, is the high cost of developing these resources 
relative to the cost of developing other energy sources in 
already roaded areas. And the Subcommittees must look at the 
cost as well as the benefits of energy production to come from 
roadless areas.
    I just wanted to finish my highlighting the fact that what 
was already said, 1.5 million people have commented in support 
of the roadless policy or even making it stronger. And yes, it 
is true that many of these were post cards or e-mails but still 
that is a national record in terms of the response to a Federal 
rule and I think it does show that there is deep support in the 
American populace for this policy. And I just wanted to 
highlight the fact that hunters and anglers who are 
conservationists who use these Federal forest lands are also 
very much part of the large support for this policy.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Moyer follows:]

  Statement of Steve Moyer, Vice President of Conservation Programs, 
                            Trout Unlimited

    Thank you for the opportunity to testify before the Subcommittees 
today on behalf of Trout Unlimited (``TU'') regarding energy and 
roadless area conservation on the National Forests. TU is a nonprofit 
organization whose mission is to conserve, protect, and restore North 
America's coldwater fisheries and their watersheds. TU has more than 
130,000 members in the United States.
    TU and our members are deeply invested in protecting and restoring 
trout and salmon habitat on the National Forests. Since our inception 
in 1959, our members have devoted hundreds of thousands of dollars and 
thousands of man-hours to on the ground restoration work on watersheds 
on the National Forests. They have invested considerable time into 
studying and commenting on Forest Service policies of all kinds, from 
national policies such as the roadless conservation policy, to 
revisions of national forest management plans, to individual road 
reconstruction and grazing allotment decisions.
Summary of TU's Position on the Forest Service's Roadless Policy
    TU supports the roadless policy because of the great fish and 
wildlife habitats roadless areas contain, because of the substantial 
adverse impacts that roads have on fish and wildlife habitat, and 
because of the huge backlog of existing, unaddressed forest road 
maintenance costs. It make good sense to us to fix the all too common 
existing broken roads and habitat in the National Forests before 
building new roads into roadless areas and incurring even more costs 
for which we cannot pay.
    As the Subcommittees consider the potential benefits of increased 
energy production from roadless areas on the National Forests, we urge 
the Subcommittees to fully consider what would likely be high costs to 
the federal fisc as well as fish and wildlife habitat if greater energy 
development were to occur in roadless areas. Further, the Subcommittees 
should consider the current, great needs to restore healthy fish and 
wildlife habitats on the National Forests. Finally, the Subcommittees 
must consider the huge backlog of road maintenance and reconstruction 
needs on the existing forest road system and the substantial adverse 
affects those poorly maintained roads have on fish and wildlife. I 
assure you that TU stands ready to assist the Subcommittees as they 
consider these important aspects of forest road policy, and fish and 
wildlife habitat, in addition to the ramifications of the roadless area 
policy itself.
Summary of the Theodore Roosevelt Conservation Alliance (TRCA) Position 
        on Managing the National Forests and Roadless Areas
    I am also here today speaking as one of the six trustees of the 
Theodore Roosevelt Conservation Alliance (TRCA). The TRCA consists of 
TU, the Izaak Walton League of America, Wildlife Forever, the Mule Deer 
Foundation, the Rocky Mountain Elk Foundation, and the Wildlife 
Management Institute. Our organizations believe the future of the 
National Forest System is of great importance to healthy fish and 
wildlife species, clean water and the opportunity for all Americans to 
enjoy quality hunting, fishing and outdoor recreation on our public 
lands. The purpose of our Alliance is to educate and motivate hunters 
and anglers to positively influence the future of our 192 million-acre 
National Forest system.
    Relevant to today's hearing, TRCA supports the general forest 
policy direction contained in ``Square Deal Initiative 1'' (below) that 
was carefully drafted by the TRCA trustees, and was included in the a 
letter to President Bush, which was signed by over 100 sportmen's 
conservation clubs across the nation. I have brought copies of the 
letter for the Subcommittees, and I ask that it be included in the 
hearing record.
TRCA's Square Deal Initiative 1: Room to Roam--Landscape and Access 
        Management
        ``We urge elected officials and public land managers to 
        scientifically manage all fish and wildlife habitat in the 
        National Forest System, whether roaded or unroaded, as valuable 
        and unique lands that will remain open to hunters, anglers and 
        other public users. Balance accessibility to National Forest 
        lands, with the year round requirements of fish and wildlife 
        (habitat, clean water, food, shelter, open space and 
        disturbance management), while maintaining a functioning forest 
        road system, including keeping roadless areas roadless (with 
        science-based exceptions made for forest health, restoration, 
        and other national needs).''
National Forest Roadless Areas Contain Valuable Fish and Wildlife 
        Habitat, Which Sustains Valuable Hunting and Fishing 
        Recreation.
    The roadless policy would ban new road construction in 58 million 
acres of inventoried roadless areas in the National Forests, while 
maintaining access for anglers, hunters and other public users. 
Roadless areas are known to include some of the best remaining habitat 
for fish and wildlife in the nation. Especially in the western U.S., 
roadless areas are vital for trout and salmon resources, and for big 
game, such as elk and mule deer. National Forests support 80% of the 
elk, mountain goat, and bighorn sheep habitat in the lower 48 states.
    The following are a few examples from Montana National Forests:
    <bullet> LThe South Fork of the Flathead has perhaps the state's 
strongest populations of bull trout and westslope cutthroat trout. Most 
of the watershed is roadless (mainly in the Bob Marshall wilderness).
    <bullet> LThe Blackfoot drainage has some of the healthiest 
populations of migratory bull and cutthroat trout in Montana. The three 
most important spawning tributaries for bull trout are Monture Creek, 
the North Fork and the Landers Fork. Large portions of these watersheds 
are roadless. Bull trout are uncommon in heavily roaded drainages of 
the Blackfoot drainage.
    <bullet> LRock Creek is one of the most popular wild trout 
fisheries in the state. Approximately half of the watershed is 
roadless. Biologists have found that most of the important spawning and 
rearing areas for bull trout are in waters flowing through roadless 
areas such as the Quigg Peak and Stony Mountain areas.
    <bullet> LThe majority of the remaining pure-strain native 
westslope cutthroats in the upper Missouri drainage, where these fish 
hang on by a thread, are in roadless areas found along the Rocky 
Mountain Front, in the Elkhorns, in the upper Big Hole watershed and in 
the roadless fragments found near the Continental Divide.
    Fish and wildlife resources found on National Forests, such as 
those highlighted above, sustain hunting and fishing recreation that is 
extremely valuable to local economies. According to a 1999 report from 
the American Sportfishing Association, in 1996 fishing on the National 
Forests produced $8.5 billion to the nation's economy. Hunting yielded 
$6.1 billion. Much of this value comes from trout and salmon fishing, 
and big game hunting. Roadless area protection is tied to the long-term 
sustainablity of these huge benefits.
    Simply put, world class hunting and fishing are still available to 
the public in the remote areas of our National Forests and use trends 
show hunting and angling rising at five percent per year nationwide. In 
some areas like California, hunting use of National Forests is doubling 
in eight years, while fishing use of Alaska's Tongass National Forest 
doubled in the last seven years. Further, if America's 50 million 
hunters and anglers grow in proportion to the population of the U.S. 
during this century, wild space open to the public will be at an 
absolute premium.
Roads Often Damage Fish and Wildlife Habitats
    Existing poorly designed and maintained roads are some of the 
biggest environmental threats to aquatic life and wildlife in our 
National Forests, promoting soil erosion in fish spawning and rearing 
areas and destroying the water quality of streams.
    Studies from the Forest Service's Interior Columbia River Basin 
plan, for example, conclude that:
    <bullet> LIncreasing road density and management intensity is 
correlated with declining pool frequency and increased fine sediments 
in streams. Pools are important winter and foraging habitat. Sediment 
from roads fills pools and smothers spawning gravels. Thus, roads are 
harming critical elements of aquatic habitat.
A Huge and Pressing Backlog of Forest Road Maintenance Needs Already 
        Exists.
    The Subcommittees should bear in mind that the forest roads debate 
should start by recognizing that the Forest Service has an $8.4 billion 
backlog on maintenance and reconstruction of its existing 386,000 miles 
of road. As we consider the prospect of building new roads to access 
hard to reach, potential, energy or timber sources, we need to address 
the question, ``Why build more when we can't care for what we have?''
    The Tongass road situation is but one bad example. The Forest 
Service in cooperation with the State of Alaska, recently completed the 
Tongass Road Condition Survey, which determined that 53 percent of 
culverts (164 of 301 culverts) in Class I streams are impeding passage 
of juvenile salmon under certain conditions, while another 29 percent 
(80 of 301 culverts) in Class I streams may be impeding passage. The 
estimate for repairing the culverts in the Tongass National Forest is 
at least $20 million.
    There is a clear need for the Resources Committee to request, and 
for Congress to appropriate, the funds that the Forest Service needs to 
improve road maintenance and reconstruction, as well as funds needed to 
eliminate unfixable roads, which are damaging fish and wildlife 
habitat.
The Amount of Available Energy from Roadless Areas is Debatable. The 
        High Cost of Developing Those Resources, Relative to the Costs 
        of Developing Other Energy Sources in Roaded Areas, Is Not.
    According to the Forest Service, the roadless policy could have 
some impact on leasable minerals, such as oil and gas, because the 
policy would prohibit road construction associated with future mineral 
leasing. Yet, the Forest Service's roadless documents say that there 
appears to be relatively small amount of oil, gas and coal in roadless 
areas. In context, total oil and gas production from all National 
Forest lands is about 0.4 percent of the nation's supply, and since the 
roadless areas have been available to oil and gas leasing for many 
years and have remained undeveloped, it is difficult to see where the 
supplies really are.
    A study done recently for the Energy Department held a different 
view. The study found that roadless areas ``contain moderate to 
significant amounts of natural gas and oil.--
    TU is not an energy expert and thus we are unable to shed much 
light on the debate surrounding availability of energy sources on 
roadless areas. What we do know is this: roadless areas have remained 
such for a reason--most are difficult to access. Building roads to 
access energy in the roadless areas would likely be costly ventures. 
Add in the fish and wildlife habitat harm produced by these roads, and 
the result of any contemplated energy development in roadless areas is 
likely to be an expensive proposition. The Subcommittees must carefully 
look at the costs, as well as the benefits, of energy production from 
roadless areas.
Millions of Americans, Including Hunters and Anglers, Support Keeping 
        Roadless Areas Roadless.
    Finally, the Subcommittees should keep in mind that 1.6 million 
Americans commented in favor of the roadless policy being as 
protective, or more so, than it is right now. This is the largest 
outpouring of public support for any federal rulemaking in history.
    Similarly, a survey of American hunters and anglers commissioned by 
the TRCA last year found a very strong response from sportsmen and 
women in support of keeping roadless areas roadless: 83% of respondents 
favored such a proposition. In short, support for roadless area 
protection runs deep, and it includes sportsmen and women.
    In sum, TU supports the roadless policy because of the high habitat 
and recreational values that they sustain, and because the substantial 
damage roads incur on fish and wildlife habitat. We also support the 
best science-based management of those areas, as well as all of our 
National Forests. We urge the Subcommittees to fully consider what 
would likely be high costs to the federal fisc as well as fish and 
wildlife habitat if energy development were to occur in roadless areas.
    We look forward to having a more detailed dialogue with the 
Subcommittees on these issues. Also, we urge the Subcommittees to work 
with us on fixing the longstanding problems associated with lack of 
funding for roads maintenance and reconstruction and fish and wildlife 
habitat restoration.
    Thank you for the opportunity to testify at the hearing.
Summary of TU's Position on the Forest Service's Roadless Policy
    TU supports the roadless policy because of the great fish and 
wildlife habitats roadless areas contain, because of the substantial 
adverse impacts that roads have on fish and wildlife habitat, and 
because of the huge backlog of existing, unaddressed forest road 
maintenance costs. It make good sense to us to fix the all too common 
existing broken roads and habitat in the National Forests before 
building new roads into roadless areas and incurring even more costs 
for which we cannot pay.
    As the Subcommittees consider the potential benefits of increased 
energy production from roadless areas on the National Forests, we urge 
the Subcommittees to fully consider what would likely be high costs to 
the federal fisc as well as fish and wildlife habitat if greater energy 
development were to occur in roadless areas. Further, the Subcommittees 
should consider the current, great needs to restore healthy fish and 
wildlife habitats on the National Forests. Finally, the Subcommittees 
must consider the huge backlog of road maintenance and reconstruction 
needs on the existing forest road system and the substantial adverse 
affects those poorly maintained roads have on fish and wildlife. I 
assure you that TU stands ready to assist the Subcommittees as they 
consider these important aspects of forest road policy, and fish and 
wildlife habitat, in addition to the ramifications of the roadless area 
policy itself.
                                 ______
                                 
    Mrs. Cubin. Thank you, Mr. Moyer. I am one of those hunters 
and fishermen that oppose the policy.
    We have a series of votes so we will not be able to take 
the testimony of the other two witnesses until about 3:30 when 
we should be able to be back. Thank you very much and thank you 
for your patience.
    [Recess.]
    Mr. Peterson. I welcome you back to the hearing. I am 
Congressman Peterson, Fifth District, Pennsylvania. I am the 
substitute for the substitute for the substitute.
    We are going to call now on Mr. Greg Schaefer, Director, 
External Affairs, Western Region, Arch Coal Company.

STATEMENT OF GREG SCHAEFER, DIRECTOR, EXTERNAL AFFAIRS, WESTERN 
                   REGION, ARCH COAL COMPANY

    Mr. Schaefer. Thank you, Mr. Chairman. And for the record a 
special hello to Congresswoman Barbara Cubin, who is my 
representative in Wyoming.
    The Forest Service has a mineral policy which states that 
``the national forests and grasslands have an essential role in 
contributing to an adequate and stable supply of mineral and 
energy resources.'' This policy is as important today as it was 
the day it was written. The mineral policy further states that 
the Forest Service requires ``reclamation plans for all 
proposed surface-disturbing activities to return the land to 
productive uses, in accordance with land management goals.''
    As you listen about the backlog of maintenance on roads on 
Forest Service lands, keep clearly in mind that any road that 
we construct or reconstruct must be reclaimed at our own sole 
expense to a condition at least as good as it was premining.
    The final rule stated that the action was not designed to 
prohibit mining but only prohibits road construction and 
reconstruction. Roads are needed, however, even with 
underground mining operations for such activities as 
exploration drilling, construction and maintenance of mine 
ventilation and for emergency situations.
    Relative to energy, California has drawn a great deal of 
attention over the past year. Currently the State of California 
is importing 25 percent of their electric needs from other 
Western states. There are no major coal-fired power plants in 
the State of California but coal-fired generated electricity 
still accounts for 20 percent of their total electric 
consumption. Some of these sources include the Intermountain 
Power Project in Utah, which is owned by the City of Los 
Angeles and burns Utah Coal; the Reid-Gardner Unit Number 4 in 
Nevada, which burns Utah and Colorado coals; the Deseret G&T 
plant in Utah, which burns Utah coal; the Boardman plant in 
Oregon, which burns Utah, Colorado and Wyoming coals; and 
various other sources, including PacifiCorp in Utah, which is 
supplied by Utah coal. Each of these power plants obtains coal 
from mines that are either on or immediately adjacent to the 
new roadless areas.
    The North Fork Valley of Colorado produces between 50 and 
60 percent of the total volume of coal in Colorado and is the 
fastest coal-producing region in Colorado. These underground 
mines employ about 700 people in rural Colorado with an annual 
payroll of about $50 million. Forty percent of the coal mined 
in Colorado stays in Colorado to be used to generate 
electricity; the rest of the coal is shipped to other states, 
such as Kentucky, Illinois, Wisconsin, Michigan, Oregon, 
Minnesota, Texas, Iowa, and Utah.
    The Department of Energy reported that ``the West Elk Mine 
will require access in the next one to 5 years of high-quality 
coal resources that lie partially or entirely under roadless 
areas. Approximately 200 million tons of high-quality coal 
would be put off-limits [which is roughly a 35-to 40-year 
supply for that mine] and the mine would be forced to close 
prematurely. As a result, the $100 million worth of 
infrastructure already invested in this mine would be 
abandoned. The Bowie Mine in Colorado is hemmed in on the north 
and west by roadless areas. These are the logical directions 
for expansion of this mine. This mining company estimates that 
the roadless rule would put 50 million tons of high-quality 
coal off-limits.''
    In Utah the map of Utah shows that the significant portion 
of Utah's coal production, almost 70 percent, is located on the 
Manti-LaSal National Forest and is either overlain or adjacent 
to the roadless area boundary. Over half of Utah's coal 
production is also used in generating plants within the State 
of Utah. Utah coal is also exported to Nevada, Missouri, 
Oregon, Illinois, Kentucky, Nebraska and to the Pacific Rim.
    The State of Utah is unique among coal-producing states in 
that it does not have an extensively developed rail system for 
many of the mining operations and coal-fired power plants. That 
means in most instances the Utah power plants are reliant on 
local sources of coal. For example, the Hunter Power Plant, 
which has no rail service, is planning on a significant 
expansion to meet energy demands in Utah and other Western 
states, such as California. As mentioned, the City of Los 
Angeles owns the Intermountain Power Project in Utah and is 
also planning a significant expansion.
    The proposed power plant expansions in Utah could add as 
much as a 40 percent increase in in-state demand for Utah coal 
used for electric generation. As a result of this rule, the 
coal industry is facing a long-term impact to the coal supplies 
in Colorado and Utah. I hope that Congress carefully looks at 
this impact to energy production in the West and corrects the 
mistakes that have been made due to a lack of sufficient 
information.
    Again thank you for the opportunity to speak today.
    [The prepared statement of Mr. Schaefer follows:]

   Statement of Greg Schaefer, Director, External Affairs, Arch Coal 
Company, on Behalf of the National Mining Association and the Colorado, 
                  Utah and Wyoming Mining Associations

    Good afternoon and thank you for the opportunity to speak to you 
today regarding the Roadless Area Final Rule. My name is Greg Schaefer 
and I am Director External Affairs Western Operations for Arch Coal, 
Inc. I am also here on behalf of the National Mining Association (NMA) 
as well as the Colorado, Utah and Wyoming Mining Associations. As 
background, Arch Coal is the second largest coal producer in the 
nation, producing about 112 million tons of high quality coal annually. 
We serve 149 power plants in 30 states. We currently have six operating 
coal mines in the western United States, four of which operate at least 
partially on National Forest Service lands.
    At the outset let me say that the Forest Service, throughout the 
rulemaking process, stated the rule was not designed to prohibit 
mining, it would only prohibit the construction and reconstruction of 
roads. In fact the preamble to the rule states that ``[m]ineral leasing 
activities not dependent on road construction such as ``underground 
development, would not be affected by the prohibition.'' This 
proposition was refuted in the record by a Department of Energy report 
(``Impact of the Roadless Initiative on Coal Resources'' Bill 
Hochheiser, November 30, 2000) which provided, ``[w]hile these 
resources are recovered using underground mines, roads are needed to 
build ventilation shafts and for safety.'' Simply put, one must have 
roads for mineral exploration and development. This point was clearly 
made in the rulemaking record and obviously ignored by the rule's 
authors.
Impacts on Energy Resources
    The Forest Service has a stated policy regarding minerals on Forest 
Service Lands which states:
        ``The Federal Government's policy for minerals resource 
        management is expressed in the Mining and Minerals Policy Act 
        of 1970-- `...foster and encourage private enterprise in the 
        development of economically sound and stable industries, and in 
        the orderly and economic development of domestic resources to 
        help assure satisfaction of industrial, security, and 
        environmental needs.' Within this context, the national forests 
        and grasslands have an essential role in contributing to an 
        adequate and stable supply of mineral and energy resources 
        while continuing to sustain the land's productivity for other 
        uses and its capability to support biodiversity goals.''
    This policy is as important today as it was on the day it was 
written. Coal and mineral resources from Forest Service lands are vital 
to supplying electricity at a reasonable price and in an 
environmentally sound manner. The mineral policy also states that the 
Forest Service ``require reclamation plans for all surface-disturbing 
activities to return the land to productive uses consistent with the 
ecological capability of the area and in accordance with land 
management goals.'' This policy is consistent with state and federal 
laws and regulations governing coal mining activities.
    As I will describe in more depth later in this testimony, the 
Forest Service proposed and promulgated the Roadless Area Conservation 
Rule without sufficient information to perform an adequate analysis of 
the rule's impact on coal production from Forest Service lands. Only 
after the abbreviated 60-comment period closed did it become clear what 
areas would be affected and to what degree. When this information 
became available to the Forest Service, it was glossed over or 
completely ignored in the Final Environmental Impact Statement (FEIS), 
the final rule and its preamble.
    Due to the lack of detailed information, the Forest Service 
significantly underestimated the rule's impact on energy supplies in 
the western United States. The preamble to the final rule shows the 
effort to which the Department has gone to try and minimize the impact 
of the rule. Faced with the additional information that we provided, 
the Forest Service concluded:
        ``Moreover, it seems likely that even if resources do underlie 
        inventoried roadless areas, they would be among the last areas 
        entered for exploration and development...the agency has 
        determined that the information does not materially alter the 
        environmental analysis disclosed in the FEIS and does not 
        constitute significant new circumstances or information 
        relevant to environmental concerns bearing on the rulemaking 
        effort.''
    The fallacy of this statement can be seen on the attached maps. The 
additional coal resources needed to keep the West Elk Mine alive would 
be among the first areas entered for exploration and development--not 
among the last.
    The Department also downplayed the significance of National Forest 
Service lands as a source of high quality, low sulfur coal. In the 
preamble to the final rule they stated:
        ``The FEIS described the coal production from NFS lands as 
        accounting for about 7% of national production in 1999.''
    This statement implies that tightening up access simply will not 
have much impact on energy production from National Forest Service 
lands. However, last year our Black Thunder Mine in Wyoming alone 
produced over 60 million tons of coal, which represents over 5% of 
national production by itself. The Black Thunder Mine is located in the 
Powder River Basin of Wyoming and is located on the Thunder Basin 
National Grasslands which is managed by the National Forest Service. In 
speaking with Forest Service personnel, it was learned that they do not 
have a good method of estimating coal production from National Forest 
Service lands. A quick survey of some of producers on the Thunder Basin 
National Grasslands revealed that these few mines in Wyoming accounted 
for 8-10% of national coal production. This completely ignores coal 
production from National Forest Service lands in Colorado and Utah. If 
accurate data were used, the percentage of national coal production 
from National Forest Service Lands could very likely be 15-20%, which 
is a very significant percentage.
    In the justification for limiting access to high quality coal 
reserves on National Forest Service lands, which ultimately leads to 
phasing out the existing mining operations, the Department concluded:
        ``Overall, the U.S. has abundant coal reserves. Also, 
        alternative sources of low-sulfur coal do exist, concentrated 
        in the western U.S., mostly in Colorado, Montana and Wyoming. 
        Additionally, the abundant sources of low cost-coal and 
        available technology, such as scrubbers, will enable electric 
        utilities to meet their Clean Air Act compliance goals.''
    This statement writes off significant sources of high quality 
compliance coal in Utah and parts of Colorado and creates major 
problems for the generators of electricity in Utah. The premise for 
this statement is simply incorrect, and will be discussed below.
Colorado Impacts
    The State of Colorado produces close to 30 million tons of high 
quality bituminous coal annually. Roughly 45% of this coal is used 
within the state and the remainder is exported to other states. The 
North Fork Valley near Paonia, Colorado (roughly 90 miles east of Grand 
Junction, Colorado) produces approximately 60% of the total volume of 
Colorado coal, and is the fastest growing coal-producing region in 
Colorado. This area consists of three underground coal mines: Arch's 
West Elk Mine, the Oxbow Mine and Bowie Resources. It is anticipated 
that these three mines will produce up to16 million tons of coal in 
2001 with about 700 employees and an annual payroll of $50 million.
    In 1999, coal from these three mines was shipped to power plants in 
Colorado, Kentucky, Illinois, Wisconsin, Michigan, Oregon, Minnesota, 
Missouri, Texas, Iowa, and Utah. The Utah power plant supplied by this 
coal was the Intermountain Power Project (IPP) which is owned by the 
City of Los Angeles and provides low cost reliable power to California.
    The Department of Energy report referenced above highlights some of 
the energy impacts created by the roadless rule:
        ``This coal is highly valued by these utilities because of its 
        low sulfur content (0.5%) and high Btu value. Utilities such as 
        Tennessee Valley Authority rely on this coal as their Clean Air 
        Act compliance strategy. The utilities blend this coal with 
        other, higher sulfur, lower Btu coal to achieve compliance, and 
        burn the Colorado coal exclusively during time of high demand 
        in order to avoid derating of their plants while staying under 
        air emissions limits.''
    The Department of Energy report also describes specific energy 
impacts in the North Fork Valley:
        ``The West Elk Mine requires access in the next one to five 
        years to three areas of high quality coal resources that lie 
        partially or entirely under roadless areas. Approximately 200 
        million tons of high quality coal would be put off limits and 
        the mine would be forced to close prematurely. In addition, as 
        much as 50 million tons of coal on the existing lease would 
        likely not be mined because planned longwall panels that would 
        extend into unleased federal coal would not proceed. As a 
        result, the $100 million of infrastructure already invested in 
        this mine would be abandoned.''
    The West Elk Mine produces seven million tons of coal per year, 
providing $26 million dollars per year of direct labor income and 
almost $90 million of direct plus indirect income. The potentially 
unminable 200 million tons of coal have a value of $3 billion. Using 
the multiplier of 3.5, as used in the FEIS (p.3-316, table 3-68), this 
represents a total of over $10 billion in foregone economic activity.
    The Bowie mine, northwest of the West Elk mine, is hemmed in on the 
north and west by roadless areas. These are the logical directions of 
expansion for this mine. This mine produces five million tons of high 
Btu/low sulfur coal and employs 178 people at the mine, with an annual 
payroll of $9 million per year. This translates to more than $30 
million per year of direct plus indirect economic impact.
    The mining company estimates that the roadless rule would put 50 
million tons of high quality coal off limits to the Bowie mine, coal 
with a value of $750 million. Using the multiplier from the previous 
bullet, this translates to over $2.5 billion of economic activity.''
Utah Impacts
    In Uinta coal region of Utah, the Forest Service concentrated on 
only three tracts: the Muddy, Ferron, and North Horn tracts. These 
tracts are either next to an existing mine or contain sufficient high 
quality reserves to support a new mine. The FEIS that preceded the 
final roadless rule estimates these three tracts contain 185 million 
tons of high-Btu coal. This coal would have a value of over $2.8 
billion to $3.7 billion if mined.
    While these three tracts represent a sizable amount of coal, they 
also represent only the tip of the iceberg as shown on the attached map 
of the Uinta region. The roadless areas block mine development and 
expansion across the entire western boundary of the region. None of 
this information regarding resource information outside of the three 
tracts was considered by the rule writers nor the authors of the FEIS.
    The primary impact of the roadless area rule in Utah will be on the 
Manti-LaSal National Forest. The map shows that a significant portion 
of Utah's coal industry is located in the Manti-LaSal National Forest 
and is either overlain or adjacent to the roadless area boundary. The 
State of Utah annually produces roughly 25 to 27 million tons of high 
quality, low sulfur coal, half of which is used in the State of Utah. 
Just under 50% of the coal is exported to states such as Nevada, 
California, Oregon, Illinois, Missouri, Kentucky, Idaho, Colorado, 
Washington, Wyoming and Tennessee for electric generation (about 26%) 
and other industrial/commercial/residential uses (%16). Depending on 
the exchange rate and the demand for steam and metallurgical coal about 
10% of Utah coal is exported to Pacific Rim countries through the Los 
Angeles Export Terminal.
    The existing coal mines that are overlain by or adjacent to the 
Roadless Areas are the SUFCO, Deer Creek, Trail Mountain, Crandell and 
Star Point mines. In 1999 these mines represented almost 70% of the 
coal production in the State of Utah.
    The State of Utah is unique among coal producing states in that it 
does not have an extensively developed rail system for many of the 
mining operations and coal-fired power plants. This means that in many 
instances the Utah power plants are much more reliant on local sources 
of coal than counterparts in other states. For example, the Huntington 
Power Plant has no rail service and must rely on local mines to supply 
coal by truck. This plant is planning a significant expansion to meet 
energy demand needs for the State of Utah, as well as for export to 
other western states (e.g., California).
    The City of Los Angeles owns the Intermountain Power Project (IPP), 
with the power generated by this plant being exported to California. As 
a part of the current energy crisis in California, the IPP plant is 
also considering a significant expansion. The vast majority of the coal 
used at this plant is from the State of Utah.
    The potential power plant expansions in Utah could add as much as a 
40% increase in in-state demand for Utah coal. This is at a time when 
the number of coal mines in Utah have been decreasing and significant 
uncertainty has been added due to the roadless rule. A complicating 
factor in the State of Utah is the settlement agreement between the 
state and the federal government over the lost coal resources as a 
result of the designation of the Grand Staircase Escalante National 
Monument. In this settlement agreement, the federal government 
transferred temporary ownership of some coal reserves to the State of 
Utah (SITLA). The final rule states that these tracts have valid 
existing rights and can be mined. However, after the tracts, a certain 
amount of coal has been produced from these tracts, they revert back to 
the federal government. Furthermore, some of these tracts will need 
adjacent coal in order to justify the capital needed to build a mine. 
Where that adjacent federal coal is encumbered by the roadless area 
prohibitions, the likelihood of one investing capital in these mines is 
diminished.
California
    This section briefly discusses the role of coal in the State of 
California. This State was chosen since it is currently in the middle 
of a critical energy crisis and has generated a great deal of 
attention. Currently, the State of California is meeting 75% of its 
electric needs by in-state generation and is importing the remaining 
25% from other western states. There are no major coal-fired power 
plants in the State of California, but coal-fired-generated electricity 
still accounts for 20% of their total energy mix <SUP>1</SUP>. Some of 
these sources include the Intermountain Power Project in Utah (Utah 
coal); Reid-Gardner Unit 4 in Nevada (Utah and Colorado coals); Deseret 
G&T in Utah (Utah and Colorado coals); Boardman Plant in Oregon (Utah, 
Colorado and Wyoming coals). Each of these sources receives a portion 
of its coal from mines underlying areas affected by the roadless rule. 
The State of Califonia also has various ``northwest contracts'' from 
various sources including Pacificorp in Utah, which is supplied by Utah 
coal and similarly affected by the rule. As can be seen, the Utah and 
Colorado coal industries are an integral and critical part of not only 
the Utah and Colorado electric supply but also the State of California 
as well.
---------------------------------------------------------------------------
    \1\ Source: 1999 Net System Power Calculation, Electricity Analysis 
Office, California Energy Commission , April 2000
---------------------------------------------------------------------------
Summary
    The Nation must use our vast domestic resources to meet the growing 
energy requirements that an expanding economy requires. Many of these 
resources, including coal, are found on lands administered by the 
Forest Service and on other public lands. Demand for coal for 
affordable, reliable electricity is expected to increase by over 25% 
during the next 20 years. Nearly 90% of this additional coal production 
will come from public lands in the West; much from Forest Service 
administered lands impacted by this rule. If this affordable coal is 
not available, high costs for alternative fuels will mean higher 
electricity costs and lower electricity reliability. Also, the coal 
industry will continue to be required to reclaim any surface 
disturbance to at least as good a condition as the premining landscape.
The Roadless Area Initiative Process.
    I have been involved in the Roadless Area proceedings since 
President Clinton announced the initiative on October 13, 1999. I 
attended several public scoping meetings, including one in Grand 
Junction, Colorado in December, 1999 and subsequently requested an 
extension of time of the scoping period. In our letter, dated December 
17, 1999, requesting an extension of time we made several requests that 
have never been adequately addressed in this process
        ``It is difficult, if not impossible, to provide knowledgeable 
        comments on the proposal when the Forest Service has not 
        provided the public with sufficient detail. For example, the 
        Forest Service has not provided maps with any level of detail 
        to be able to develop questions or comments relative to our 
        operations. Just prior to writing this letter, I went to the 
        Forest Service website dedicated to the Roadless Area 
        initiative and it still states that the maps are `Under 
        Development'. In Colorado, a public hearing was held in Grand 
        Junction, Colorado. Once again, the Forest Service provided 
        maps, but in this case they were `conceptual', and lacked any 
        meaningful detail. We have asked for detailed maps, that 
        included coordinates, townships, ranges, and sections, but have 
        been unable to acquire the requested information. Local Forest 
        Service personnel have tried to help, but they have warned us 
        that even when the maps are available, they may not be 
        accurate? At a minimum, the Forest Service should provide the 
        following so that meaningful comment can be submitted:

          LDetailed maps showing the location of the proposed roadless 
        areas, with coordinates, sections, townships and ranges. 
        Identify the coal reserves that are located within the proposed 
        roadless areas, as well as quantify the coal quality of those 
        reserves. Identify the location of existing mining operations 
        that could access these reserves, and provide an analysis of 
        the socio-economic consequences of the inability to obtain 
        additional reserves. If there are no nearby mining operations, 
        assess the impact on the loss of those coal reserves from the 
        reserve pool.''
    The Forest Service never addressed this request. Subsequently, maps 
were posted on the website after the close of the public comment 
period, but the scale and lack of legal description made them virtually 
useless for assessing local impacts, but did give us a sense that we 
should look very closely at our Colorado operation in particular. The 
same information was requested by the NMA though a Freedom of 
Information Act (FOIA) request during the comment period for the 
proposed rule. After the close of the comment period, NMA was told in a 
formal response from the Forest Service that, in short, the maps and 
the relationship between roadless areas and mineral reserves were 
available on the Forest Service web site. Anyone who saw the 
information on the Forest Service web site knows this statement is just 
plain wrong.
    Fearing that we would not have any data in which to assess the 
boundary of the Roadless Area relative to our West Elk Mine in 
Colorado, we set out on a mission to try and develop our own map(s). 
Working with a local Forest Service employee we dug up the RARE II 
boundary that was proposed in 1979 and plotted that information on our 
mine plan map. It was found that the boundary passed right over the top 
of the West Elk Mine and contained nearly all future reserves 
accessible by this underground mine. As it turned out, the 1979 RARE II 
boundaries were used in setting the boundaries of the Roadless Area 
without any further review of any changes over the 20-year period. Of 
particular interest is that this boundary encompasses lands that 
contain a significant number of existing roads.
    Once this map was developed, we met with the Regional Forester's 
Office in Denver, Colorado in early February 2000. Their response was 
that they were pleased to have a map with this level of details, as 
they had not been provided with any detailed information from the 
Washington, D.C. Office of the Forest Service. The Regional Office 
acknowledged the problem and asked what relief we were seeking. Our 
response was that since the West Elk Mine was on the margin (edge) of 
the proposed Roadless Area that we would like the boundary slightly 
modified in order to provide a future for the West Elk Mine. The reply 
was that there was not an opportunity to move the boundaries as that 
decision had already been made.
    Even though the public comment period had closed, we provided the 
map that we had developed to the national Forest Service Team working 
on the Roadless Area Environmental Impact Statement. One member of the 
team reiterated that there was no opportunity to move the boundary as 
that decision had already been made. Our question was how could that be 
if the Draft Environmental Impact Statement was only now being 
prepared?
    All of our efforts during this period were reflected in one small 
paragraph of the DEIS, which stated:
        ``[The prohibition of road construction] could increase 
        exploration and development costs for leaseable minerals so 
        that deposits in inventoried roadless areas may be less 
        economically feasible for development. For example, one 
        Colorado coal company has submitted information showing that 
        the opportunity to access coal resources adjacent to their 
        existing leases would be severely limited by a prohibition on 
        road construction.''
    Leadership in the Forest Service either did not have adequate 
information or chose to ignore it. The problem remained that there was 
a lack of detailed map information. Arch Coal commissioned a consultant 
to develop the location of existing, and in some instances prospective 
coal leases, on the Grand Mesa, Uncompaghre and Gunnison (GMUG) 
National Forest in Colorado. Significant resources were put into 
developing this map, but the most difficult aspect was obtaining the 
legal descriptions of the proposed roadless areas.
    During the development of these maps, we continued to meet with the 
minerals branch of the Forest Service, the Department of Energy, Office 
of Management and Budget, Council on Environmental Quality, among 
others. A scheduled meeting with Forest Service Chief Mike Dombeck was 
``delegated'' as the Director and other senior members of the Forest 
Service canceled the meeting to lower level staff at the last moment.
    During one meeting with the Department of Energy we were shown a 
Roadless Area delineation map supplied to them by the Forest Service 
that showed several areas of significant impact to the coal industry on 
the Manti-LaSal National Forest in Utah. This information was stunning 
for two reasons: first, the Forest Service had never made this 
information public; and second, our company had been told several times 
by local forest service officials that there was no impact to our 
underground coal mining operations in Utah. Unfortunately, we took that 
declaration at face value.
    Upon the revelation that the issue extended beyond our Colorado 
operations, we also commissioned the consultant to perform the same 
mapping exercise for the Manti-LaSal National Forest in Utah. The 
Colorado and Utah maps were finally completed right about the time the 
Final Environmental Impact Statement was issued, and are attached and 
incorporated in this testimony. Although the final rule can be 
published as soon as 30 days following publication of the FEIS, the 
message these maps conveyed manifested a significant impact the Forest 
Service failed to project and the message was conveyed to the 
Department of Energy, the Office of Management and Budget, the Council 
on Environmental Quality and the Forest Service.
    Notwithstanding this compelling information, the preamble to the 
final rule states:
        ``The Department has decided not to adopt the exception for 
        future discretionary mineral leasing because of the potentially 
        significant environmental impact that road construction could 
        cause to inventoried roadless areas.''
    This is clearly an excuse and not a valid reason. State and federal 
mining regulations require that all surface disturbances associated 
with the mining operation must be reclaimed to a condition at least as 
good as the pre-mining condition. This means that any roads developed 
in conjunction with the mine, including exploration, development or 
operation must be reclaimed. Further, state and federal mining 
regulations require that the quality of surface and ground water must 
be protected.
    In a further effort to convince the public that these lands need to 
be off-limits for future mineral development the preamble states that 
if road construction and reconstruction were allowed for future energy 
and mineral leasing, an additional 59 miles of road over a five-year 
period would be built in roadless areas (including oil, gas and non-
fuel minerals). The preamble further states that at this rate, 10 
million acres would be affected, which is interesting considering that 
the Department only identified 8 million acres that have the potential 
for oil and natural gas (of which 2.5 million acres have potential for 
coal and coal bed methane). Again, the Forest Service has conveniently 
ignored the fact that roads developed in conjunction with mining must 
be fully reclaimed to a condition at least as good as the pre-mining 
condition.
Protections for Roadless Values Already Exist
    The Forest Service chose to accept these severe proscriptions for 
roadless areas even though roads associated with coal mines are 
temporary and the Surface Mining Control and Reclamation Act (SMCRA) 
mandates that these roaded areas be reclaimed to a condition as good or 
better than they were before mining. Furthermore, surface coal mines 
cannot be permitted at all on Forest Service lands unless the Secretary 
of Interior ``finds that there are no significant recreational, timber, 
economic or other values which may be incompatible with surface mining 
operations...'' (Section 522(e)2)) In other words, the values the rule 
is intended to safeguard have already been considered and protected by 
an existing statute.
    During the rulemaking process, the Forest Service also ignored the 
fact that the SMCRA provides the exclusive statutory scheme for 
designating areas unsuitable for coal mining. The first question the 
authors of this rule should have asked was whether the agency has the 
authority to deny reasonable access to federal coal.
Other Mineral Related Impacts of the Roadless Area Conservation Rule
    Stillwater Mining Company produces platinum and palladium from its 
mine located partially on Forest Service lands in Montana. Two of the 
roadless conservation areas cover portions of these reserves, which 
represent the only operating platinum/palladium mine in the Western 
Hemisphere. Even though Congress specifically drew the boundaries of 
the Absaroka-Beartooth Wilderness to exclude these important deposits, 
the roadless rule ignores this obvious congressional intent.
    Platinum and palladium are critical elements in catalytic 
converters as well as components in high temperature and corrosion 
resistant alloys used in jet aircraft and other defense applications. 
The environmental, economic and national security implications of 
denying access to develop these unique and important deposits are 
significant.
    Like coal underlying Forest Service lands, holders of federal 
phosphate leases will be limited in their ability to expand production 
levels beyond the boundaries of existing leases. The FEIS states that 
873.3 million tons of phosphates not yet leased could be affected by 
the roadless rule and ideational amounts could be affected when land 
management plans are revised or amended. The cumulative impact of the 
increased energy costs and the escalated cost of fertilizer on western 
farmers and ranchers will be profound.
Conclusion
    The Final Roadless Area Conservation Rule will clearly result in 
the loss of millions of tons of coal and phosphates, as well as 
substantial quantities of metallic and other hardrock minerals, that 
could otherwise be recovered from Forest Service administered lands. 
The economic impact on energy, agriculture and mining sectors is 
hundreds of millions of dollars. The cost/benefit analysis appears to 
under-estimate grossly the impact, and the Forest Service has ignored 
the cumulative effect the rule will have on sectors of the economy 
already reeling because of elevated energy costs.
    In its evaluation of the adequacy of the regulatory framework for 
hard rock mining, the National Research Council stated:
        ``The lack of information appeared to be greatest among highly 
        placed officials who have the greatest need to know. 
        Consequently, those responsible for regulatory management and 
        change, and for keeping the public and Congress adequately 
        informed, appear to be severely limited in their ability to do 
        so.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Hardrock Mining on Federal Lands, National Research Council 
(September, 1999)
---------------------------------------------------------------------------
    Although this observation was made in a different regulatory 
context, it is clearly applicable to the situation at hand.
    The authors of the rule went to great pains first to dismiss then, 
when confronted, understate the impacts this rule will have on the 
Nation's ability to meet its energy needs. The agency completely 
ignored the existing regulatory scheme, including the Clean Water Act, 
the Endangered Species Act, the Surface Mining Control and Reclamation 
Act, and most notably the Wilderness Act, that protects the values this 
rule claims to defend. The price the entire Country will pay of this 
failure has already been witnessed in California and is spreading 
across the West.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1552.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1552.004
                                 
    Mr. Peterson. Thank you.
    Next we will hear from Mr. Pete Morton, a Resource 
Economist for The Wilderness Society.

   STATEMENT OF PETE MORTON, RESOURCE ECONOMIST, WILDERNESS 
                            SOCIETY

    Mr. Morton. My name is Dr. Pete Morton. I am a natural 
resource economist in the Ecological and Economics Research 
Department of the Wilderness Society. We are a 200,000-member 
national conservation group focusing on public land issues. I 
appreciate the opportunity to testify today.
    As you know, the Roadless Area Conservation Rule conserves 
approximately 57 million acres of the public estate managed by 
the U.S. Forest Service. Conserving these roadless areas will 
provide for multiple uses, multiple goods and services and 
multiple economic benefits for current and future generations. 
I would like to include for the record an endorsement letter 
from the Ecological Society of America, the world's premier 
society of professional ecologists, underscoring the scientific 
justification for the rule.
    While gas is a clean-burning bridge fuel for the future, 
the drilling of gas generates significant ecological threats 
centered mostly on the daily discharge of thousands of gallons 
of water in the arid West. As a result of the drilling, 
aquifers are drained, water tables are lowered, drinking water 
wells dry up, flood risks increase for property located near 
discharge storage ponds, and the sudden influx of discharge 
water increases sediment loads that run into and damage 
fisheries.
    Water discharged from coal bed methane wells, for example, 
is highly saline with a very high sodium absorption ratio. This 
ratio affects how water interacts with soil and can cause 
declining crop productivity for downstream farmers.
    All these impacts carry price tags but they almost never 
are captured in cost-benefit analyses. Such costs need to be 
considered, especially since roadless watersheds provide clean 
water for hundreds of downstream communities and thousands of 
affected citizens.
    Another problem would be landslides. In Colorado alone over 
a million acres of Forest Service roadless areas have high risk 
from landslides that dump tons of sediment into the water 
streams. A more detailed discussion of these uncounted costs 
are included in my written testimony.
    I would like to now turn to the Wilderness Society's GIS 
analysis of oil and gas in roadless areas. Using a GIS 
intersection analysis of oil and gas plays with roadless areas, 
we estimate that roadless areas contain 4/10th of 1 percent of 
the nation's oil resources and 6/10ths of 1 percent of the gas 
resources. These numbers are estimated using USGS mean data.
    These are the technically recoverable resources, which drop 
significantly when financial and economic factors are 
considered. Assuming companies would only extract those 
resources that would yield a profit, 73 and 55 percent 
respectively of the oil and gas is financially recoverable. 
When nonmarket costs from erosion, loss of habitat, et cetera 
are accounted for, these numbers drop even more.
    With respect to the actual impacts from the Roadless Area 
Conservation Rule, it is important to note that 41 percent of 
the roadless areas already had management prescriptions 
developed through normal planning processes with local and 
national input that prohibited road construction. As such, 
examining the impact of the roadless rule should focus on the 
59 percent of roadless areas where management prescriptions 
were actually changed.
    In addition, 759,000 of roadless areas with high oil and 
gas potential are already under lease and would not be impacted 
by the roadless rule. The remaining land, much of which is on 
steep slopes, has been available for leasing for 60 to 70 years 
with little or no interest from industry. With more than 
380,000 miles of road and the potential capability of slant-
drilling to pump oil and gas four to six miles from a road, it 
is questionable whether road access is really a significant 
issue and whether there will be any negative impacts at all in 
terms of oil and gas. When these factors are considered, the 
negative impacts from the roadless rule are much, much less 
than have been estimated by the oil and gas industry.
    And, as importantly, when estimating economic impacts it is 
vital to examine the net effects of the rule, fully accounting 
for the benefits; for example, the fishing and hunting benefits 
cited earlier by Mr. Moyer.
    While economics should not drive public land management, 
when net impacts are considered I would agree with the 
conclusion of the Forest Service that the benefits of the 
Roadless Area Conservation Rule far outweigh the costs.
    And finally, with respect to the current spike in energy 
prices, the quantities of oil and gas in national forest 
roadless areas are very small and will have absolutely no 
impact on energy prices that are set by global market forces. 
In addition, the oil and gas in roadless areas cannot be added 
to current production for at least five to 10 years.
    Currently undiscovered gas reserves and expected growth in 
these reserves account for 42 percent of on-shore gas supplies 
in the U.S. It is these resources, the financially feasible gas 
resources in and around the already-discovered reserves, that 
have the potential to impact short-term energy prices, not the 
unknown small quantities of undiscovered gas resources in 
roadless wildlands far from existing pipelines.
    Thank you for your time.
    [The prepared statement of Mr. Morton follows:]

 Statement of Peter A. Morton, Ph.D., Resource Economist, Ecology and 
         Economics Research Department, The Wilderness Society

    I am Dr. Peter Morton, Resource Economist in the Ecology and 
Economics Research Department for The Wilderness Society, a 200,000-
member national conservation group that focuses on public land issues. 
I appreciate the opportunity to testify today regarding potential 
effects of oil and gas resource development in national forest roadless 
areas.
    The Forest Service Roadless Area Conservation Rule has raised 
concerns by some over the economic impact of prohibiting road 
construction on domestic energy supplies. The environmental impact 
statement for the rule presents a good overview of the rule's potential 
effects on oil and gas development, including some detailed information 
on reasonably foreseeable development activities. The objective of this 
testimony is to evaluate the impacts--both positive and negative--of 
the Roadless Area Conservation Rule to provide decision-makers with 
additional information relevant to the current debate.
Economic Impacts from the Roadless Rule
    The Roadless Area Conservation Rule conserves approximately 58.5 
million acres of the public estate managed by the U.S. Forest Service. 
Conserving these roadless areas will provide for multiple uses, 
multiple goods and services, and multiple economic benefits for current 
and future generations. Roadless areas provide backcountry recreation 
opportunities, represent critical habitat for fish and wildlife--
including threatened and endangered species, provide the scenic 
backdrop for motorized and non-motorized visitors outside roadless 
areas, generate ecosystem services such as carbon sequestration, 
natural pest control and watershed protection for local communities, 
and preserve the option of protecting additional wilderness for future 
generations. A letter from the Ecological Society of America 
(Attachment 1), the world's premier society of professional ecologists, 
underscores the scientific justification for the Roadless Area 
Conservation Rule.
    Although roadless wildlands are highly valued by society, without 
formal markets, the benefits of wildland conservation are difficult to 
quantify in economic terms. As a result, non-market wildland benefits 
are typically under-produced by private landowners responding to market 
signals. This is a serious shortcoming as certain functions of nature, 
although they have no market value and their benefits are only 
partially understood, are necessary to keep America's market economy 
running. Public lands can help correct market failures by sustaining 
roadless wildlands that cannot survive the market forces driving 
private land use decisions. The failure of markets to protect roadless 
area benefits provides the economic justification for implementing the 
roadless rule.
    The record number of public comments received by the Forest Service 
in support of the roadless policy provides empirical recognition and 
support for the multiple uses and benefits generated from roadless area 
conservation. While no quantitative estimate of the benefits of the 
rule was provided in the Roadless EIS, the Forest Service believes the 
benefits of the rule outweigh the costs (USDA Forest Service 2001, 
Regulatory Impact Analysis). In a more sophisticated analysis, Loomis 
and Richardson (2000) estimated that in their current, unroaded 
condition, the 42 million acres of Forest Service roadless wildlands in 
the lower 48 states can be expected to provide almost $600 million in 
recreation benefits each year, more than $280 million in passive use 
values, and nearly 24,000 jobs. The authors also estimated annual 
benefits from roadless area ecosystem services to include between $490 
million and $1 billion worth of carbon sequestration services as well 
as $490 million in waste treatment services. Estimating the net impacts 
of the roadless rule should fully account for the benefits of 
conserving roadless areas as well as the potential costs with respect 
to the decline in quality and quantity of the other multiple uses 
generated by the public estate as a result of exploiting energy 
resources.
The Ecological Footprint of Oil and Gas Exploration and Drilling
    Oil and gas drilling operations leave behind a large footprint on 
the landscape--a footprint that extends well beyond the several-acre 
drilling sites. Beginning with exploratory activities, large trucks 
with seismic surveying equipment crisscross the landscape using a crude 
system of poorly designed roads with at times little consideration for 
wetlands, storm water runoff or critical habitat. Exploratory drilling 
operations then require more large trucks with drill rigs using a 
network of constructed roads to access drill sites. If the exploratory 
well is determined to have no potential for production, the well is 
plugged, but the landscape scars remain. Depending on the agency with 
oversight, there is typically little enforcement or - monitoring of 
environmental regulations. In addition, no surety bonds are required 
for restoration or clean up.
    If the well has potential for production, the well is cased with 
pipe and cemented (in an attempt to prevent oil and gas from seeping 
into nearby aquifers), and the drilling rig is replaced by a well head. 
Electric or gas powered motors are used to power the pumps that collect 
the gas at each well and to power the series of 24-hour compressor 
stations that pressurize gas for pipeline transport from the wells to 
customers in distant markets (WORC 1999). Many drill sites also involve 
the construction of sediment ponds and retention reservoirs to collect 
storm water drainage and store the ground water brought to the surface 
as a result of the drilling and extraction operation--the latter 
process is called dewatering. Injection wells are sometimes used to 
dispose of the water produced and to enhance oil and gas recovery--an 
action that may necessitate additional drilling of a few to hundreds of 
injection wells throughout the field (Gauthier-Warinner 2000). The 
ecological footprint not only extends across the forest and range 
landscape, it also penetrates to shallow aquifers as well as aquifers 
thousands of feet below the earth's surface.
Water and the Uncounted Costs from Oil and Gas Extraction
    The major uncounted environmental cost associated with oil and gas 
drilling concerns water. National Forest roadless areas provide 
important watershed protection services for downstream communities, 
services that are negatively impacted by oil and gas drilling. In the 
lower 48 states, 55% of the watersheds that contain IRAs provide water 
to downstream facilities that treat and distribute drinking water to 
the public (LaFayette 2000, Watershed Health Specialist Report).
    Greatly increased drilling activity for coal bed methane is having 
profound real life impacts on many families and communities in the West 
and illustrates well some of these impacts. In order to ``release'' the 
methane gas from coal beds, enormous amounts of ground water must be 
pumped from coal aquifers to the surface. The water discharged on the 
surface comes from shallow and deep aquifers containing saline-sodic 
water. The total amount of water produced from individual coalbed gas 
wells is generally much higher than that from other types of oil and 
gas wells (USGS 1995). Coal bed methane wells in Wyoming and Colorado 
discharge between 20,000 to 40,000 gallons per day per well, onto the 
ground surface (Darin 2000). The disposal of the water produced with 
coalbed gas not only affects the economics of development, but also 
poses serious environmental concerns. Water disposal can vary from 
inexpensive methods, such as discharge into streams, to more costly 
alternatives, such as underground injection and surface discharge after 
water treatment.
    The amount of water discharged from CBM wells in Wyoming has 
skyrocketed in recent years, increasing from approximately 98 million 
gallons (300 acre feet) per year in 1992, to 5.5 billion gallons 
(17,000 acre feet) per year in 1999 (Wyoming State Engineer's Office 
cited in Darin 2000). The discharging of 17,000 acre feet of water in 
the arid west is wasteful in the short-term (generally an acre-foot of 
water will supply a family of four for one year), and has potentially 
devastating economic impacts for affected communities in the long-term. 
Dewatering of deep aquifers may upset the hydrologic balance, 
eliminating or reducing the availability of this water for future 
agricultural and domestic uses, as well recharge for shallow aquifers 
and surface water.
    The discharge of ground water can deplete freshwater aquifers, 
lower the water table, and dry up the drinking water wells of 
homeowners and agricultural users. Monitoring of wells maintained by 
the BLM in the Powder River Basin, Wyoming already indicates a drop in 
the coal aquifer of over 200 feet (WORR 1999). The short-term economic 
costs include drilling new, deeper wells for current and future 
homeowners, ranchers and farmers, assuming successful wells can be 
found and/or the costs of relocating families to new homesites. If the 
freshwater aquifers do not fully re-charge, the long-term economic 
costs to affected landowners, homeowners, communities, and states 
across the west could be severe, including the foregone opportunity 
(option value) to use aquifer water in the future.
    The water discharged from oil and gas wells is highly saline with a 
very high sodium absorption ratio (SAR)--a ratio that affects how water 
interacts with soil. Water with a high SAR can permanently change 
chemical composition of soils, reducing soil, air and water 
permeability and thereby decreasing native plant and irrigated crop 
productivity. Test results from water discharged from CBM wells from 3 
sites in Wyoming all revealed SARs exceeding a level that could result 
in a 30-40% decrease in plant productivity (Powder River Basin Resource 
Council 2000).
    The discharge of tens of thousands of gallons of ground water 
transforms many streams that normally flow intermittently only during 
spring runoff or after storms into all-season streams (Powder River 
Basin Resource Council 2000). The influx of water has resulted in deep 
channel scouring, erosion, and increased sedimentation. Increased 
sedimentation in streams can negatively impact native fisheries found 
in mainstream drainages with increased likelihood and financial costs 
from fishery restoration projects. The discharge of water into 
intermittent stream channels damages native flora and fauna not adapted 
to year-round water and promotes the spread of noxious weeds such as 
Scotch burr and Canadian thistle. The change in native vegetation 
composition, combined with the increase in noxious weeds, negatively 
impacts threatened and endangered species and other wildlife, as well 
as cattle. The loss of native species and the spread of noxious weeds 
across the west has enormous economic costs to the public and private 
interests.
    The landscape is also impacted from the retaining ponds or 
reservoirs constructed to store the water discharged from the drilling 
operation. The constructed earthen dams and retaining ponds destroy 
additional habitat and introduce artificial structures to the 
landscape. Habitat and homes on property nearby reservoirs also have 
potential flood risk from structural failure of the poorly designed, 
quickly built retaining ponds and reservoirs during storm events, for 
example.
    And finally, drilling for oil involves ecological risks and 
potential economic costs associated with blowouts--the catastrophic 
surge of the highly pressurized fluid from the drill hole that can 
cause fires, loss of life and property, and the potential contamination 
of surface drinking water sources. To reduce the number of blowouts, 
rotary drilling operations typically inject a fluid of drilling muds 
into the drill hole in order to lubricate and cool the drill bit. While 
reducing the number of blowouts, the drilling fluids themselves create 
a risk of contamination of adjacent freshwater aquifers (Gauthier-
Warinner 2000).
The Uncounted Costs from Drill Sites, Pipeline and Road Infrastructure.
    The exploitation of unconventional gas resources (e.g. continuous-
type and coalbed methane) will require hundreds of thousand of wells to 
be drilled. Exploiting the gas in continuous-type deposits will also 
require drilling a significant number of wells, as these deposits are 
randomly distributed. Based on existing technology, the USGS indicates 
that nationwide approximately 960,000 productive wells will be required 
to recover potential gas reserve additions of 300 trillion cubic feet. 
However the habitat loss would not end there as extrapolation of 
present-day success ratios indicates that that roughly 570,000 ``dry'' 
holes would have to be drilled in addition to the productive wells--for 
a total of 1,530,000 drilling sites on public and private lands. Based 
on an industry report in Alaska (cited in NPC 1999) while past drilling 
pads consumed about 65 acres of habitat, recent operations average less 
than 10 acres. If we assume 5 acres per drilling pad and 1,530,000 
drill sites, exploitation of just the continuous-type gas deposits 
would consume approximately 7.7 million acres of habitat on public and 
private land across the nation. As noted by the USGS (http://
energy.usgs.gov/factsheets/GIS/gis.html), ``land-use planners are not 
in a good position to determine the societal impacts of the drilling 
(density) that would be necessary if these continuous reservoirs of 
(tight) gas were exploited.--
    In order to bring gas to market, thousands of miles of pipeline 
must also be constructed--extending the impacts of gas drilling far 
from the actual drill site. There are currently more than 270,000 miles 
of gas transmission pipelines and another 952,000 miles of gas 
distribution lines. The National Petroleum Council (1999) projects a 
need to build 38,000 and 255,000 miles of additional transmission and 
distribution pipelines, respectively, by 2015.
    Oil and gas exploration also requires roads that increase 
ecological costs and invite cross-country travel and habitat damage by 
ORVs. Oil and gas drilling often require daily vehicular trips to 
monitor and maintain wells and pipelines. The increased traffic 
disrupts wildlife, may result in more road kill, and diminishes quality 
of life for local residents. The linear deforestation associated with 
road construction degrades habitat and fragments travel corridors 
needed by wildlife species such as grizzly bears, wolves, and other 
large, wide-ranging predators. Roads become conduits for non-native 
species that displace native species resulting in significant 
mitigation costs for taxpayers. Roads, by providing access, increase 
the frequency of human-caused fires. Humans cause ninety percent of all 
wildfires in the national forests; more than half of those wildfires 
begin along roads. In addition, roads increase the damage to 
historical, cultural and archeological resources due to increased ease 
of access.
    Roads also increase sediment deposits in streams resulting in 
reductions in fish habitat productivity. In addition to keeping 
sediment from access roads and drill sites of community water sources, 
roadless areas protect communities from mass wasting (e.g. landslides). 
Mass wasting from landslides and debris flows is a key source of 
sediment, particularly in western forests, and many of the roadless 
areas are at high risk from landslides. In Colorado and Wyoming, for 
example, over 1,146,000 and 645,000 acres of roadless areas, 
respectively, have high susceptibility to landslides (Table 3). While 
landslides are a natural process, management activities like road 
construction and logging accelerate the incidence of mass wasting by 
several orders of magnitude (Swanson 1971, Anderson and others 1976, 
Swanson and Swanston 1976, Sidle and others 1985, Swanston 1991). For 
example, a joint FS and BLM study in Oregon and Washington found that 
of 1290 slides reviewed in 41 subwatersheds, 52% were related to roads, 
31% to timber harvest, and 17% to natural forest (USDA Forest Service 
1996 cited in LaFayette 2000, Watershed Specialist Report). The Forest 
Service concluded that the Roadless Area Conservation Rule ``would have 
a considerable beneficial effect on water quality, particularly in 
Regions 1 and 4.'' (the Northern Rockies) 
[GRAPHIC] [TIFF OMITTED] T1552.005

    The uncounted economic costs from road construction for oil and gas 
drilling include increased ORV monitoring costs, increased frequency 
and costs of stream restoration projects, increased noxious weed 
mitigation costs, increased damage to archaeological sites and the 
decline in future benefits from visiting these sites, increased water 
treatment costs for downstream communities, and increased road 
maintenance and closure costs for taxpayers. On average, the annual 
maintenance cost of a mile of road is about $1,500 per mile (USDA FS 
1999). Each new mile of road added to the FS transportation system 
competes for limited road maintenance funding, as Congressional funding 
is less than 20% of the funding necessary to maintain the existing road 
infrastructure. One must seriously question the wisdom of building more 
roads when current roads can't be maintained, and each year's unmet 
maintenance needs increase the backlog as roads deteriorate and the 
costs of repairs increase over time.
    Examples of the economic costs from energy exploitation are 
summarized in Table 4 and should be included as part of the discussion 
on the net impacts from the Roadless Areas Conservation Rule. While 
many of these costs are difficult to estimate, academic and federal 
agency economists have made great advances in developing methods to 
value non-market costs and benefits. Included in the table are methods 
available for estimating the economic costs, to drive home the point 
that these costs are quantifiable and should be included in the 
economic calculus. Many heretofore-unquantifiable wildland benefits and 
costs are now quantifiable and available to agency officials 
responsible for developing the policies and procedures for guiding 
public land management. We therefore strongly encourage the USGS to 
internalize non-market costs into the cost functions used to estimate 
economically recoverable resources. 
[GRAPHIC] [TIFF OMITTED] T1552.006

Preliminary Analysis of Oil and Gas Resources in National Forest 
        Roadless Areas
    As indicated by the Forest Service in the EIS for roadless rule, it 
is very difficult to evaluate the reasonably foreseeable potential for 
oil and gas development in Inventoried Roadless Areas (IRAs). While 
significant energy resources underlie some IRAs, there has been very 
little interest in leasing or drilling in roadless areas or other 
national forest lands. It is wildly unrealistic to estimate the 
potential economic impacts of protecting IRAs based on total quantities 
of oil and gas resources in IRAs. That is like estimating timber 
industry impacts based on the total number of board feet of timber in 
IRAs - a pointless exercise that would result in a grossly inflated and 
inaccurate economic impact estimate. While the EIS does not include 
extensive data on oil and gas resources in IRAs, it presents a 
realistic picture of the overall economic effects of prohibiting roads.
    As a starting point in evaluating economic effects, The Wilderness 
Society undertook an assessment of the energy potential of federal 
lands in general and roadless areas specifically. The assessment 
included a GIS analysis of the oil and gas resources in national forest 
roadless areas for 6 states in the Intermountain West. These 6 states 
were selected as they represent the states with major oil and gas plays 
and they have significant acreage of national forest IRAs. Following 
are some preliminary results; we expect to have final results later 
this spring.
Data
    We obtained data from the USGS 1995 National Assessment of United 
States Oil and Gas Resources, which divides the U.S. into eight regions 
and subdivides those regions into 72 geologic provinces, with each 
province containing a number of individual plays. Plays are defined by 
the USGS as a set of known or postulated accumulations of oil or gas 
that share similar geologic, geographic and temporal properties. A 
separate GIS coverage for each of the 199 plays in the six western 
states (North Dakota, Wyoming, Montana, Colorado, Utah and New Mexico) 
was obtained from the USGS in ARC/INFO export format (Weller 2001). 
These coverages define the boundaries of the oil and gas plays. The 
National Inventoried Roadless Areas (IRA) GIS coverage was downloaded 
in ARC/INFO export format from the USDA Forest Service Roadless Area 
Conservation website. This dataset contains all National Inventoried 
Roadless Areas (IRAs) for the lower 48 states.
Methods
    A Geographic Information System (GIS) and ARC/INFO software were 
used to determine the area of overlap between IRAs and oil and gas 
plays. The IRA coverage was clipped to the boundary of each of the six 
states in the study area to create an IRA coverage for each state. The 
state IRA coverages were then intersected with each play that falls 
within that particular state to identify the IRAs that overlap with 
each play. Plays could not be appended into a single oil and gas play 
coverage, because different plays are located within different geologic 
formations, and therefore their geographic boundaries often overlap 
each other.
    The results of the intersection analyses were then used to 
calculate the number of acres of each play that lie within IRAs, as 
well as the number of acres of each individual IRA that overlap with 
different plays. The total acres of each play were also determined in 
order to obtain the percent of each play that coincides with IRAs. In 
order to estimate technically recoverable oil and gas resources in IRAs 
we multiplied the percentages by the estimated oil and gas resources 
for each play, taken from the USGS 1995 Assessment. Economically 
recoverable resources within IRAs were then estimated using a model 
based on the financial cost functions and recovery rates developed by 
the Attanasi (1998). Our estimates are based on the USGS mean value for 
each resource. USGS mean values represent the expected value and 
provide the best, unbiased estimate of oil and gas resources.
Results for Technically Recoverable Resources
    The technically recoverable oil in national forest IRAs for the 6 
states in the intermountain west are reported in Table 1. The 
technically recoverable resources are those that may be recovered using 
existing technology without regard to cost or profit. For this report, 
oil totals include both petroleum oil and gas liquids from conventional 
and unconventional sources. The 754 million barrels of technically 
recoverable oil represent only four-tenths of one percent (0.4%) of the 
nation's oil resources. The technically recoverable gas in the IRAs in 
the 6 western states is reported in Table 2. The 8.7 trillion cubic 
feet (Tcf) of gas in IRAs represents six-tenths of one percent (0.6%) 
of the nation's gas resources. 
[GRAPHIC] [TIFF OMITTED] T1552.007

Results for Financially Recoverable Resources
    The financially recoverable resources are that part of the 
technologically recoverable resources that can be recovered with a 
profit. To be considered financially recoverable the market costs of 
gas recovery must be less than or equal to the gas price (Goerold 
2001). When financial criteria are considered, the oil and gas actually 
recoverable drops significantly (USGS 1998). For the lower 48 states, 
only 38 and 39 percent of the technically recoverable undiscovered oil 
and gas, respectively, can be extracted profitably when oil is $18 per 
barrel and gas is $2 per mcf (thousand cubic feet). At $30 per barrel 
and $3.34 per mcf, two-thirds of the technically recoverable oil and 
gas is financially profitable to recover (Attanasi 1998).
    Financial recovery rates are even less for unconventional oil and 
gas resources (continuous-type gas and coal bed gas) than for the 
conventional resources. For continuous-type gas, only 7 and 15 percent 
of the technically recoverable gas is financial to find, develop and 
produce at $2/mcf and $3.34/mcf, respectively (Attanasi 1998). For 
continuous-type oil accumulations at $18 and $30 per barrel, about 7 
percent and 50 percent, respectively, of the technically recoverable 
oil is financially feasible to exploit (Attanasi 1998). For 
unconventional coal bed gas, about 30 percent of the technically 
feasible gas is financially recoverable at $2 per mcf, while at $3.34 
per mcf, the financial portion increases to slightly more than 50 
percent (Attanasi 1998).
    The financially recoverable oil in IRAs on the national forests is 
shown in Table 1. Assuming oil prices of $18 or $30 per barrel, oil in 
the IRAs of these 6 states would meet total U.S. oil consumption for 
approximately 21 or 29 days, respectively (e.g. 552/18.92=29). When 
financial factors are considered the quantity of gas available also 
drops dramatically (Table 2). At $2 and $3.34 per thousand cubic feet 
(mcf), the financially recoverable gas in these IRAs would meet total 
U.S. gas consumption for approximately 2 or 3 months, respectively. 
[GRAPHIC] [TIFF OMITTED] T1552.008

    The financially recoverable totals reported above are based on USGS 
estimates of economically recoverable resources. The costs that the 
USGS uses in assessing the costs of oil and gas production include 
items such as the direct costs of exploration, development and 
production of gas. Not included in the USGS calculus are non-market 
costs such as the off-site ecological costs and cumulative negative 
environmental impacts that might result on a public resource such as a 
watershed (Goerold 2001). An economic analysis of benefits and costs 
must account for non-market benefits and costs, as well as those more 
readily observed and measured in market prices (Loomis and Walsh 1992; 
Pearse 1990). An economic analysis is conducted from the viewpoint of 
society, which should also be the viewpoint of politicians and managers 
of the public estate. In contrast, a financial analysis only examines 
costs and benefits as measured by market price; it is the viewpoint of 
private industry and is more concerned with profits or losses.
    The USGS economically recoverable analysis more closely resembles a 
financial analysis than an economic analysis. A more accurate estimate 
of the economically recoverable resources from a public perspective 
should include a full accounting of non-market costs. If economic 
analysis accounted for the uncounted, non-market costs discussed 
earlier, the quantities of oil and gas estimated to be economically 
recoverable would be much less than reported here.
Energy Impacts from the Roadless Area Conservation Rule are Minimal
    As discussed earlier, raw estimates of technically or financially 
recoverable oil and gas resources do not provide even a remotely 
accurate measure of the reasonably foreseeable economic effects of 
roadless area protection. For example, the roadless area conservation 
rule conserved approximately 58.5 million acres of public wildlands on 
the national forests. However, the roadless rule would not change 
management prescriptions on 24.2 million acres, representing 41% of the 
IRAs. There would be no impacts from the roadless rule on these acres 
as existing land management plan prescriptions already prohibit road 
construction (USDA Forest Service 2001). The policy discussion on 
impacts of the roadless rule should therefore focus on the 59% of the 
IRAs where management policy was actually changed as a result of the 
final rule.
    Furthermore, the oil and gas industry has demonstrated little 
interest in exploiting potential energy resources in IRAs. Because of 
the downturn in the domestic oil and gas economy, the amount of 
National Forest System land under oil and gas lease dropped from about 
35 million acres in the mid-1980s to 5.8 million acres in 1998 (USDA 
Forest Service 2000). The national forests are not a major supplier of 
gas. In 1999, the National Forest system produced about 0.4% of the 
nation's gas supply, with about half of that total coming from Little 
Missouri Grasslands (USDA Forest Service 2000). As such the impacts on 
current and reasonably foreseeable supply from a change in national 
forest management are minimal.
    Most roadless areas have been available for leasing for decades. 
Extensive portions of the lands which the oil and gas industry believes 
have high potential are already under lease and therefore would not be 
affected by this rule. Currently 759,000 acres of IRAs with high oil 
and gas potential are under lease (USDA Forest Service 2001). Most of 
these areas are within the Intermountain, Northern, and Rocky Mountain 
regions. Existing leases are not subject to the prohibitions. The 
roadless rule would have no effect on existing oil and gas leases. In 
fact, it provides for future leasing, with roadbuilding, on lands 
currently under lease. This exception will reduce economic impacts on 
current operators, by avoiding the possibility of increasing the costs 
of production or precluding future development on the lease if 
restrictions had been applied at the time of lease extension or 
renewal.
    In addition, just because an IRA is off-limits to road construction 
does not mean that underlying energy resources are impossible to 
develop. The roadless rule could affect extraction of oil and gas in 
IRAs in the future where road construction is required. However, this 
impact can be minimized by the use of extended reach drilling and other 
technological improvements that can allow access to oil and gas 
resources 5-6 miles from the drilling site (NPC 1999). With 380,000 
miles of roads and an extended drilling reach of 5-6 miles, it is 
questionable whether lack of additional road access is really a 
significant issue.
    Public concerns and environmental safeguards for protecting 
sensitive lands and resources are also key factors limiting oil and gas 
development. While standard leases govern gas drilling on 59% of 
Federal land in the Rocky Mountain region, only 9 percent of the 
federal land in the region is actually off limits while 32 percent is 
subject to access restrictions (NPC 1999). These restrictions are not, 
however, without purpose. For example, seasonal closures designed to 
protect wildlife populations may slow down the rate of gas exploitation 
but protect the wildlife and other multiple-uses under which public 
land is managed. Such protection is warranted economically, as 
watershed protection, hunting, fishing and recreation generate 
significantly more economic benefits to all Americans, including 
affected residents and business in the Rocky Mountain Region, than oil 
and gas extraction. Legislative intent and public sentiment indicate 
that public lands should not be for the exclusive use of the oil and 
gas industries and that managers must attempt to balance the many uses 
that occur on public land. Environmental restrictions help internalize 
the uncounted costs from oil and gas extraction mentioned previously by 
protecting other multiple uses enjoyed by the public.
    With respect to energy prices, the quantities of financially 
recoverable oil and gas in IRAs are very small and will have no impact 
on energy prices that are set on the world market. Extracting or not 
extracting oil and gas in IRAs will have absolutely no impact on short-
term energy prices since IRAs resources could not be added to current 
production for at least 5-10 years (USDA Forest Service 2001). In 
addition, a substantial amount of undiscovered, unconventional gas 
resources in the IRAs are categorized by the USGS as hypothetical 
resources and are associated with higher extraction costs than 
conventional resources. Producers have limited ability to exploit 
hypothetical sources within an expedient time frame. The hypothetical 
nature of much of the unconventional resource underscores the inability 
of IRA oil and gas resources to impact current energy prices.
    The oil and gas resources that may affect energy prices already 
exist in discovered known reserves and in the growth of these reserves. 
Currently discovered reserves and expected reserves growth account for 
42% of U.S. onshore gas supplies (USGS 1995). It is these resources, 
the financially feasible gas resources in and around the already 
discovered reserves, that have the potential to impact short-term 
energy prices--not the unknown and hypothetical, small quantities of 
undiscovered gas resources in roadless wildlands far from existing 
pipelines.
Conclusion
    Based on our analysis, The Wilderness Society concludes that IRAs 
hold very small quantities of oil and gas, and drilling in IRAs on the 
national forest is economically inefficient and will do nothing to 
reduce current energy prices for consumers. While economics should not 
be the driving force behind public policies, we agree with the Forest 
Service conclusion that IRAs should be protected from oil and gas 
drilling as the benefits of the Roadless Area Conservation Rule 
outweigh the costs. While The Wilderness Society also agrees that gas 
is the bridge fuel for the future, it is important to recognize that 
the extraction of gas, a cleaner burning fuel than coal, involves 
significant ecological and economic costs. It is important for the 
public to be aware of these costs and internalize them into their 
public land management and energy consumption decisions. The United 
States has less than 5 percent of the world's population but consumes 
40% of the oil and 23% of the gas (USGS 2001). As such there is much we 
as a nation can do via investments in energy conservation and renewable 
energy to reduce our consumption, and the ecological and economic costs 
associated with our consumption levels (NRDC 2001).
    We strongly support the Roadless Area Conservation Rule's 
prohibition on road construction for oil and gas development and other 
forms of resource extraction. At the same time, we believe the 
protection of roadless areas should not be used as an excuse to 
exacerbate the impacts of drilling for gas next to homes or private 
property where the families do not own the sub-surface mineral rights 
(i.e. split estate). We recommend a programmatic EIS on gas drilling 
where it is adversely affecting homeowners, ranchers, and communities. 
Such an approach in needed until adequate baseline conditions are 
firmly established and funding is obtained for long-term monitoring and 
mitigation to assess and minimize environmental impacts and long-term 
costs. Such a comprehensive approach is desperately needed in Wyoming 
where gas drilling, especially drilling for coal bed methane, is 
causing extreme damage to water supplies and other environmental 
values.
References (partial list)
    Attanasi, E.D. 1998. Economics and the 1995 National Assessment of 
United States Oil and Gas Resources. USGS Circular 1145.
    Darin, T. 2000. Coalbed methane coming to a town near you. 
Frontline Report. Wyoming Outdoor Council. Spring 2000.
    Ecological Society of America, 1999. Letter to Forest Service Chief 
Dombeck on the Roadless Area Conservation Rule.
    Gauthier-Warinner, R.J. 2000?. Oil and gas development. In: 
Drinking water from forest and grasslands: A synthesis of the 
scientific literature. USFS GTR SRS-39. S. Research Station.
    Harmer, D. 2000. Roadless Area Specialist Report. Analysis of 
effects for recreation, wilderness, scenic quality, and recreation 
special uses. USDA Forest Service
    Krause, J. 2000. Roadless Area Specialist Report. Effects analysis 
for the FS Road System. USDA Forest Service
    LaFayette, R. 2000. Roadless Area Specialist Report. Analysis of 
effects for watershed health.
    USDA Forest Service
    Loomis and Richardson, 2000. The economic benefits of Forest 
Service roadless areas. Report prepared for The Wilderness Society.
    Morton, P. 2000. Wildland economics: theory and practice. In: Cole, 
David N.; McCool, Stephen F. 2000. Proceedings: Wilderness Science in a 
Time of Change. Proc. RMRS-P-000. Ogden, UT: U.S. Department of 
Agriculture, Forest Service, Rocky Mountain Research Station.
    Powder River Resource Council 2000. Coal Bed Methane News
    USDA Forest Service, 2000 Forest Service Roadless Area Conservation 
Rule, Final EIS.
    USDA Forest Service, 2001. Final Regulatory Flexibility Analysis 
for the Roadless Area Conservation Rule.
    USDA Forest Service, 2001. Regulatory Impact Analysis of the 
Roadless Area Conservation Rule.
    U.S. Geological Survey, 1995. The 1995 National Assessment of 
United States Oil and Gas Resources. CD-ROMs
    Western Organization of Resource Councils, 1999. Coalbed methane 
development: boon or bane for rural residents? Billings, MT.
                                 ______
                                 

    [Letter from The Ecological Society of America submitted for the 
record follows:]
[GRAPHIC] [TIFF OMITTED] T1552.012

[GRAPHIC] [TIFF OMITTED] T1552.013

    Mr. Peterson. Thank you very much.
    Mr. Phillips, I missed your testimony but can you explain 
to us what kinds of activities you foresee happening on these 
large roadless areas and how it will differ what happens on 
wilderness areas?
    Mr. Phillips. Before I do, it is nice to see you again. I 
enjoyed our conversations last year on gateway visitor centers. 
Hopefully we can continue that discussion.
    Mr. Peterson. Yes.
    Mr. Phillips. The roadless rule, which is under review by 
the administration, essentially prohibits construction and 
reconstruction of new roads. Activities that have occurred in 
the past on roads that are currently open will be allowed to 
continue. Current leases that exist in the roadless areas would 
be continued and allowed to renew those leases but only in the 
leased area.
    Mr. Peterson. What percentage of the 59 million acres do 
you think has a lot of roads in them?
    Mr. Phillips. Has a lot of roads?
    Mr. Peterson. Yes, substantial amounts of roads, existing 
roads.
    Mr. Phillips. About 2.8 million acres of the 58.5, I 
believe.
    Mr. Peterson. So a very small percentage has roads in it.
    Mr. Phillips. Correct.
    Mr. Peterson. So 2.8 from 59 is 56 million does not have 
roads.
    So I guess my question then is what kind of activity do you 
see happening in the 56 million acres that are roadless and 
will remain roadless?
    Mr. Phillips. They will still be open to many of the 
multiple use activities.
    Mr. Peterson. Such as?
    Mr. Phillips. Trail use.
    Mr. Peterson. Hiking?
    Mr. Phillips. Yes.
    Mr. Peterson. What else?
    Mr. Phillips. Mountain biking, snowmobiling.
    Mr. Peterson. Well, not if some people have their way.
    Mr. Phillips. And, as I said, existing leases, general 
leases.
    Mr. Peterson. I am a hunter, fisherman, hiker, but when you 
get beyond the age of 35 or 40, I do not find many people go 
very far from a road. I guess that is the part that has puzzled 
me with this. If this is public land for public use, forgetting 
all about resources, just public use, if that great percentage 
of this is still roadless, in a way I guess we are calling it 
wilderness.
    Most people, and hunters are probably a little less fearful 
than the average citizen--if you have ever been up in a small 
plane in hunting season and look where the orange suits are 
against the white snow, you go a mile from a road and you see 
very few orange suits. Go two miles from a road and you may see 
one occasionally. Go five miles from a road and you do not see 
anybody.
    Today's adults are not comfortable that far from a road. 
They are not that experienced about being out in the woods in 
the wilderness. I guess that is the part that bothers me, is 
are we not locking it up from public use, period? It would be 
interesting to look where five miles would take you but I would 
say the average citizen would not go five miles from a road An 
average young robust citizen is not going to go five miles from 
a road. You have campers and hikers that will go anywhere but 
they are the minority. That is just a very small percentage of 
it population.
    Let us be honest. Are we just locking it up for the 
critters? Is half the Forest Service for the critters?
    Mr. Phillips. I guess the only way I could respond is to 
say that there will be a lot of uses that could occur out 
there.
    Mr. Peterson. Could, but would they?
    Mr. Phillips. Depending on your ability to use that land, 
yes.
    Mr. Peterson. But it is certainly not for senior citizens, 
who would be careful about hiking five miles with potential 
health problems. It certainly is not going to be for people who 
have not been taught about the forest and how to get back to 
where you came from.
    I could get my father lost and he spent a lot of time in 
the woods but for some reason he did not have a good sense of 
direction and I could get him lost any time I wanted to hiking 
in the woods because he would just get lost; that is all. I 
would hear him whistling pretty soon and he needed help to 
figure out which hill we went around to get back out of there.
    I guess I was just wanting to make that point, that the 
roadless issue sounds good to some people but I guess in my 
view I think there is going to be very limited people-use. And 
I think to take half of the Forest Service land and lock it up 
to where it is almost not usable by the average citizen is a 
policy I do not think is well thought through. That is my own 
personal view.
    How will the Forest Service assure legal access to state 
and private lands within or adjacent to roadless areas?
    Mr. Phillips. I think the roadless rule, we have tried to 
be clear that there has been no intent to exclude or deny legal 
access to people's lands. So given that, in-holdings, those 
kinds of private uses would still be granted access.
    Mr. Peterson. Do you have any estimate on the amount of 
biomass on the national forest that could possibly be used for 
energy production and how much of this is on the roadless 
areas?
    Mr. Phillips. I do not. I believe this Committee addressed 
that yesterday in a hearing but I do not have that information. 
We can certainly try to get that to you.
    Mr. Peterson. I have an eight-page letter dated July 17, 
2000 from the Office of Advocacy of the Small Business 
Administration to the Associate Chief of the Forest Service. 
The letter raises concerns about the adequacy of economic 
analysis of the draft roadless rule.
    I understand that this watchdog for the small business 
community continued to work with Forest Service personnel about 
better assessing the roadless rule's economic impacts before 
the rule went final. Can you provide for the record copies of 
any or all correspondence with the Office of Advocacy regarding 
the Roadless Area Conservation Rule or broader transportation 
policy?
    Mr. Phillips. Certainly.
    Mr. Peterson. I will submit the letter dated July 17 for 
the record.
    [The requested materials follow:]
    [GRAPHIC] [TIFF OMITTED] T1552.014
    
    [GRAPHIC] [TIFF OMITTED] T1552.015
    
    [GRAPHIC] [TIFF OMITTED] T1552.016
    
    [GRAPHIC] [TIFF OMITTED] T1552.017
    
    [GRAPHIC] [TIFF OMITTED] T1552.018
    
    [GRAPHIC] [TIFF OMITTED] T1552.019
    
    [GRAPHIC] [TIFF OMITTED] T1552.020
    
    [GRAPHIC] [TIFF OMITTED] T1552.021
    
    [GRAPHIC] [TIFF OMITTED] T1552.040
    
    [GRAPHIC] [TIFF OMITTED] T1552.041
    
    [GRAPHIC] [TIFF OMITTED] T1552.042
    
    [GRAPHIC] [TIFF OMITTED] T1552.043
    
    [GRAPHIC] [TIFF OMITTED] T1552.044
    
    [GRAPHIC] [TIFF OMITTED] T1552.045
    
    [GRAPHIC] [TIFF OMITTED] T1552.046
    
    [GRAPHIC] [TIFF OMITTED] T1552.047
    
    [GRAPHIC] [TIFF OMITTED] T1552.048
    
    [GRAPHIC] [TIFF OMITTED] T1552.049
    
    [GRAPHIC] [TIFF OMITTED] T1552.050
    
    [GRAPHIC] [TIFF OMITTED] T1552.051
    
    [GRAPHIC] [TIFF OMITTED] T1552.052
    
    [GRAPHIC] [TIFF OMITTED] T1552.053
    
    [GRAPHIC] [TIFF OMITTED] T1552.054
    
    [GRAPHIC] [TIFF OMITTED] T1552.055
    
    [GRAPHIC] [TIFF OMITTED] T1552.056
    
    [GRAPHIC] [TIFF OMITTED] T1552.057
    
    [GRAPHIC] [TIFF OMITTED] T1552.058
    
    [GRAPHIC] [TIFF OMITTED] T1552.059
    
    [GRAPHIC] [TIFF OMITTED] T1552.060
    
    [GRAPHIC] [TIFF OMITTED] T1552.061
    
    [GRAPHIC] [TIFF OMITTED] T1552.062
    
    [GRAPHIC] [TIFF OMITTED] T1552.063
    
    [GRAPHIC] [TIFF OMITTED] T1552.064
    
    [GRAPHIC] [TIFF OMITTED] T1552.065
    
    [GRAPHIC] [TIFF OMITTED] T1552.066
    
    [GRAPHIC] [TIFF OMITTED] T1552.067
    
    [GRAPHIC] [TIFF OMITTED] T1552.068
    
    [GRAPHIC] [TIFF OMITTED] T1552.069
    
    [GRAPHIC] [TIFF OMITTED] T1552.070
    
    [GRAPHIC] [TIFF OMITTED] T1552.071
    
    [GRAPHIC] [TIFF OMITTED] T1552.072
    
    [GRAPHIC] [TIFF OMITTED] T1552.073
    
    [GRAPHIC] [TIFF OMITTED] T1552.074
    
    [GRAPHIC] [TIFF OMITTED] T1552.075
    
    [GRAPHIC] [TIFF OMITTED] T1552.076
    
    [GRAPHIC] [TIFF OMITTED] T1552.077
    
    [GRAPHIC] [TIFF OMITTED] T1552.078
    
    Mr. Peterson. Mr. Schaefer, throughout the roadless rule-
making process the Forest Service has said that mining is not 
prohibited; only the construction and reconstruction of roads. 
Would you please comment on whether this statement is true?
    Mr. Schaefer. Yes, Mr. Chairman. My testimony centered on 
the mines in Colorado and Utah, all of which are underground 
mines. So you have a vision of people underground mining and 
not having the need to access the surface but the simple fact 
is you have to. You need access to the surface to drill, to 
explore that coal seam, make sure of the geology, the quality, 
and to make sure that it is a piece of coal that is worth going 
after and spending the amount of money that it takes to get the 
infrastructure.
    Also, we have very stringent ventilation requirements for 
air flow underground to protect worker health and safety so 
with that, we also have to go to the surface and drill 
ventilation shafts and install fans. We also have to have roads 
up there to access those fans and maintain them, as well.
    So the simple fact is you do need access to the surface, 
even with underground mines.
    Mr. Peterson. And do you think you will have that?
    Mr. Schaefer. No, it is very clear in the Final 
Environmental Impact Statement and in the final rule that road 
construction and reconstruction is prohibited on roadless area 
surfaces.
    Mr. Peterson. Construction or reconstruction?
    Mr. Schaefer. Road construction and reconstruction.
    Mr. Peterson. Did the Forest Service play any role in the 
development of the maps you attached to your written testimony?
    Mr. Schaefer. No, those maps are ones that we developed 
ourselves. We had tried to obtain that information from the 
Department of Agriculture and the Forest Service. We had the 
same problem as the attorney general from Idaho had early on 
where we asked for maps to show here the boundaries of the 
roadless areas were located; we were told that they would be on 
the website but the website was not available until after the 
close of the public's scoping period.
    Once they finally did post them on the Internet they were 
on such a scale that they were virtually impossible to use for 
depicting local impacts, to see if we even had a problem. As an 
example, in Utah we first saw a map that was given to the 
Department of Energy by the Forest Service that showed areas, 
three particular coal tracts that were impacted, but we had 
already been told by the local Forest Service officials that 
there was no impact and unfortunately we took that at face 
value.
    So we developed these maps and then provided them to the 
Department of Agriculture and the Forest Service.
    Mr. Peterson. If my memory is correct, the first estimates 
were 30 some million acres and then it was 40 million acres and 
it ended up being 58, so there had to be a lot of changes in 
the process.
    Mr. Schaefer. I believe there were a lot of changes in the 
process. We felt like we were chasing a moving target for much 
of that. In fact, the maps that you see here, the Colorado and 
the Utah maps, took us the better part of a year to develop and 
present to the Forest Service and the Department of 
Agriculture. The Colorado map we finally finished around the 
first part of November 2000 and the Utah map was not available 
until December and that was after the issuance of the Final 
Environmental Impact Statement and during the process when they 
were drafting the final rule.
    Mr. Peterson. The Forest Service maintains that Forest 
Service lands account for about seven percent of the national 
coal production in '99. Do you think that is an accurate 
figure?
    Mr. Schaefer. I think that number is very low, Mr. 
Chairman, and the reason being most of this land is 
administered by the--the coal resource itself is managed by the 
Bureau of Land Management and there is a mixed surface. A lot 
of areas there is BLM surface, Forest Service surface, private 
surface, but the mineral itself is managed by the Bureau of 
Land Management.
    As such, the Forest Service I do not believe has a really 
good accurate way of determining how much coal is actually 
produced on their land. For example, in Wyoming we operate the 
Black Thunder Mine on the Thunder Basin National Grasslands, 
which is National Forest Service surface. In 1999 that single 
mine itself produced right about 5 percent of the nation's 
supply.
    In talking with two neighboring mines that also operate on 
the Thunder Basin National Grasslands, an informal survey 
showed that just those three mines in Wyoming were up around 8 
to 10 percent. Then you put in Colorado and Utah; I think it 
could be up in the order of 15 to 18 percent of the total coal 
supply comes from Forest Service lands.
    Mr. Peterson. Thank you very much.
    Mr. Schaefer. Thank you.
    Mr. Peterson. Mr. Eppink, the Forest Service Chief's letter 
to OMB dated January 2, 2001 pretty much dismissed the concerns 
of the DOE regarding access to oil and gas beneath the roadless 
areas of the national forests. How do you account for that?
    Mr. Eppink. I do not know that I can. We presented the 
study, DOE and myself, in November to the White House and what 
happened after that, really I was not privy to that process. I 
really cannot comment on that. I do not know exactly the 
procedure.
    Mr. Peterson. Mr. Otter? Do you have some questions?
    Mr. Otter. Thank you, Mr. Chairman.
    And to the panel, my apologies not having been in 
attendance here all the time. If I plow some old ground that 
already been plowed, if I go over some questions that have 
already been asked and you have responded to, my apologies 
again but it will be for my information and for some of the 
questions that I want to ask, the information that I want to 
get, it is going to be necessary for me to ask these.
    I would like to start out, if I might, and it is too bad my 
colleagues from the other side of the bench here are not here 
because one of them made a special point of what President Bush 
and then, of course, the attorney general, Mr. Ashcroft, has 
done relative to the enforcement of the roadless rule and I 
just want to remind them and put into the record that during 
the public comment period then-Vice President Gore and 
candidate Gore made a statement that the roadless decision was 
a done deal and that the administration, obviously as far as I 
was concerned at that point, did not care about the scoping 
period or what the testimony that was going to be offered by 
1.2 or 1.6 or however many people offered testimony or offered 
an opinion on the value of the roadless area. As far as I was 
concerned, the administration, if represented by Mr. Gore's 
comments, they did not care. It was a done deal in his terms 
and all the Forest Service had to do and the analysis, as far 
as I was concerned, all they had to do was come out to the end 
that was already predetermined.
    But I would like to begin my questioning by asking Mr. 
Morton of the Wilderness Society, one of the things that 
concerns us is that the 65 percent of the land mass of the 
State of Idaho, and you heard this number and I am sure you are 
sick and tired of hearing it as I am of saying it, but when you 
lock away 65 percent of the land mass of an area, that takes 
away from an economic base; that takes away more importantly, I 
think, from a taxing base that supports communities and society 
and education systems, public schools, fire departments, police 
departments, the building of necessary roads, whether they be 
not particularly those in the roadless area.
    And I think those of us that have all of a sudden brand new 
discoveries in our area are concerned about the lost potential 
energy resources and those things but does the Wilderness 
Society have any idea in mind on how we could replace the lost 
money because we no longer cut trees in the five national 
forests in Idaho, which when we cut the trees, there was a 
certain percentage of that that went to construct the 
elementary schools in the communities that it affected? It went 
to help support local systems of government. And right now, as 
I have said several times in front of this Committee, I think 
Idaho is down to around $17.2 million, which comes out to about 
80 cents an acre, whereas all the other private owners pay 
$8.80 per acre in taxes per year. If the Wilderness Society 
suggests that this land belongs to all the people, then you 
ought to all pay your taxes, so you ought to be paying $8.80 in 
taxes a year. And for the Forest Service alone it would be $173 
million.
    Can you tell me how I am going to support my local units? 
Or do we just wipe them off the map and maybe come up with 
another map problem? But do we just wipe, along with the 33 
mills that we have already shut down during the Clinton years 
in Idaho, do we just wipe these communities off the map?
    Mr. Morton. Well, I think last year the county payments 
bill separated county payments for schools from timber 
harvesting, so I think that problem is a little bit 
ameliorated.
    In terms of locking away, I do not think that is quite the 
right terminology. I think there are a lot of multiple uses 
that can still occur on these lands.
    In terms of the lumber mills shutting down, right now you 
have an oversupply problem. Wall Street analysts are saying you 
need to shut down because there is too much timber on the 
market, so I am not sure you can blame the roadless policy for 
those mills shutting down. It is a corporate decision based on 
profit maximization.
    And in terms of tax revenues, there have been studies that 
show that wilderness areas, property adjacent or nearby 
wilderness areas actually have a high property value. So you 
might think about more wilderness in terms of increasing 
property values and increasing revenues for those school kids.
    Mr. Otter. Well, unfortunately, if you have lived through 
one of these, and obviously you have not or you would not be 
able to make that kind of statement, sir, because when you see 
a city die, when you see a little town die and generations, 
five and six generations of people that have lived and worked 
in that community, whether it is on a ranch or in a lumber mill 
or in a mine or whatever, all of a sudden that is gone. Those 
people have to pack up and they have to go start a whole new 
life and a whole new generational process.
    I would like to move on to Mr. Moyer. Mr. Moyer, the 
Wilderness Society believes that those that are going to use it 
ought to pay a little bit more for it, I guess. So how much is 
Trout Unlimited willing to pay for access to the trout streams 
in the Clearwater reaches of the Clearwater National Forest?
    Mr. Moyer. I think we would be willing to pay.
    Mr. Otter. Would you care to say how much?
    Mr. Moyer. I have no idea how much more we would be willing 
to pay. I would just point out, as I did in my testimony, that 
our local chapters have worked throughout Idaho on Federal 
lands to work with the Forest Service, providing manpower and 
money to help the Forest Service conserve trout and salmon 
resources.
    So not only have our members paid the state fishing license 
fees but they have put out more and given more back to the 
resource in terms of those things that they have put forward to 
do that. So I think we have demonstrated that we are already 
willing to pay more so than a lot of others are.
    Mr. Otter. Do you have any idea what each member would have 
to pay in order to come up with $172 million?
    Mr. Moyer. I think you are forcing me to try to do math in 
public, which I vowed not to do.
    Mr. Otter. Must be a graduate of public schools.
    Mr. Moyer. You are exactly right about that. But I 
definitely think we would be willing to step up and do more 
watershed restoration than we are doing. Part of the problem is 
that the Forest Service does not have sufficient money to help 
us do that, to get us going.
    Mr. Otter. Well, I would just like to close, Mr. Chairman, 
and thank you both for your responses.
    I would just like to close, Mr. Chairman, by saying I am a 
grand slam lifetime member of Ducks Unlimited and I am sure, 
Mr. Moyer, being with Trout Unlimited, you know what that 
means. It is not that I am not committed to the natural 
resources and to habitat but along with all the other problems 
that we have and especially in the Clearwater National Forest, 
and this is the most pathetic thing that a lot of people do not 
understand, especially those east of the Mississippi River, and 
that is that we have lost the genesis of one of the greatest 
elk herds in the Pacific Northwest in the Clearwater National 
Forest because the habitat is gone. It has nothing to do with 
anything except for the fact that the canopy has grown so close 
together in the forest that the browse is gone.
    And it has everything to do with these same organizations 
like those sitting on the end of that table that come in and 
say we want wolves in Idaho and their preferred meal happens to 
be elk calf. And in that great herd that once sustained a lot 
of other herds around the United States and around the world, 
that great herd that once had something like 46 calves per 100 
cows is now down to three on a count by the U.S. Fish and 
Wildlife this year. Three calves per every 100 cows of calf-
bearing age.
    So it is more than just these esoteric things that 
everybody likes to talk about. It is real people leaving their 
real roots and somebody needs to care about that and I wish 
more than a couple of people at that table did.
    Thank you, Mr. Chairman.
    Mr. Peterson. Thank you. I just have to share with my 
friend from Idaho that I am from Western Pennsylvania.
    Mr. Otter. I said most of the people--
    Mr. Peterson. No, no, no. My district has a county called 
Elk in it because it has a very successful elk herd in it. In 
fact, it has been growing to the point that they are going to 
hunt next year and they have been stalking them in a couple of 
neighboring counties. They have moved them, not without some 
controversy, I believe, because when elk get in your farm 
fields they do a lot of harm. But we have a very successful elk 
herd in Pennsylvania in Elk County. If you are ever over there 
I will show it to you.
    Mr. Moyer, when your organization's mission to conserve, 
protect, restore cold water fisheries and their watersheds, how 
would you suggest that the Forest Service deal with the forest 
fuels problems in roadless areas to avoid or reduce 
catastrophic wildfires? I do not know whether you have ever 
flown over one of these wildfire areas but I have and it is 
stunningly devastating. I sometimes wonder how it will ever 
recover. How do we prevent that?
    Mr. Moyer. Well, on fire, sometimes that is true but 
oftentimes that is not true. Moderate to light fires are very 
much part of natural--
    Mr. Peterson. That is not what I am asking about. Some of 
the fires of the 7 million acres this year, what percentage of 
those would you claim were light? I flew over a large area in 
Idaho and Wyoming a number of years ago and there was not a 
blade of grass; there was nothing alive. The ground was cooked. 
They were horrendous fires. The hillsides were sliding into the 
valleys. The streams had to be totally annihilated. It was 
devastation, and we flew for a long time. I have never seen 
anything like it.
    And this fuel load will not create a light fire; it will 
create a fire that absolutely cooks the ground and it will be 
years before anything will grow there.
    Mr. Moyer. My understanding is that the vast amount of the 
fuel situations that are out there in the Forest Service are in 
roaded areas and not in the roadless areas. I think the problem 
that you are talking about is mostly in the roaded areas and 
especially in the urban forest interface.
    The Forest Service did allow for forest health work in 
roadless areas. Now whether they allowed enough flexibility for 
that or not, I am probably not the best judge but they did 
allow for harvest of trees within the roadless areas to take 
care of fire risk situations.
    Mr. Peterson. I believe some of the most serious fires last 
year were in roadless areas. Am I correct, Mr. Phillips?
    Mr. Phillips. In some parts of the country that is correct.
    Mr. Peterson. Okay, thank you.
    Mr. Morton, in your written testimony you assert that 
roadless areas hold very small quantities of oil and gas. 
Having heard Mr. Schaefer's testimony and having seen his maps, 
both of which persuasively demonstrate that there are, in fact, 
abundant energy resources below Colorado and Wyoming's roadless 
areas, would you like to amend your statement?
    Mr. Morton. No, because we did an analysis of oil and gas 
and he was talking about coal. In terms of coal, we have about 
1.7 trillion tons of coal in the United States. In the Powder 
River Basin alone you have almost 140 billion and with annual 
consumption of 1 billion, you have over 100 years of coal just 
in the Powder River Basin.
    Given some of the advances in solar technology, coal could 
actually be obsolete. We may never actually mine all the coal 
that is out there. So I would stick with my statement.
    Mr. Peterson. You said coal will soon be obsolete? Is that 
what I heard you say?
    Mr. Morton. No, I am saying I have seen economic research 
from people that said given the advances in solar technology 
and other renewable energies that the production of coal, the 
use of coal for energy production could drop dramatically in 20 
to 30 years so we may not even actually get to mining all the 
coal that is there.
    Mr. Peterson. Would you share that research with the 
Committee? I am on the Interior Subcommittee and we have been 
holding hearings and boy, I want to tell you the pie charts 10 
years out, 20 years out, I wish you were correct. If you have 
information that wind and solar and renewables are going to be 
that successful and where and how and the models that are 
working, I am all for that but I will tell you that is not the 
information we are receiving from this country's energy 
experts.
    Mr. Morton. Okay, I will track down a copy of the article.
    Mr. Peterson. For the record.
    [Report entitled ``Endogenous Substitution Among Energy 
Resources and Global Warming'' submitted for the record 
follows:]
[GRAPHIC] [TIFF OMITTED] T1552.022

[GRAPHIC] [TIFF OMITTED] T1552.023

[GRAPHIC] [TIFF OMITTED] T1552.024

[GRAPHIC] [TIFF OMITTED] T1552.025

[GRAPHIC] [TIFF OMITTED] T1552.026

[GRAPHIC] [TIFF OMITTED] T1552.027

[GRAPHIC] [TIFF OMITTED] T1552.028

[GRAPHIC] [TIFF OMITTED] T1552.029

[GRAPHIC] [TIFF OMITTED] T1552.030

[GRAPHIC] [TIFF OMITTED] T1552.031

[GRAPHIC] [TIFF OMITTED] T1552.032

[GRAPHIC] [TIFF OMITTED] T1552.033

[GRAPHIC] [TIFF OMITTED] T1552.034

[GRAPHIC] [TIFF OMITTED] T1552.035

[GRAPHIC] [TIFF OMITTED] T1552.036

[GRAPHIC] [TIFF OMITTED] T1552.037

[GRAPHIC] [TIFF OMITTED] T1552.038

[GRAPHIC] [TIFF OMITTED] T1552.039

    Mr. Schaefer, do you want to react?
    Mr. Schaefer. Thank you, Mr. Chairman. In our testimony we 
did highlight the fact that in Utah there is very much an 
undeveloped rail transportation system. The power plants that 
are there rely almost exclusively on the Utah coal-mining 
operations for their future. Most of those mines now are either 
underlaying or adjacent to roadless areas. The opportunity for 
bringing in coal from the Powder River Basin is simply 
nonexistent there.
    Then as you look at Colorado and Utah coals, those are both 
states that have very high-quality bituminous coals, very high 
in BTU content as opposed to a Powder River Basin coal, which 
is about two-thirds of the BTUs per similar weights per pound.
    A lot of the boilers that are constructed in the United 
States focus or need a very specific coal quality in which to 
operate, so as we ship coal from Utah to Tennessee Valley 
Authority, they need that particular type of coal and in many 
instances cannot burn a Powder River Basin coal.
    We are going to need access to all of our coals across the 
country--West Virginia, Kentucky, Colorado, Utah and Wyoming--
in order to make this--
    Mr. Peterson. Do not forget Pennsylvania.
    Mr. Schaefer. Pennsylvania. Yes, that is right.
    Mr. Peterson. Mr. Eppink, you were hired by the Department 
of Energy to analyze roadless during the Clinton 
Administration.
    Mr. Eppink. That is correct.
    Mr. Peterson. How much impact do you think your analysis 
had or how seriously was it taken in developing the final 
statement?
    Mr. Eppink. I think it was seriously taken. It certainly 
got a lot of attention.
    Mr. Peterson. You caught a lot of hell, huh?
    Mr. Eppink. We did the analysis very quickly. We spent 
about three or 4 weeks conducting the analysis and probably 3 
months defending it so it got a fair amount of attention, yes.
    Mr. Peterson. I am going to give each of the participants 
no more than 30 seconds to make a statement. Who would like to 
start? Who is ready to go with 30 seconds? Final comment.
    Wait. One final question. That will give you a little 
chance to think.
    Mr. Otter. Thank you, Mr. Chairman.
    This is a five-part question. No, it is only one question.
    Mr. Phillips, in 1914, there was probably one of the most 
devastating fires ever that went 582 miles through my district 
in Idaho. That is the Western District in Idaho. It burned 
millions of acres of forest, national forest, went through the 
Payette, the Clearwater, the Panhandle--gosh, I am going to 
forget one and offend somebody, I am sure. But anyway, it 
burned millions and millions of acres of forest. Most of that 
under a natural process was replaced by species of trees that 
have a lifespan of roughly 90 to 110 years. Is that not right? 
I just want a yes or no on that.
    Mr. Phillips. That is a tough one to answer because you 
have a lot of different species in Idaho, depending on the 
site. If it is lodgepole pine, that is correct.
    Mr. Otter. Okay, it was lodgepole pine, it was some firs 
and some white pine. But the species, the professionals tell 
me, will live to be 90 to 110 years old and that is it. We are 
right now on that threshold. That forest is going to start 
dying. There is nothing you can do about it.
    During that 1914 fire some of that area was so dense; in 
fact, one place is called Slate Creek. It is on the tributary 
to the St. Joe River. To this very day, Mr. Chairman, nothing 
grows on Slate Creek, areas of Slate Creek, because the earth 
was calcined so deep that there is nothing there to sustain 
life, any kind of life. And I think that whole age factor, 
which we have not talked much about, and the natural life cycle 
of that forest, we are on the threshold, whether we have a 
drought or not, we are on the threshold of those trees just 
starting to die naturally. Am I right or wrong?
    Mr. Phillips. I would say you are right in many of those 
areas.
    Mr. Otter. Thank you.
    Mr. Peterson. Now 30 seconds. Who wants to go first? Raise 
your hand. Mr. Moyer?
    Mr. Moyer. I just want the Subcommittees to consider three 
things. One is as you look at these roadless areas just 
consider the high value for habitat they have for a lot of 
trout and salmon and wildlife. Consider that roads damage trout 
and salmon habitat especially but often wildlife, wildlife 
habitat, as well.
    And three, I think a real area of common ground that we 
could work together on is working on maintaining and restoring 
roads that are part of this backlog that really need work. That 
would also put people to work in those areas that you were 
talking about, Mr. Otter, but also restore watersheds and make 
healthier systems for fish and wildlife. So those are the 
points that I wanted to make.
    Mr. Peterson. If your groups are willing to help lobby for 
the funds to fix the roads, that will be welcome because I have 
been here a few years and that has just been talk in the past. 
I felt there was a defense against putting money in the roads 
budget because it was about roads and rightfully or wrongfully, 
I think that not maintaining the roads has probably caused more 
problems than anything.
    Who is next? Mr. Eppink.
    Mr. Eppink. I just want to emphasize from our study we have 
done a number of these studies for DOE and elsewhere. This is 
one of the few studies when we concluded that the fact that a 
vast minority of the roadless areas contain the vast majority 
of especially oil and gas resources was pretty striking. I just 
want to emphasize that point.
    Mr. Peterson. Thank you.
    Mr. Phillips?
    Mr. Phillips. I wanted to thank the Committee's continued 
attention to the road backlog that came up a number of times 
today and recognize that that is a continuing problem. And a 
reminder that the roadless rule is still under review until May 
12.
    Mr. Peterson. Take your time.
    Next? I am just trying to be a little spirited. Go ahead.
    Mr. Schaefer. Thank you, Mr. Chairman. Just three quick 
summary points.
    When we talk about backlog of maintenance of roads, just to 
make sure you are clear that that is an irrelevant discussion 
with regard to the coal mining industry because we are solely 
responsible for the reclamation of the roads that we construct 
and any other surface disturbance associated with a mining 
operation.
    I reiterate that the Forest Service lands represent a 
significant amount of production, coal production, and 
necessary part of coal production for this country and our 
energy needs.
    The other one is just to again address the fact that if you 
want to shift coal production, say we do not need these 
existing mines, the coal can come from somewhere else, that 
that really ignores the local communities. The final 
environmental impact statement correctly noted that the 
economies of these rural Western towns is relatively inelastic 
and if you take away these high-paying jobs there is just 
simply not anything to back it up.
    Mr. Peterson. You get the final word.
    Mr. Morton. I just want to reiterate that when you look at 
the impacts of this policy there are a lot of benefits and you 
cannot just focus on the negative impacts.
    Mr. Peterson. Thank you.
    I would like to share just a thought with you and then I 
have a closing comment here and we are just about ready to 
conclude.
    I have had the privilege of working on the energy issue 
seriously for the last few years and about a year and a half 
ago when it became very apparent that a lot of gas was going to 
be committed to making electricity, which has not historically 
been a part of our energy plan in this country, I predicted to 
my staff and a few people that people heating their homes would 
pay significantly higher gas bills this year and they did. I do 
not claim I am some expert about predicting but I had concerns 
about that. From two to two and a half times they paid more for 
gas this year.
    I am here to predict I think next year will be worse and we 
are, with our current energy issues--I do not think people in 
this country really realize that with our current issues and 
the amount of gas we have already committed to electric 
generation, I do not think there is going to be gas to put in 
the ground for the winter season, which is normally how you 
build up the supply.
    And with the inability to repermit hydroplants, with the 
inability to repermit nuclear plants and the inability to build 
a new coal plant in this country, I want to tell you we are 
going to face--I mean California is not going to be alone long; 
we are going to face serious energy issues in this country.
    When you look at all the charts that go out for 10 and 20 
years, and I looked at them last week and we questioned some of 
our finest experts in this country, we are in trouble. And when 
we are dependent on oil from the most unstable part of the 
world, certainly not friendly places in the world, this country 
has gradually backed themselves into a very difficult energy 
issue.
    And all of those things I mentioned in the very slow 
projected growth on renewables, if you look at the big pie 
chart 10 years out, 20 years out, they are not predicting a lot 
of growth. I am a big supporter of hydrogen as one of our 
futures, personally. I think it may have more potential than 
any of the renewables.
    But we need growth in renewables. We need our hydro to keep 
running. We probably need to upgrade our nuclear and drill for 
a lot of oil and gas and dig more coal just to meet the growing 
needs in this country because what you are going to do is you 
are going to hit business hard. The businesses in my district 
that use energy to melt things, to cook things are having 
profitless years. A major paper company in my district, their 
energy budget took away their profitability for the year at the 
end of January.
    It has not hit the streets yet. You think Wall Street has 
been bad? You wait till some of the lack of profit statements 
come out from energy. My greenhouse growers do not expect to 
make money this year because of fuel costs. I mean it is going 
to hit everywhere. Buying gas in a vehicle is the small part of 
it. When it starts to get added in and rolled into the cost of 
doing business and when it happens that quickly, there is no 
way to raise prices and you are going to find a lot of 
profitless businesses in this country.
    In my view we have an awful lot of work to do and we had 
better not argue too much and we had better be able to agree on 
some things because in my view we are in serious trouble in 
energy.
    Closing comments here. It is no secret that if you want 
broad national policies to be accepted broadly you must get a 
critical mass of buy-in from the public, both nationally and 
locally. Polls asking only whether roadless areas deserve 
protection while avoiding how this should be done do not 
accurately represent the public's sentiment on this issue. 
Anyone who really believes that a lasting solution to the 
roadless debate can be achieved by forcing it through 
politically at the national level without substantial 
involvement at the state and local level is delusional. I am 
willing to work with anyone concerning further protection of 
roadless areas but never at the expense of effective local 
participation. These are not mutually exclusive goals; in fact, 
they can only be achieved together.
    I want to thank the witnesses on the second panel for their 
insights and members for their questions. The members of the 
Subcommittees may have some additional questions for the 
witnesses and we ask you to respond to those in writing. The 
hearing record will be held open for 10 days for these 
responses.
    If there is no further business before the Subcommittees I 
want to again thank everybody for their participation and this 
hearing is concluded.
    [Whereupon, at 4:42 p.m., the Subcommittees were 
adjourned.]


</pre></body></html>
